<html>
<title> - REAUTHORIZING THE HIGHER EDUCATION ACT: OPPORTUNITIES TO IMPROVE STUDENT SUCCESS</title>
<body><pre>[Senate Hearing 114-695]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-695

   REAUTHORIZING THE HIGHER EDUCATION ACT: OPPORTUNITIES TO IMPROVE 
                            STUDENT SUCCESS

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

     EXAMINING REAUTHORIZING THE HIGHER EDUCATION ACT, FOCUSING ON 
                OPPORTUNITIES TO IMPROVE STUDENT SUCCESS

                               __________

                             AUGUST 5, 2015

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-849 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman

MICHAEL B. ENZI, Wyoming           PATTY MURRAY, Washington
RICHARD BURR, North Carolina       BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia            BERNARD SANDERS (I), Vermont
RAND PAUL, Kentucky                ROBERT P. CASEY, JR., Pennsylvania
SUSAN COLLINS, Maine               AL FRANKEN, Minnesota
LISA MURKOWSKI, Alaska             MICHAEL F. BENNET, Colorado
MARK KIRK, Illinois                SHELDON WHITEHOUSE, Rhode Island
TIM SCOTT, South Carolina          TAMMY BALDWIN, Wisconsin
ORRIN G. HATCH, Utah               CHRISTOPHER S. MURPHY, Connecticut
PAT ROBERTS, Kansas                ELIZABETH WARREN, Massachusetts
BILL CASSIDY, M.D., Louisiana

               David P. Cleary, Republican Staff Director
                  Evan Schatz, Minority Staff Director
              John Righter, Minority Deputy Staff Director

                                  (ii)

  
























                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                       WEDNESDAY, AUGUST 5, 2015

                                                                   Page

                           Committee Members

Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
    Prepared statement...........................................     3
Murray, Hon. Patty, a U.S. Senator from the State of Washington, 
  opening statement..............................................     5
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...    18
Collins, Hon. Susan M., a U.S. Senator from the State of Maine...    39
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    42
Cassidy, Hon. Bill, a U.S. Senator from the State of Louisiana...    43
Baldwin, Hon. Tammy, a U.S. Senator from the State of Wisconsin..    45
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................    47
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    49

                               Witnesses

Jones, Stan, President, Complete College America, Indianapolis, 
  IN.............................................................     8
    Prepared statement...........................................    10
Ralls, R. Scott, President, North Carolina Community College 
  System, Raleigh, NC............................................    14
    Prepared statement...........................................    16
Renick, Timothy, Ph.D., M.A., Vice Provost and Vice President for 
  Enrollment Management and Student Success, Georgia State 
  University, Atlanta, GA........................................    19
    Prepared statement...........................................    21
Richburg-Hayes, Lashawn, Ph.D., President, Young Adults and 
  Postsecondary Education, MDRC, New York, NY....................    23
    Prepared statement...........................................    25

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    .............................................................
    Response by Stan Jones to questions of:
        Senator Alexander........................................    53
        Senator Cassidy..........................................    54
        Senator Collins..........................................    55
        Senator Enzi.............................................    55
        Senator Murray...........................................    56
        Senator Warren...........................................    56
    Response by R. Scott Ralls to questions of:
        Senator Alexander........................................    57
        Senator Cassidy..........................................    58
        Senator Collins..........................................    59
        Senator Enzi.............................................    59
        Senator Murray...........................................    60
        Senator Warren...........................................    61
        Senator Scott............................................    62

                                 (III)
    Response by Timothy M. Renick to questions of:
        Senator Alexander........................................    62
        Senator Cassidy..........................................    64
        Senator Collins..........................................    65
        Senator Enzi.............................................    66
        Senator Murray...........................................    67
        Senator Warren...........................................    68
        Senator Scott............................................    69
    Response by Lashawn Richburg-Hayes to questions of:
        Senator Alexander........................................    75
        Senator Cassidy..........................................    79
        Senator Collins..........................................    80
        Senator Enzi.............................................    81
        Senator Murray...........................................    81
        Senator Warren...........................................    83
 
   REAUTHORIZING THE HIGHER EDUCATION ACT: OPPORTUNITIES TO IMPROVE 
                            STUDENT SUCCESS

                              ----------                              


                       WEDNESDAY, AUGUST 5, 2015

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
SD-430, Dirksen Senate Office Building, Hon. Lamar Alexander, 
chairman of the committee, presiding.
    Present: Senators Alexander, Isakson, Collins, Cassidy, 
Enzi, Murray, Murphy, Baldwin, Bennet, Warren, and Franken.

                 Opening Statement of Senator Alexander

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order. This is our 
eighth hearing during this Congress on the reauthorization of 
the Higher Education Act.
    Senator Murray and I will each have an opening statement. 
Then we'll introduce our panel of witnesses. After our 
witnesses' testimony, Senators will have 5 minutes of questions 
each.
    We expect to have a vote at 10:30. We won't be deterred by 
that. We'll take turns with the gavel, so as long as Senators 
are here, we'll continue the line of questions so we don't slow 
things down.
    Today's hearing is really about finding out if there is a 
way the Federal Government can help more students finish 
college. Few students can afford to be stuck with debt and no 
degree, but that is what's happening to far too many college 
students. Federal aid programs are designed to help people 
working to earn a degree or a certificate in 1-, 2-, or 4-year 
programs.
    According to the National Student Clearinghouse, only 55 
percent of any students complete a degree or certificate within 
6 years. The problem is even worse for low-income students: 8.6 
million low-income students received Pell Grants from the 
Federal Government last year. Department of Education data says 
that only 45 percent of these students achieve a degree or 
certificate within 6 years.
    There are 7 million borrowers in default on their Federal 
student loans, and the Department of Education says that 
borrowers are three times more likely to be in this situation 
if they did not finish any degree or credential.
    We know that students who do not finish their program are 
less likely to benefit with a better job or salary.
    I'd like to briefly address today: Why are so many American 
college students leaving before they graduate? What role can 
the Federal Government play in, No. 1, encouraging students, 
particularly those receiving Pell Grants and other Federal 
financial aid, to finish what they've started; and, No. 2, 
encouraging colleges and universities to help their students 
make progress and graduate?
    I'm going to submit my entire statement to the record, but 
let me summarize what it says.
    Why students aren't graduating seems to focus on these 
things:
    Part-time enrollment and slow progress. Students with a 
full-time course load, meaning 15 credits per semester, who 
consistently enroll full-time are most likely to graduate. 
However, a 2013 survey of institutions showed the majority of 
so-called full-time college students aren't taking the credits 
needed to finish a 4-year degree for a bachelor's or in 2 years 
for an associate degree.
    Inadequate high school education. According to the 
Community College Research Center, most remedial students never 
get past remediation.
    Financial difficulties. Students from low-income 
backgrounds face pressures, making them more likely to drop 
out.
    What can the government do? Senator Bennet and I have 
offered a proposal to simplify the student aid application 
form, the FAFSA. Testimony before our committee said that it 
discourages as many as 2 million students from applying for 
Federal financial aid. Many students continue working or have 
to get a job while they're in school.
    Two years ago, Austin Peay State University in Clarksville 
testified at this committee about the success it has had with 
remedial education. Half of Austin Peay students need to take 
remedial courses once they're enrolled. The university 
redesigned its remedial education so that students who lack 
some skills in math, reading, or writing enroll in credit-
bearing college courses with additional required workshops to 
help them catch up.
    Before using this approach, only 10 percent of the remedial 
math students ever completed a college-level math class. 
Seventy percent do now.
    A maximum Pell is often awarded to a student who is really 
not attending full-time. That's one reason. Federal aid does 
not encourage students to complete their degree as quickly as 
they can.
    Second--and your testimony reflects this--Federal aid 
progress requirements seem to lack teeth.
    Third, Federal aid today can be used to subsidize studies 
unfocused toward the degree. A student can use the Pell grant 
to take 90 credits, as many as 90, for a 60-credit associate's 
degree. The longer a student takes, the less likely they are to 
finish. Taking classes that get students off course from their 
goal could be detrimental to completion.
    Federal policy has emphasized access rather than 
completion. We are looking to see whether we need to find ways 
to encourage over 6,000 higher education institutions to 
prioritize and encourage student success without throwing a 
big, wet blanket of a Federal mandate that smothers 
universities, that might work at Austin Peay but might not work 
at the University of Maryland, that might be good at Yeshiva 
but might not be good at Harvard.
    We look forward to the testimony of the witnesses, and we 
thank you for coming.
    [The prepared statement of Senator Alexander follows:]

                Prepared Statement of Senator Alexander

        DRAFT TALKERS FOR HIGHER EDUCATION HEARING ON COMPLETION

    The Senate Committee on Health, Education, Labor and 
Pensions will please come to order. This is our eighth hearing 
during this Congress on the reauthorization of the Higher 
Education Act. Ranking Member Murray and I will each have an 
opening statement, then we will introduce our panel of 
witnesses. After our witnesses' testimony, Senators will each 
have 5 minutes of questions.
    Today's hearing is really about finding out if there is a 
way for the Federal Government to help more students finish 
college. Few can afford to be stuck with debt and no degree, 
but this is what's happening to far too many college students.
    Federal aid programs are designed to help people working to 
earn a degree or a certificate in 1-, 2-, or 4-year programs.
    According to the National Student Clearinghouse, only 55 
percent of these students complete a degree or certificate 
within 6 years. The problem is even worse for low-income 
students.
    8.6 million low-income students received Pell Grants from 
the Federal Government last year.\1\
---------------------------------------------------------------------------
    \1\ Department of Education, Pell End of year report, 2013-14.
---------------------------------------------------------------------------
    Department of Education data finds only 45 percent of these 
students achieve a degree or certificate within 6 years.\2\
---------------------------------------------------------------------------
    \2\ Brookings Institution: Hamilton Project, October 2013, 
Redesigning the Pell Grant Program for the Twenty-First Century, Policy 
Brief 2013-14.
---------------------------------------------------------------------------
    There are 7 million borrowers in default on their Federal 
student loans, and the Department of Education says that 
borrowers are three times more likely to be in this situation 
if they did not finish any degree or credential.
    We know that students who do not finish their program are 
less likely to benefit with a better job or salary. So, I'd 
like to briefly address today:

    <bullet> Why are so many American college students leaving 
before they graduate?
    <bullet> What role can the Federal Government play in:

        <bullet> LEncouraging students--particularly those 
        receiving Pell Grants and other Federal financial aid--
        to finish what they've started?
        <bullet> LEncouraging colleges and universities to help 
        their students make progress and graduate?

                   1. WHY STUDENTS AREN'T GRADUATING

    What seems to make students successful and what indicators 
suggest why they are more likely to dropout?

    <bullet> Part-time enrollment and slow progress: Research 
shows that students with a full-time course load, meaning 15 
credits per semester, who consistently enroll full-time are 
most likely to graduate.\3\ However, a 2013 survey of 
institutions showed, the majority of so-called full-time 
college students are not taking the credits needed to finish in 
4 years for a bachelor's degree or in 2 years for an associates 
degree.
---------------------------------------------------------------------------
    \3\ Klempin, S. 2014. Redefining Full-Time. Community College 
Research Center: Columbia University.

        <bullet> LFor students who are going full- or part-
        time, not taking a break from school increases the 
---------------------------------------------------------------------------
        likelihood of completion by 43 percent.

    <bullet> Inadequate high school education: Students who 
need to take remedial courses to catch up to their peers in 
college face one of the biggest barriers to timely graduation. 
According to the Community College Research Center at Columbia 
University Teachers College, most remedial students never even 
get past remediation.
    <bullet> Financial difficulties: Students from low-income 
backgrounds face financial pressures during college that make 
them more likely to drop out.

    2. WHAT ROLE CAN THE GOVERNMENT PLAY IN ENCOURAGING GRADUATION?

    Senator Bennet and I have a proposal to simplify the 
dreaded 108-question FAFSA to a simple postcard of about two 
questions. We understand that this will remove an obstacle that 
each year discourages about 2 million students from applying 
for Federal financial aid. And for some, it discourages 
reapplying for aid to continue in their studies.
    Many or even most of the students who are eligible but not 
applying and enrolling in college are low-income students who 
would be the first in their family to attend college.
    Some are adults already in the workforce.
    Many of the students may continue working or have to get a 
job while they attend school.
    Some institutions, including some of the ones we have 
represented here today, have found ways to provide students 
with needed support to progress through their classes and reach 
their ultimate goal--a degree or credential.
    Two years ago, Austin Peay State University in Clarksville, 
TN, testified in front of this committee about success it has 
had with remedial education.
    Half of Austin Peay students need to take remedial courses 
once they are enrolled.
    The university redesigned their remedial education so that 
students who lack some skills in mathematics, writing, or 
reading enroll in credit-bearing college courses, with 
additional required workshops to help them catch up.
    Before using this approach, only 10 percent of their 
remedial math students ever completed a college-level math 
class--now 70 percent do. Those students could never get their 
degree without passing that college-level math.
    Despite the good work of some institutions, today Federal 
aid does not encourage students to complete their degree as 
quickly as they can, which ideally is on time.
    First, maximum Pell is often awarded to a student who's 
really not attending full-time: For example, a student gets 
their full Pell grant amount if they take 24 credits in a year, 
but a student generally must take 30 credits a year to graduate 
on-time.
    Second, Federal aid progress requirements seem to lack 
teeth: Students must meet a ``satisfactory academic progress'' 
standard to remain eligible. This definition is set by 
institutions with broad requirements from Federal regulations, 
including a minimum grade point average and passing a minimum 
percentage of credits successfully.
    These requirements may not require enough focused 
progression through a degree or certificate program and the 
timing of the evaluation of progress can be too late for 
students to change course.
    Third, Federal aid today can be used to subsidize studies 
unfocused toward the degree: For example, a student can use 
their Pell grant to take 90 credits for a 60-credit associates 
degree.
    The longer a student takes, the less likely they are to 
finish, taking classes that get students off-course from their 
goal could be detrimental to completion.
    Of course, some students may want to take courses that 
don't help them meet requirements for graduation--but whether 
Federal aid should be allowed to be used for that is a question 
before the committee.

                               Conclusion

    Federal policy has emphasized access rather than 
completion, and we recognize that college students are adults 
who have the autonomy and responsibility for making decisions 
for themselves.
    I think we need to find a way to encourage our over 6,000 
institutions to prioritize and encourage student success 
without throwing a big, wet blanket of a Federal mandate--that 
smothers universities--that might work at Austin Peay but might 
not work at the University of Maryland, that might be good at 
Yeshiva but not at Harvard.
    I look forward to hearing a variety of successful 
strategies that are working or showing promise from our panel 
today.
    I believe the solutions that we hear will note that there 
is no one-size-fits-all solution to improving student success.
    I am particularly interested in hearing how Federal 
policies may hinder creative solutions or could better promote 
student progression toward on-time completion, saving the 
student money and allowing them to graduate with less debt.

    Senator Murray.

                  Opening Statement of Senator Murray

    Senator Murray. Thank you, Mr. Chairman. Higher education 
is really critical to ensuring the economic strength of our 
middle class, and I believe it is a critical part of building 
an economy that works for all of our families, not just the 
wealthiest few.
    Let's remember that in the years ahead, more and more jobs 
will actually require education beyond high school. We have an 
economic stake in helping as many students as possible go to 
college and complete their degrees. That is how we will remain 
competitive in the 21st century global economy.
    As we work together on this committee to reauthorize the 
Higher Education Act, there are a few principles I'm going to 
focus on to make sure that more students can pursue their 
degree. I'm going to continue to look for ways to make college 
more affordable and reduce the crushing burden of student debt. 
As we talked about last week, I will be especially focused on 
making sure students have access to a safe learning 
environment.
    More students from all walks of life should have strong, 
clear pathways into and through higher education. Creating 
pathways for student success is what we'll be focused on today, 
and it's clear there is lots of room for improvement.
    Federal data show that just 60 percent of first-time 
students who attend full-time complete their 4-year degrees 
within 6 years. Even fewer students complete their degrees on 
time. Many of the other 40 percent of students likely dropped 
out without the advantages of a college degree, while 
oftentimes trying to pay off student debt. Many students at 
community colleges struggle to make it to graduation or 
successfully transfer to a 4-year program.
    While college completion rates for students from more 
affluent backgrounds have increased over the past 40 years, the 
same is not true for students from low-income backgrounds. Just 
9 percent of people from the lowest-income bracket graduated 
with a college degree by the time they reached age 24. That's 
only up from 6 percent in 1970.
    Students today face many barriers to completing their 
degrees and credentials. There are several policies we can 
pursue to improve those completion rates. For one, in high 
school, we need to make sure that they graduate college- and 
career-ready. I'm glad that earlier this month, the Senate 
voted to pass a bipartisan bill from Chairman Alexander and I 
that would be a strong step in the right direction to do just 
that.
    Today, many students drop out because they worry about 
mounting student debt or they have family or work 
responsibilities that make it impossible for them to continue 
earning their degree. We also need to provide adequate 
financial aid and lower costs to help improve student success. 
We also need better data on student outcomes from colleges and 
universities if we're going to help students effectively.
    It is hard to believe, but higher education data ignores 
part-time students, transfer students, adults who are returning 
to school, students in remediation, and Pell grant recipients. 
We should know how these students are doing to make sure we're 
making effective policy decisions based on solid evidence.
    I'm very concerned that some of my colleagues have 
suggested penalizing financial aid recipients and students from 
low-income backgrounds by tightening eligibility and other 
requirements in a misguided effort to try to motivate their 
success. Recent research suggests the exact opposite. Students 
don't succeed when financial aid policies only serve to punish 
rather than reward and support.
    For first generation college students, for students from 
low-
income backgrounds, and for students who are struggling in 
college, we need to incentivize institutions of higher 
education to have support systems in place. That includes 
structured pathways toward earning a degree so students see a 
clear route to graduation. It includes programs for college 
mentoring and advising so students stay on track. It includes 
individualized counseling for students who need extra help.
    When students have access to a support system, evidence 
shows that they are much more likely to complete their degrees. 
I'm looking forward to hearing from Dr. Richburg-Hayes on how 
increasing access to student services can help students, 
including the highly regarded CUNY ASAP program.
    To me, improving outcomes at colleges and universities is 
an important piece of our work to grow our economy from the 
middle out. The success of students today will help guarantee 
that our Nation will be able to compete and lead the world in 
the years to come. I look forward to hearing testimony from all 
of you today. I really appreciate you being here.
    Mr. Chairman, thank you for holding this hearing.
    The Chairman. Thank you, Senator Murray.
    The vote was changed to 2 o'clock. So we won't have that 
interruption this morning due to the vote on the Senate floor.
    Our first witness today is Stan Jones, president and 
founder of Complete College America. His organization partners 
with States with a goal of substantially increasing the number 
of Americans with a postsecondary credential. Prior to founding 
Complete College America, he served 16 years in the Indiana 
legislature, was a senior advisor to Governor Bayh, and was 
Indiana Commissioner for Higher Education for a decade.
    Dr. Scott Ralls, president of North Carolina Community 
College System, is our next witness. This system serves almost 
830,000 people annually. During the last 10 years, over 40 
percent of North Carolina's wage earners have been students at 
one of the State's 58 community colleges. Next month, Dr. Ralls 
will assume the presidency of Northern Virginia Community 
College System.
    Our next witness is Dr. Timothy Renick, vice provost, 
professor, and vice president for Enrollment Management and 
Student Success at Georgia State University. Over the past 
decade, Georgia State has doubled the number of at-risk 
students enrolled, but, more importantly, improved graduation 
rates by 22 percentage points and closed achievement gaps based 
on race and income.
    Both Senator Burr and Senator Isakson had hoped to be here 
and may still be here. They're in a Finance Committee meeting 
and wanted me to say that to both of you.
    Our final witness is Dr. Lashawn Richburg-Hayes, director 
for Young Adults and Postsecondary Education at MDRC, a 
nonprofit, nonpartisan policy research organization in New York 
City. Dr. Richburg-Hayes focuses her work on academic 
achievement and persistence for low-income students at 
community colleges and less selected 4-year colleges. She has 
overseen some of the most rigorous experiments on how financial 
aid can be provided to students in ways that cause them to 
change their behaviors in order to succeed in school.
    I look forward to everyone's testimony. If each of you 
would summarize your comments in about 5 minutes, that'll leave 
more time for us to have a conversation with you in our 
questioning.
    Why don't we start with you, Mr. Jones, and go right down 
the line.

 STATEMENT OF STAN JONES, PRESIDENT, COMPLETE COLLEGE AMERICA, 
                        INDIANAPOLIS, IN

    Mr. Jones. Thank you, Mr. Chairman, Senator Murray, and 
other members of the committee. Many of the remarks that you 
both made highlight my testimony.
    Complete College America is an alliance of States. We work 
with 35 States across the country. We primarily work with 
States, Governors, legislators, and key higher education 
officials. We're entirely funded by foundations, like the Gates 
Foundation, Lumina, Carnegie, and Kellogg.
    Just to highlight some of the points you made, I thought it 
was interesting that during the peak of the recession, when the 
most people were out of work, we had record breaking enrollment 
across this country at our colleges. At most colleges, it was 
record breaking, especially the community colleges.
    It really points out that people are willing to go to 
college, are desperate to go to college, in order to better 
themselves. I have a handout here that I'm not going to go 
through, but I'm just going to refer to it from time to time.
    Even given the huge amount of effort that we've made in 
access, the bottom quartile, income-wise--only 10 percent of 
those students get a 4-year college degree. From the second 
income quartile, only 15 percent get a 4-year college degree, 
and from the third income quartile, only about 34 percent of 
those students get a 4-year college degree.
    College really only works for those in the upper quartile, 
and that's a combination of factors. For so many students, it's 
the structure of our colleges and universities that have failed 
them.
    As both Senators have pointed out, we don't graduate 
students in any sector except the flagships and the private 
sector. Community college graduation rates can range from 15 
percent to 25 percent. Four-year, non-flagship rates can range 
about 40 percent, and virtually nobody graduates on time.
    We put out a report about 6 months ago called Four-Year 
Myth. Hardly anybody graduates in 4 years. Even at the 
flagships, less than half of those students graduate in 4 
years. We found in our report that out of 580 public, 4-year 
universities, only 50 graduated 50 percent of their students 
within 4 years.
    Students take longer, obviously, to get a degree than they 
used to--3.6 years at a 2-year college and 4.9 years at many 4-
year colleges. Not surprisingly, the fifth year, the sixth 
year, costs more money, but it's also lost wages in the 
workforce.
    Two studies by two different universities, the University 
of Texas and Temple University, indicate that student debt 
really spikes after the fourth year. Students have run out of 
traditional resources. A 70 percent increase in student debt 
occurs after that fourth year.
    We have focused on what we call our game changers, things 
that significantly make a difference. There's only five of them 
that we recommend. Senator Alexander has referred to several.
    One is transparency of information. Many colleges and many 
States are completely unaware of the remediation crisis, for 
example, that we have, the lack of completion that we have, how 
long it takes students. This is not data that the Federal 
Government collects. We don't collect at the Federal level 
graduation rates for Pell students, for example.
    The billions of dollars we spend on Pell--we don't know 
whether those students graduate or not. I know it's been back 
and forth, back and forth, about whether we even know whether 
the veterans graduate or not. There's some core--not many, but 
some core things that the Federal Government could collect in 
terms of transparency around these key issues.
    It's hard for policymakers at your level, at the State 
level, to make these decisions without having graduation rates 
for Pell students, graduation rates for veterans, graduation 
rates for transfer students, remediation rates. This 
information simply doesn't exist.
    Senator Alexander mentioned remediation. Sixty percent of 
all students at community colleges start in remediation. Very 
few finish. As he pointed out, Austin Peay has a great model. 
They're taking it statewide. Similar models like that are being 
taken statewide in about a half a dozen States. This could be 
done--right now, you allow 30 credit hours of Pell. Some of 
that money could be used to support students in credit-bearing 
classes.
    Just a couple of other things in the seconds that I have 
remaining. Structure is hugely important. Again, in Tennessee, 
you have the Tennessee tech centers, Senator, and their 
graduation rate is about 75 percent to 80 percent. The 
placement rate is about 80 percent. That's about five times the 
rate in terms of graduation as typical community colleges with 
similar programs.
    It really is all about structure. These programs, where 
they've been duplicated, have shown significant success.
    The last one I want to mention, which you referenced, is 15 
credit hours. The Pell program does not incent students to take 
more than 12. De facto, most students in the country full-time 
take 12 credit hours or less, so they're already on the 5-year 
plan. We would propose thinking about providing incentives for 
students to take 15 credit hours.
    There are some examples here where States and institutions 
that have done that have doubled in 1 year the numbers of 
students that are taking 15 credit hours or more. They're more 
likely to graduate and, clearly, more likely to graduate on 
time.
    These things can be done. It's not a problem with the 
students. It's not a problem with faculty. It's a problem with 
how we've structured these institutions. By providing more 
structure, like the Tennessee tech centers, which is very 
simple--you mentioned the SAP program in New York City--also 
very simple. Students go in the morning, Monday through Friday, 
8 to 12. It's a block schedule. Or they go in the afternoon and 
it's a block schedule. Tennessee tech centers--the same way.
    Tennessee tech centers take attendance, an underappreciated 
strategy. That's why they can get 75 percent to 80 percent 
completion rates.
    A lot of these issues can be addressed----
    The Chairman. We need to wind down and go to the next 
witness when you're finished.
    Mr. Jones. Sure. In conclusion, what we recommend are only 
four or five game changers that provide substantial success--
performance funding is another one--and have provided success 
as these have been implemented across colleges and States.
    Thank you very much.
    [The prepared statement of Mr. Jones follows:]
                    Prepared Statement of Stan Jones
                                summary
    For the last 6 years, Complete College America has worked closely 
with 33 States, the District of Columbia, and the Commonwealth of the 
Northern Mariana Islands with a single mission in mind: increase the 
number of Americans with a college degree or credential of value, and 
close persistent attainment gaps for traditionally underrepresented 
populations.
    This critical work has been driven by the reality that despite 
decades of work in the access agenda, America faces a college 
completion crisis. A failure to act decisively on these issues would 
perpetuate an ongoing skills gap that threatens our economic future and 
degrades our intellectual leadership around the world.
    The strategies outlined below are instrumental in achieving those 
successes. The Game Changers are designed to give States and campuses 
the greatest return on investment. These strategies, which we are 
working to implement every day, are achieving transformational results 
around the country--gains in student success that are 20, 30 or 40 
percentage points greater than current practices.

    <bullet> Corequisite Remediation--Default many more unprepared 
students into college-level gateway courses with mandatory, just-in-
time instructional support parallel to high structured coursework.
    <bullet> Fifteen to Finish--Inform and incentivize students to 
attend full-time and ensure that full-time means 15 credits per 
semester or 30 credits per year. Use banded tuition so that 15 credits 
per semester cost students no more than 12 credits.
    <bullet> Guided Pathways to Success (GPS)--Enabled by technology, 
default students into highly structured degree plans, not individual 
courses. Start students in a limited number of meta-majors, which 
narrow into majors. Map out every semester of study for the entire 
program, and guarantee that milestone courses will be available when 
needed. Use built-in early warning systems to alert advisers when 
students fall behind.
    <bullet> Structured Schedules--Help working students balance jobs 
and school by using structured scheduling of classes to add 
predictability to their busy lives--doing so enables many more students 
to attend college full-time, shortening their time to completion and 
reducing costs of attendance.
    <bullet> Performance Funding--Pay for performance, not just 
enrollment. Use the CCA/NGA metrics to tie State funding to student 
progression and completion.

    There are any number of innovations we can employ to move the 
needle on college completion, but the magnitude of these challenges 
requires that our reforms be structural and systemic. The Game Changers 
are proven strategies that lead to real and lasting results. When it 
comes to college completion, our Nation cannot afford to wait any 
longer. We must take action now.
                                 ______
                                 
                              introduction
    Since our founding in 2009, Complete College America has worked 
closely with 33 States, the District of Columbia, and the Commonwealth 
of the Northern Mariana Islands with a single mission in mind: increase 
the number of Americans with a college degree or credential of value, 
and close persistent attainment gaps for traditionally underrepresented 
populations.
    This critical work has been driven by the reality that America 
faces a college completion crisis, and a failure to act decisively on 
these issues would perpetuate an ongoing skills gap that threatens our 
economic future and degrades our intellectual leadership around the 
world.
    A look at the data shows just how serious this challenge is for our 
country: only 4 percent of full-time students complete an associate 
degree on time, that is, within 2 academic years. At non-flagship, 4-
year institutions, only 19 percent complete their degree on time. Even 
given 3 years for an associate degree and 6 years for a bachelor's 
degree, these numbers inch up only slightly to 13 percent and 45 
percent respectively. For part-time students, the results are even more 
discouraging.
    These consistently low completion rates come at a great cost to 
students and their families. In our 2014 report, Four-Year Myth, we 
outlined that each additional year of college costs 2-year students 
over $50,000 in tuition, fees, lost wages, and other expenses and close 
to $70,000 for 4-year students. Further, data taken from Temple 
University and University of Texas-Austin show that 2 extra years at 
their campuses increase debt by nearly 70 percent among students who 
borrow. Add it all up, and everyone loses. The public invests in 
college studies that--for too many students--often lead nowhere. 
Students defer earning income, and they and their families take on 
massive amounts of debt to earn degrees that could be much less time 
consuming and costly.
    Additionally, while we have experienced great success in the 
college access agenda, a closer look at graduation day reveals that 
those who do eventually earn degrees are not representative of the rich 
diversity that defines this Nation. The hopes raised by nearly 
equitable enrollments in the freshman class for students of color, low-
income students, and first generation students are crushed by gaps in 
achievement and completion.
    Taken together, this crisis costs our Nation and the States 
billions of dollars, contributes to the more than $1 trillion in 
student loan debt, and stifles our economic growth.
    There is no doubt that the mission to boost college completion and 
success is a difficult one, but this work is critical. Complete College 
America's Alliance of States, now at 35 members, is ensuring that both 
colleges and higher education policymakers value access and success 
equally. We are working together to identify and enact powerful reforms 
that help students succeed. New laws are being forged. New policies are 
being implemented. And students are beginning to enjoy the rewards of a 
reinvented system of American higher education.
    The strategies outlined below are instrumental in achieving those 
successes. The Game Changers are designed to give States and campuses 
the greatest return on investment. These strategies, which we are 
working to implement every day, are achieving transformational results 
around the country--gains in student success that are 20, 30 or 40 
percentage points greater than current practices. The success of these 
efforts are the result of tackling systemic problems head on, ensuring 
that many more Americans earn a degree or other credentials of value. 
Now, our challenge is to see that these powerful ideas are taken to 
scale around the country.
                        corequisite remediation
    For far too many students in the United States, college begins--and 
often ends--in remediation. Of the 1.7 million students assigned to 
this broken system each year, only about 1 in 10 will graduate. Seventy 
percent of students placed into remedial math fail to enroll in the 
college-level gateway course within 2 academic years.
    Efforts around the country have shown that the best way to support 
students who are currently placed into remedial education is to put 
them directly into college-level courses with additional academic 
support. By providing remediation as a corequisite--not as a 
prerequisite sequence that sets students back--we eliminate the all to 
frequent problem of remedial students never making it to a college-
level course. Institutions that have adopted corequisite approaches 
have reduced attrition and seen dramatic increases in student success.
    Corequisite remediation is implemented in a number of ways: as an 
additional class period alongside the college-level course, a required 
lab with mentors, or 5 weeks of remediation followed by 10 weeks of the 
regular course. The overarching goal is to free students from long 
remedial sequences that do not count toward a degree and that create 
more points at which students are likely to drop out.
    In States and institutions where corequisite remediation is being 
utilized, the results have been astounding. In places like Colorado, 
Indiana, Tennessee and West Virginia, data shows that students enrolled 
in single-semester, corequisite English typically succeed at twice the 
rate of students enrolled in traditional prerequisite English courses. 
Students enrolled in corequisite gateway math courses saw results five 
to six times the success rates of traditional remedial math sequences.

    <bullet> West Virginia: Under the leadership of Chancellor Jim 
Skidmore, the Community and Technical College System of West Virginia 
scaled corequisite remediation across its campuses. Under the 
corequisite model, 68 percent of students completed gateway English 
within one semester, up from 37 percent within 2 years under the 
traditional model. In mathematics, success rates increased from 14 
percent under the traditional model to 62 percent under corequisite 
remediation.
    <bullet> Tennessee: The Tennessee Board of Regents reports that 
under corequisite remediation, gateway course success rates increased 
from 12 percent to 63 percent in math and from 31 percent to 74 percent 
in English. Additionally, Tennessee's data shows that students at every 
level of academic preparedness (based on ACT sub-scores) did better 
under the new model.

    Seven States have committed to scaling corequisite remediation by 
2015. Twenty-two States and the District of Columbia have committed to 
transforming remediation to dramatically increase the percentage of 
students who complete college-level gateway courses in math and English 
within 1 academic year.
                           fifteen to finish
    As mentioned above, the vast majority of American college students, 
and almost no one at community colleges, graduates on time, costing 
families billions.
    One frustratingly simple reason for late completion is that most 
college students are not taking enough credits (at least 30) each 
academic year to finish within 2 or 4 years--an unintended consequence 
of flawed Federal policy and misguided conceptions about what is in the 
best interest of students.
    Research has shown that when students take at least 30 credits in 
their first year, they earn better grades, they are more likely to be 
retained from 1 year to the next, and they graduate at a higher rate--
regardless of their level of academic preparation.
    Fifteen to Finish campaigns--which originated at the University of 
Hawaii System, have been launched across the country, both on campuses 
and statewide, to encourage more students to take at least 15 credits 
per semester or 30 credits per year. Citing information on college 
affordability and time to degree, these campaigns--ranging from print 
advertisements on campus to creative infomercials--urge students to 
take the credits necessary to complete on time.
    Additionally, States are implementing policy changes to encourage 
greater enrollment intensity, including banded tuition, in which 
students are charged the same amount of tuition regardless of whether 
they take 15 credits or the customary 12. The incentive for students to 
make use of this opportunity is that enrolling in a heavier course load 
not only reduces the cost they pay per credit but saves all the other 
expenses associated with an extra semester or year on campus. At the 
city colleges of Chicago, students are offered two free summer courses 
if they enroll in 15 credits for both the fall and spring semesters.

    <bullet> Indiana: At Indiana University-Purdue University, 
Indianapolis, more than half of students are now enrolling in enough 
credits to graduate on time, up from 28 percent the year before. Purdue 
University-Calumet increased the number of students taking 15 credits 
from 40 percent in 2013 to 66 percent in 2014.
    <bullet> Ohio: At the University of Akron, Fifteen to Finish 
efforts led to a 28 percent increase in the number of full-time 
freshmen taking at least 15 credit hours per semester.

    Twenty-four States have either statewide or campus-based Fifteen to 
Finish initiatives to encourage more students to take at least 15 
credits per semester or 30 credits per year.
                    guided pathways to success (gps)
    One of the most important hindrances to timely college completion 
is that students often have no clear path to graduation. They are faced 
with hundreds of majors, countless course offerings, and far too few 
academic advisors. Take together, these things result in students 
having to many choices and not nearly enough guidance.
    The result: students wander through the curriculum, taking courses 
that do not count toward their degrees and exhausting their financial 
aid. The courses they do need are often unavailable. At 2-year 
institutions, students rack up 81 credits rather than the standard 60 
credits and take 3.6 years to complete. At 4-year, non-flagship 
institutions, students take 134 credits rather than 120 and take close 
to 5 years to complete. College ends up taking too long and costing too 
much, and too few complete.
    Guided Pathways to Success (GPS) addresses these issues directly. 
By building highly structured degree plans as default pathways to on-
time graduation, States can place every college student on a road to 
success. Rather than being considered ``unclassified,'' students can 
select meta-majors and are given semester-by-semester plans that lay 
out a clear path to completion.

    <bullet> Florida: At Florida State University, degree maps combined 
with other GPS strategies increased on-time graduation rates from 44 
percent to 61 percent. Additionally, attainment gaps have narrowed. 
African American, Hispanic and first-generation Pell students graduate 
from FSU at significantly higher rates than the national average.
    <bullet> Arizona: The use of GPS strategies in Arizona State 
University's eAdvisor system increased on-time graduation rates by 
nearly 16 percentage points.
    <bullet> Georgia: The use of GPS, specifically intrusive advising, 
at Georgia State University has wiped out attainment gaps entirely: 
African American and Hispanic students now graduate at higher rates 
than the overall student body.

    Four States are working to take GPS to scale, and five States are 
implementing GPS in STEM. Seven cities around the country are working 
to implement GPS through our Community Partnerships for Attainment.
                          structured schedules
    Seventy-five percent of today's college students are commuters, 
often juggling families, jobs and school. But even in the face of this 
``new majority,'' much of American higher education has gone unchanged.
    Most students begin college with the expectation of attending full-
time and completing within 2 or 4 years. But quickly the cold realities 
hit them. Remedial classes block their entrance into programs of study. 
The courses necessary to stay on track are not available. Bit by bit, 
full-time becomes part time and, all too often, students become 1 of 
the 30 million who have some college credit but no degree.
    While there will always be those who insist on or need to go to 
college part time, we must look for ways to help more students attend 
full-time. Structured schedules--for example, going to school every day 
from 8 to noon or from 1 to 5--provide daily certainty that allows for 
easier scheduling. Students can predict their course requirements and 
arrange schedule with employers and childcare providers without the 
complications of day-to-day and semester-by-semester alterations.
    Under this Game Changer, many more students are able to manage a 
full-time load and completion becomes twice as likely. Additionally, 
structured schedules for part-time students can help them increase 
credit accumulation toward successful completion. States should 
redirect the good intentions that led to limitless part-time enrollment 
and make the necessary changes to deploy structured schedules across 
their campuses.

    <bullet> Tennessee: Structured schedules have regularly produced 
graduation rates of 75 percent or higher for career certificates at the 
Tennessee Colleges of Applied Technology.
    <bullet> New York: Structured schedules through the CUNY ASAP 
program have led to graduation rates double that of peers in 
traditional schedules.

    Seven States have programs within them that currently utilize 
structured schedules.
                          performance funding
    In the past, taxpayers in most States have supported higher 
education based on the number of students enrolled on or around the 
12th day of the semester. Consequently, colleges and universities have 
had few financial incentives to prioritize student success.
    Under performance funding, institutions receive State dollars based 
on factors such as credit accumulation, remedial student success in 
gateway courses, and degree completion. While institutions are still 
rewarded for enrollment and access, progress and success are equally 
valued.
    To date, 26 States have implemented or are in the process of 
implementing performance funding. While this strategy cannot guarantee 
more college graduates, it can help ensure that campuses are motivated 
to adopt successful reforms. Simply put, money focuses minds.
                       actions congress can take
    <bullet> Address gaps in the integrated Postsecondary Education 
Data System (IPEDS). The current data collection system does not fully 
capture the needs of today's students. Data is currently unavailable 
regarding part-time students, transfer students, students aged 25 or 
older, gateway course success for remedial students, credit 
accumulation, time to degree, courses completion, and most importantly, 
the system does not track Pell students. Ultimately, IPEDS data does a 
very poor job of counting all students.
    <bullet> Incentivize students to take 15 credits per semester. 
Based on a recent survey commissioned by Complete College America, most 
``full-time'' students are not taking the credits needed to graduate on 
time. Federal and State policies should encourage students to take at 
least 15 credits per semester or 30 credits per year. For example, 
reinstate year-round Pell grant funding that enables students to 
accumulate the credits necessary to graduate on time, including 
allowing students to receive Pell Grant resources through 15 credits, 
rather than the current 12 credit limit.
    <bullet> Encourage Pell grants to provide students the opportunity 
to complete remediation and a college-level course within their first 
academic year.
    <bullet> Consider a Pell bonus for institutions that enroll high 
numbers of Pell students to help colleges do more to become high 
quality institutions.
    <bullet> For legislation such as America's College Promise, do more 
to support and incentivize colleges to implement Game Changer 
strategies to create ``high quality institutions'' as referenced in the 
original proposal.

    There are any number of innovations we can employ to move the 
needle on college completion, but the magnitude of these challenges 
requires that our reforms be structural and systemic. The Game Changers 
are proven strategies that lead to real and lasting results. When it 
comes to college completion, our Nation cannot afford to wait any 
longer. We must take action now.

    The Chairman. Thank you.
    Mr. Ralls.

    STATEMENT OF R. SCOTT RALLS, PRESIDENT, NORTH CAROLINA 
             COMMUNITY COLLEGE SYSTEM, RALEIGH, NC

    Mr. Ralls. Chairman Alexander, Ranking Member Murray, 
members of the committee, thank you for this opportunity.
    In October 2009, State and local community college leaders 
met in Fayetteville, NC, and declared student success the 
strategic focus of North Carolina's community colleges. 
Designed to be more a dynamic than a strategic plan, the 
effort, billed as SuccessNC, began as a 9-month listening-and-
learning tour across all 58 of our colleges.
    It culminated in what some outside observers have referred 
to as a culture shift in our system. Almost 6 years later, 
SuccessNC resulted in a series of statewide programmatic 
reforms and initiatives designed to impact student success at 
scale across 58 community colleges.
    Some of these programmatic reforms included redesign of 
statewide dual enrollment programs, where high school students 
enroll free of charge in pathways rather than courses; complete 
overhaul of developmental education, or what some refer to as 
remedial education, accelerating more students into college-
level math and English courses; restructuring of 89 technical 
programs to enable the on-ramps and off-ramps of competency-
based programs that tie in industry certification, and math 
redesign to contextualize with workplace requirements; overhaul 
of our statewide university articulation agreements with 
community colleges, enabling guaranteed course transfers for 
all community college students to colleges in the UNC System 
and soon most of the private universities in our State, as well 
as new reverse transfer opportunities, and new cross-sector 
engineering and nursing pathways; and statewide performance 
outcome measures and funding tied to key student success 
metrics, as well as new data systems, advanced analytics, and 
professional development across colleges, all focused on 
student success.
    The combined implementation of these efforts is still 
relatively new, and the outcomes are yet to be evaluated--a few 
years down the road, once we get a little further down the road 
with the combined implementation. While we've changed many 
programs with good intentions, we've certainly not yet reached 
educational nirvana or figured everything out.
    However, a number of lessons and principles have emerged in 
the 6-year journey, ways in which our thinking has been greatly 
influenced, and lessons that perhaps may contribute to ideas to 
you as you approach the very important work of reauthorizing 
the Higher Education Act.
    First, we know students are more likely to find success 
when they continuously progress along coherent curriculum 
pathways. That's a key reason in our State why we're pushing--
and our Governor has endorsed--key legislators for year-round 
funding for community colleges. It's also why year-round Pell 
grants would be key to impacting student success across our 
Nation.
    Students are more likely to find success when they start 
with the end in mind and have outcome milestones along the way. 
That's why your emphasis on outcome milestones is so important 
in the Higher Education Act, but it's vital to pay more 
attention to the measures that appropriately measure 
institutional impact on student success.
    Less than one-third of the students enrolling in degree 
programs at North Carolina community colleges are in the 
current IPEDS cohort. Those many students who leave us without 
an academic credential leave with recognized industry 
certification that often leads to a job, or they move on to a 
university and gain a 4-year degree. They're not counted as 
successes according to current metrics.
    Third, and relatedly, we know the success goal for many of 
our students--the one that they pursue--is a skill and a job. 
Their incomes and their family responsibilities require that 
they quickly improve their job standing, which is why we have 
gone to such great lengths in North Carolina to integrate and 
articulate short-term training opportunities leading to valued 
industry certifications into the structure of our applied 
associate degrees, what some refer to as stackable 
certification.
    This means that students can gain valuable industry 
certification in high-demand areas, like information 
technology, welding, health care, and machining, take those 
certifications into the workplace, but then bring back and 
continue uninterrupted along academic pathways that lead to 
academic degrees. Authorizing institutions to include short-
term training programs in their Pell grant eligible portfolio 
would be an important step to both closing the skills gap and 
recognizing the breadth of student success in higher ed.
    Fourth, we know that most of our student pathways to 
success run through institutions. They don't begin and end 
there, and students' personal pathways, their educational 
pathways, aren't typically confined to single institutions. We 
have to be willing to embrace the reality that is student swirl 
and be diligent in creating more coherent pathways that cut 
across institutions.
    Community colleges are uniquely positioned in this regard, 
as what I often refer to as the seam in seamless education. 
Wherever possible, I believe that Federal policy should 
incentivize and encourage dual enrollment programs with high 
schools that are tightly coordinated with community colleges, 
as well as statewide articulation agreements between community 
colleges and universities. Creation of a Federal student unit 
record system for title IV eligible institutions would move us 
forward in accounting for the reality of students moving across 
multiple institutions.
    And, finally, we know that what is important in the end is 
the number of successes we create, not just the percentages 
within our institutions. Success must be attained through 
widely available opportunity, which is why both simplification 
and access are so vital to any focus on student success.
    Over two-thirds of community college students come from the 
bottom half of the income brackets. We know the harsh realities 
of their struggles with both complexity and affordability. That 
is why an increased call for simplifying and improving student 
financial aid is so important to student success. It is why our 
sector also applauds the goals of the America's College Promise 
Act, because it importantly makes the bold point that 
accessible postsecondary education beyond high school is today 
a necessity for family sustaining incomes.
    In conclusion, we know that America's community colleges 
today have to be more than just a gateway to the American 
dream. We have to build clearer, more direct pathways to those 
American dreams. Consideration of these points--and I look 
forward to discussing them more with you as this hearing 
continues. Consideration of these points as you continue this 
important pursuit of the Higher Education Act will clear many 
obstacles for students in their pathways to opportunity.
    Thank you for this opportunity.
    [The prepared statement of Dr. Ralls follows:]
                  Prepared Statement of R. Scott Ralls
                                summary
    In 2009, the North Carolina Community College System, comprising 58 
colleges serving more than 830,000 students annually, began a 
comprehensive focus on student success that resulted in multiple 
programmatic reforms at scale implemented across the State. These 
included dual enrollment pathways where students choose structured 
pathways in high school and take free college classes, overhaul of 
developmental education accelerating more students forward to college 
level math and English classes, restructuring of technical education 
curriculum to enable opportunities for stackable certification, and 
redesign of statewide university articulation agreements to provide 
course guarantees for students transferring between community colleges 
and universities.
    These statewide programmatic efforts provide lessons into 
opportunities for enhancing student success on a scaled basis, and 
insight into potential areas of attention in the reauthorization of the 
Higher Education Act:

    <bullet> Students more likely to find success when they 
continuously progress along coherent pathways. This is the key reason 
why North Carolina has put emphasis on year-round funding of community 
colleges, and why Higher Education Act should allow for year-round Pell 
grant opportunities.
    <bullet> Students more likely to find success when they start with 
the end in mind, and have outcome mile markers along the way. Outcomes 
and accountability are important, but that importance requires metrics 
capturing true breadth of student success, and infrastructure that 
eases institutional reporting requirements.
    <bullet> Success goal many students pursue is skill leading to a 
job. Higher Education Act should support short-term training that leads 
students to valued third-party industry credentials, and when that 
training is further articulated into academic curriculum.
    <bullet> Student pathways to success run through and across 
institutions, and are not typically confined to a single institution. 
Federal legislation should encourage and incentivize tight dual 
enrollment partnerships with public schools, and strong statewide 
articulation agreements between community colleges and universities.
    <bullet> Number of successes produced is what is most important, 
not just percentages within institutions. Maintaining strong access, 
particularly for low-income students, is key. Financial aid 
simplification is badly needed, and increasing the financial support 
for students to foster a true K-14 pathway is important.
                                 ______
                                 
    Chairman Alexander, Ranking Member Murray, and members of the 
committee, my name is Scott Ralls and I am president of the North 
Carolina Community College System, transitioning in 1 month to become 
president of Northern Virginia Community College.
    In October 2009, State and local community college leaders met in 
Fayetteville, NC and declared student success the strategic focus of 
the North Carolina Community College System. Designed to be more 
dynamic than a strategic plan, the effort, billed as SuccessNC, began 
as a 9-month listening-and-learning tour to all 58 community colleges 
in the State and led to what some outside observers labeled as a 
culture shift in our system. Five years later, SuccessNC resulted in a 
series of statewide programmatic reforms and initiatives that impact 
student success at scales across 58 community colleges.
    These programmatic reforms included:

    <bullet> Redesign of statewide dual enrollment programs where 
students enroll in pathways rather than courses;
    <bullet> Adult basic education programs integrated with 
developmental education and occupational skills certification;
    <bullet> Overhaul of developmental education accelerating more 
students into college-level math and English courses;
    <bullet> Restructuring 89 technical programs to enable the on-ramps 
and off-ramps of competency-based, stackable certifications, and math 
redesign to contextualize with workplace requirements;
    <bullet> Complete overhaul of our statewide university articulation 
agreements enabling guaranteed course transfers for all community 
college transfers to the UNC System and most private universities in 
our State, reverse transfer opportunities, and new cross-sector 
engineering and nursing pathways; and
    <bullet> Statewide performance outcome measures and funding tied to 
key student success metrics, and new data systems, advanced analytic 
tools, and professional development across community colleges.

    The combined implementation of these efforts is still relatively 
new and the outcomes yet to be evaluated once we are a few more years 
down the road, and while we have changed many programs with good 
intentions, we certainly haven't found educational nirvana nor figured 
out everything yet.
    However, a number of lessons and principles have emerged during 
this 6-year journey--ways in which our thinking has been influenced--
and lessons that perhaps may contribute to ideas as you approach the 
important reauthorization of the Higher Education Act.
    First, we know students are more likely to find success when they 
continuously progress along coherent curriculum pathways. This is a key 
reason for our current push for year-round State funding in North 
Carolina, an effort that has been championed by Governor Pat McCrory 
and key legislative leaders, and one where we have already obtained 
partial success. Community college students eager to move into or 
progress in the workforce, or on to a university, are not looking to 
take a summer vacation. Their forward movement often needs to be 
accelerated, not slowed, and that is why we believe the provision of 
year-round Pell grants is so fundamental to accelerating student 
success.
    Second, we know students are more likely to find success when they 
start with the end in mind, and have outcome milestones along the way. 
That is why the emphasis on outcomes and accountability is so important 
in the Higher Education Act reauthorization. However, it is vital that 
more attention be given to measures that appropriately measure 
institutional impact on student success. Less than one-third of the 
students enrolling in our North Carolina Community colleges are 
included in the current IPEDS graduation cohort. Those many students 
who leave us without an academic credential, but with valued industry 
credentials leading to a job, or successful transfer to a university 
leading to a bachelor's degree, are currently not considered as 
successes based on the Federal definition.
    Where possible, the Higher Education Act should provide resources, 
funding and technical assistance to respond to performance-based 
funding systems, create the facilitating infrastructure that 
facilitates measuring and tracking of student success, and streamline 
other institutional reporting requirements.
    Third and relatedly, we know the success goal many of our students 
pursue is a skill and a job. Their incomes and family responsibilities 
require them to quickly improve their job standing, which is why we 
have gone to such great lengths in North Carolina to integrate and 
articulate short-term training opportunities leading to valued industry 
certifications into the structure of our applied associate degrees--
what is often referred to as stackable certification. This means 
students can gain highly valued industry credentials in demand areas 
such as information technology, welding, health care and machining and 
enter the workplace with a higher paying job, while continuing their 
pursuit of a postsecondary credential with credit for their previous 
short-term training.
    Authorizing institutions to include short-term training programs in 
their Pell Grant-eligible portfolio would be an important step to both 
closing the skills gap and fully recognizing the breadth of 
postsecondary student success.
    Fourth, we know that most of our student pathways to success run 
through our institutions, they don't begin and end there, and 
students''' personal pathways aren't typically confined to single 
institutions. We have to be willing to embrace the reality of ``student 
swirl'', but be diligent in creating more coherent pathways across 
institutions and educational sectors, which is why tight, structured 
collaborations across educational partners are so important.
    Community colleges are uniquely positioned, in this regard, as what 
I like to refer to as the ``seam in seamless education.'' Wherever 
possible, I believe, Federal policy and legislation should encourage 
and incentivize implementation of dual enrollment pathways tightly 
connected with public schools, and strong statewide articulation 
agreements between community colleges and universities. Creation of a 
Federal unit record system for title IV eligible institutions would 
move us forward accounting for the reality of students moving across 
multiple institutions.
    Finally, we know that what is important in the end is the number of 
successes we collectively help produce, not just the percentages within 
our individual institutions. Success must be attained through widely 
available opportunity, which is why both simplification and access are 
so vital to any focus on student success. Over two-thirds of community 
college students today come from the bottom half of the income 
brackets. We know the harsh realities of their struggles with both 
complexity and affordability. That is why the increased call for 
simplifying and improving student financial aid is so important, and if 
made a reality, will play an important role in furthering student 
success.
    It is also why our sector applauds the goals of the America's 
College Promise Act, which notes not only the unique role of America's 
community colleges, but more importantly makes the bold point that 
accessible postsecondary education beyond high school is today a 
necessity for family sustaining incomes.
    In conclusion, we know that America's community colleges today have 
to be more than just a gateway to the American dream, we have to build 
clearer, more direct pathways to those dreams. Your consideration of 
these points in the reauthorization of the Higher Education Act will 
help clear some obstacles from those pathways of opportunity.
    Thank you.

    The Chairman. Thank you, Mr. Ralls.
    Senator Isakson, I already introduced Dr. Renick. Would you 
like to say some words about him?
    Senator Isakson. I want to brag about him, because----
    The Chairman. You've done that before.

                      Statement of Senator Isakson

    Senator Isakson. I've done that. Two years ago, I bragged 
about Georgia State University and, in particular, the Panther 
Grant Program, which was an innovation of the university and 
which Dr. Renick uses today to see to it that students almost 
on the verge of dropping out because of a minimal financial 
problem get a minimal financial need met so they can stay in 
school and graduate.
    It's interesting to note that other than Panther grants, 
they've also developed a student tracking system that tracks 
over 30,000 students at the university and measures them 
against 800 unique identifiers which indicate pitfalls they 
could actually have toward graduation. Georgia State is doing a 
remarkable job. Most notably of all, they now grant more 
bachelor degrees to African American graduates than any 
university in the United States of America.
    I'm very proud to have Dr. Renick here today, and I'm very 
proud of Georgia State University.
    The Chairman. Thank you, Senator Isakson.
    Dr. Renick.

STATEMENT OF TIMOTHY RENICK, Ph.D., M.A., VICE PROVOST AND VICE 
   PRESIDENT FOR ENROLLMENT MANAGEMENT AND STUDENT SUCCESS, 
             GEORGIA STATE UNIVERSITY, ATLANTA, GA

    Mr. Renick. Chairman Alexander, Ranking Member Murray, and 
the committee members, thank you for the opportunity to be here 
today.
    Senator Isakson, a particular thanks for your leadership 
and support of higher education in Georgia.
    A decade ago, the odds that Georgia State University would 
some day be invited to testify at a hearing on student success 
seemed very remote. Georgia State's institutional graduation 
rate stood at 32 percent, and underserved populations were 
foundering. Graduate rates were 22 percent for Hispanics, 29 
percent for blacks, and 18 percent for black males.
    As Atlanta and Georgia were being hit hard by the 
recession, the challenges intensified. Georgia State lost tens 
of millions of dollars in State appropriations while 
simultaneously doubling the number of at-risk students that it 
enrolls.
    Today, our 32,000 students are 63 percent non-white and 59 
percent Pell eligible. Ours is now one of the most diverse 
student bodies in the Nation and one of the most at-risk. These 
are hardly the typical ingredients for a turnaround.
    Despite these odds, under the leadership of President Mark 
Becker, we made a public commitment to develop a model that 
would allow students from all backgrounds to succeed at high 
rates. Using data proactively, we identified obstacles that 
trip up our students and pioneered a dozen innovative and 
large-scale programs to help.
    For example, as recently as 2011, Georgia State was 
dropping more than 1,000 students every semester from their 
classes because the students couldn't cover all of the costs of 
their tuition and fees. Disproportionately low-income and first 
generation, many of these students were seniors, who were only 
a semester or two away from graduating. With balances of as 
little as $300. Dropping these students was heartbreaking and 
made little sense.
    In 2011, we created Panther Retention Grants as a response. 
The program awards one-time micro grants to cover the balance 
between what students can pay and the cost of their tuition and 
fees. From modest beginnings, we have now brought 5,300 
students back into their classes via this program alone.
    Among the senior recipients, more than 60 percent graduate 
within two semesters of receiving the grant. Because the 
funding goes exclusively to cover tuition and fees, 100 percent 
of the grant monies come back to the university, making the 
program not only the right thing to do, but financially 
sustainable as well.
    Our GPS advising system addresses another major problem 
that hits at-risk students particularly hard: poor academic 
decisionmaking. Using 10 years of Georgia State data and over 
2.5 million grades, we have created predictive analytics to 
identify when students first get off track for graduation.
    We are now tracking 30,000 students every day for 800 
different risk factors, ranging from students who register for 
classes that don't apply to their degree programs to those who 
underperform in prerequisite classes. When a problem is 
identified, an alert goes off, and the advisor assigned to that 
student reaches out to help, typically within 48 hours.
    Last year at Georgia State, we had 43,000 one-on-one 
meetings between advisors and students that were prompted by 
alerts from our GPS advising system. Because students are 
making fewer mistakes, we have reduced the average time to 
degree, saving our students and taxpayers millions of dollars.
    Such interventions are in many ways just common sense, but 
they make a huge difference. Georgia State University now 
graduates 1,700 more students annually than it did just 5 years 
ago and confers more bachelor's degrees to African Americans 
than any nonprofit college or university in the Nation. Our 
graduation rate has climbed 22 percentage points overall, with 
the biggest gains being enjoyed by student populations that 
once struggled the most. As a result, all achievement gaps, 
based on race, ethnicity, and economics have been eliminated.
    The impact has been so transformational that in this coming 
January, we will be consolidated with the largest 2-year 
college in the State of Georgia with the goal of leveraging our 
new programs and technologies to benefit an additional 22,000 
students. Even prior to consolidation, Georgia State was 
committed to broadly sharing the approaches that we have 
developed. We have hosted visiting teams from 160 campuses over 
the past 2 years, and we work closely to share practices with 
groups such as Complete College America and the Urban Serving 
Universities of the APLU.
    We are a founding member of the University Innovation 
Alliance, a coalition of 11 large public research universities 
enrolling more than 400,000 students and dedicated to improving 
student outcomes, especially for low-income students. Such 
collaborations we are using to greatly accelerate the pace by 
which innovative new approaches to student success are adopted 
nationally.
    Collaboration across institutions is perhaps the most 
promising path to transforming student outcomes at scale. Here 
we need your help. Amid the competitive, ranking-conscious 
world of higher education, we need to find new ways to 
incentivize collaboration. Federal grant programs, for 
instance, too often reward the efforts of a campus or two to 
implement the tried and true rather than supporting ambitious 
proposals to test and scale transformative ideas across broad 
groupings of universities.
    We need to find more nuanced ways to determine when and how 
students are given access to Federal aid. We should empower 
campuses to use data intelligently to target Federal aid to the 
students who will make the best use of it, and create greater 
flexibility and eligibility rules for students demonstrating 
strong progress toward completing their degrees.
    If we're truly serious about increasing completion rates 
for low-income students, we need to curb the predatory 
institutions and lenders that target them and promote 
meaningful literacy training so that students will use their 
Federal aid more wisely.
    Georgia State University still has much work to do. Our 
story demonstrates that significant improvements in student 
success can be achieved through embracing inclusion rather than 
exclusion. It shows that, contrary to popular belief, students 
from all backgrounds can succeed at high rates and that 
dramatic gains can be made even amid the context of constrained 
resources.
    Georgia State's story is, indeed, improbable. That's the 
problem. It is time we made it the norm.
    Thank you.
    [The prepared statement of Dr. Renick follows:]
           Prepared Statement of Timothy Renick, Ph.D., M.A.
                                summary
    Despite demographic shifts that have doubled the number of at-risk 
students enrolled and steep cuts to its State appropriations, Georgia 
State University in Atlanta has transformed its student success 
outcomes over the past decade. Georgia State's graduation rate has 
climbed 22 percentage points, with the biggest gains being enjoyed by 
the at-risk student populations that once struggled the most. The 
university now graduates 1,700 more students annually than it did just 
5 years ago and confers more baccalaureate degrees to African Americans 
than any non-profit college or university in the Nation. Georgia State 
has eliminated all achievement gaps based on race, ethnicity and income 
level.
    Under the leadership of President Mark Becker, Georgia State made a 
public commitment to develop a model that would allow students from all 
backgrounds to succeed at high rates. Through the proactive use of data 
and a willingness to scale interventions so that they benefit thousands 
of students, the university has pioneered a series of innovative and 
highly impactful student success programs.
    Panther Retention Grants fund small gaps between the costs of 
tuition and fees and the resources that students have. For as little as 
$300, students are brought back into classes instead of being allowed 
to drop or stop out. From modest beginnings in 2011, the program has 
now restored 5,300 students to their classes. For the recipients who 
are seniors, more than 60 percent have graduated within two semesters 
of receiving their grants. Because the funding goes exclusively toward 
covering tuition and fees, 100 percent of the grant monies come back to 
the university, making the program not only the right thing to do but 
sustainable, as well.
    GPS Advising is a tracking system that uses predictive analytics to 
identify in real time when students go off course for graduation. Using 
10 years of historical data and more than 2.5 million Georgia State 
grades, the system tracks 30,000 students every day for more than 800 
risk factors such as registering for the wrong course or 
underperforming in prerequisite classes. Last year, there were 43,000 
one-on-one meetings between Georgia State advisors and students that 
were prompted by alerts from the GPS Advising system.
    Georgia State's student success efforts, both as an individual 
institution and as part of collaborations such as the University 
Innovation Alliance, would be assisted by: (1) Identifying ways to 
incentivize student-success collaboration across institutions through 
Federal policies and grants; (2) Rethinking Satisfactory Academic 
Progress to empower rather than restrict campuses that are using data 
intelligently to allow them to award Federal aid more effectively to 
the students who will benefit the most; (3) Curbing predatory 
institutions that target low-income students and create devastating 
levels of transfer debt; and (4) Supporting universities in their 
efforts to require financial literacy training so that more students 
who receive Federal financial aid will be equipped to use it 
intelligently.
                                 ______
                                 
    A decade ago, the chances that Georgia State University would 
someday be invited to provide testimony at a hearing on student success 
seemed very remote. Georgia State's institutional graduation rate stood 
at 32 percent and underserved populations were foundering. Graduation 
rates were 22 percent for Hispanics, 29 percent for blacks, and 18 
percent for black males. Pell students were graduating at rates far 
below those of non-Pell students.
    The demographic and economic changes of the past decade did nothing 
to improve the prospects for a turnaround. As Atlanta and Georgia were 
being hit hard by the recession, Georgia State lost tens of millions of 
dollars in State appropriations while simultaneously doubling the 
number of at-risk students that it enrolls. Our student body of 32,000 
students is now 63 percent non-white and 59 percent Pell eligible. This 
makes Georgia State not only one of the most diverse public research 
universities in the country, but also an institution at the leading 
edge of demographic trends that are facing our entire nation.
    Under the leadership of President Mark Becker, we made a public 
commitment to develop a model that would allow students from all 
backgrounds to succeed at high rates. Using data proactively, we 
identify critical obstacles to our students' progress, pilot innovative 
interventions, and scale the approaches that prove most successful. 
Scale is the key. As I visit other campuses, I often hear of promising 
programs that benefit only a small number of students. Fifty or even a 
hundred more graduates will not create the results that we need as a 
Nation. At Georgia State, we seek to identify programs that are both 
cost-effective and truly transformative--programs that impact thousands 
and even tens of thousands of our students every semester.
    Two examples will help to illustrate our approach.
    Just a few years ago, Georgia State was dropping 1,000 students 
every semester from their classes because the students could not cover 
all of the costs of their tuition and fees. These were the last 
students that we wanted to drop. Disproportionately low-income and 
first-generation, many were seniors who were only a semester or two 
away from graduating but who had exhausted their eligibility for aid. 
With balances as little as $300, dropping these students was 
heartbreaking--and made no sense.
    In 2011, we created Panther Retention Grants as a response. The 
program awards one-time, micro grants to cover the balance between what 
students can pay and the costs of their tuition and fees. We use 
analytics to ensure that the recipients have unmet financial need and 
are applying themselves academically. From modest beginnings in 2011, 
we have now brought 5,300 students back into their classes via the 
program. Among the senior recipients, more than 60 percent have 
graduated within two semesters of receiving the grants. And because the 
funding goes exclusively toward tuition and fees, 100 percent of the 
grant monies come back to the university, making the program not only 
the right thing to do but financially sustainable, as well.
    Our Graduation Progression Success (GPS) Advising system addresses 
another major problem that hits at-risk students particularly hard: bad 
academic decisions and wasted credit hours. Using 10 years of Georgia 
State data and over 2.5 million grades, we have created predictive 
analytics to identify when our students make decisions that put them 
off track for graduation. Similar to high-tech medical screening, the 
system is designed to identify individuals who are at risk when a 
problem first surfaces, not after it has become debilitating.
    We are now tracking more than 30,000 students every day for 800 
different risk factors, ranging from students who register for classes 
that do not apply to their degree programs to those who underperform in 
prerequisite courses. When a problem is identified, an alert goes off 
and the advisor assigned to the student reaches out to help--typically 
within 48 hours. Last year at Georgia State University, we had 43,000 
one-on-one meetings between advisors and students that were prompted by 
alerts from our GPS Advising system.
    In many ways, such interventions are merely common sense. Through 
them, we help students navigate the many complicated academic and 
financial decisions that graduating from college requires--decisions 
which low-income and first-generation students are often ill-prepared 
to make.
    While simple in approach, these and other similar interventions 
have made a big difference. Georgia State University now graduates 
1,700 more students annually than it did just 5 years ago and confers 
more bachelor degrees to African Americans than any non-profit college 
or university in the Nation. Our graduation rate has climbed 22 
percentage points overall, with the biggest gains being enjoyed by the 
student populations that once struggled the most. Black and Latino 
graduation rates have improved by more than 30 points each. Rates for 
black males are up 40 points, and all achievement gaps based on race, 
ethnicity and economics have been eliminated.
    The impact has been so transformational that, this coming January, 
we will be consolidated with the largest 2-year college in the State of 
Georgia, Georgia Perimeter College, with the goal of leveraging our new 
programs and technologies to benefit an additional 22,000 students.
    Even prior to consolidation, Georgia State was committed to sharing 
the lessons that we have learned and the approaches we have developed. 
Georgia State has worked enthusiastically to exchange insights and 
practices as part of groups such as Complete College America and the 
Coalition of Urban Serving Universities. We are a founding member of 
the University Innovation Alliance, a coalition of 11 large public 
research universities dedicated to improving student outcomes, 
especially for low-income students. Through such collaborations, we are 
working with peer institutions from across the United States to 
accelerate the pace by which innovative best practices are adopted from 
one campus to the next.
    This is an area where we need your help.

    <bullet> First, amid the highly competitive, rankings-conscious 
world of higher education, we need to find new ways to incentivize 
collaboration. At times, our efforts to work across State lines and 
through the sharing of data are limited by the very policies that are 
designed to help students. Similarly, Federal grant programs are rarely 
set up to accommodate such alliances of universities, and the grants 
are too often awarded based on what is tried and true rather than what 
has the potential to truly transform.
    <bullet> Second, we need to find new and more nuanced ways to 
determine when and how students are given access to Federal aid. The 
current rules surrounding satisfactory academic progress are a blunt 
instrument that do not reflect today's advances in student analytics. 
At Georgia State, we are required at times to award Federal aid to 
students we know are poor risks while cutting off funding to students 
who may be a semester or two away from graduating. We need to rethink 
SAP so as to empower rather than restrict campuses that are using data 
intelligently to target aid more effectively. I believe we also should 
resist proposals to limit Pell funding to eight semesters--another idea 
that is far too blunt and that would have devastating consequences on 
working students like those at Georgia State.
    <bullet> Third, we need to continue to crack down on the predatory 
institutions and lenders that target low-income students and their 
families. Georgia State is the largest transfer recipient school in 
Georgia. This fall, among the 2,500 new transfer students that we will 
enroll, more than 600 will arrive on campus with debt of $20,000 or 
more. Two students will arrive with debt over $100,000. Such students 
often have little useable credit and may be still years away from 
attaining their bachelor degrees. If we are serious about raising 
completion rates for low-income students, we cannot allow such 
predatory practices to continue, nor can we create policies that de-
incentivize more responsible universities from taking on such students 
and the debt that they bring with them.
    <bullet> And finally, financial counseling and financial literary 
training work. At Georgia State, we now require such training of all 
freshmen and all Panther Grant recipients, and we have seen significant 
declines in the poor financial decisions that students are making. 
Unfortunately, right now we must try to induce students to participate 
in such programs by coaxing and with little support from Federal 
policies, which too often grant students Federal aid without regard to 
their readiness to use it intelligently.
    Georgia State University's story is improbable, to be sure. That is 
precisely why it matters. Georgia State still has much work to do, but 
its progress in recent years demonstrates that significant improvements 
in student success outcomes can come through embracing inclusion rather 
than exclusion, and that such gains can be made even amid a context of 
constrained resources. It shows that low-income and underrepresented 
students can succeed at the same levels as other students and that, 
even at large public universities, we can provide all students with 
personalized support at reasonable costs. It shows that we can put 
rankings aside and accelerate change through meaningful collaboration 
across institutions.
    I look forward to a day when such progress is no longer labeled 
improbable but becomes the accepted norm for all American universities.

    The Chairman. Thank you.
    Dr. Richburg-Hayes.

 STATEMENT OF LASHAWN RICHBURG-HAYES, Ph.D., PRESIDENT, YOUNG 
     ADULTS AND POSTSECONDARY EDUCATION, MDRC, NEW YORK, NY

    Ms. Richburg-Hayes. Good morning, Chairman Alexander, 
Ranking Member Murray, and members of the committee. Thank you 
for inviting me to testify here today on what research tells us 
about ways to improve academic success among low-income college 
students.
    My organization, MDRC, is known for conducting large-scale 
evaluations and demonstration projects to test the impacts and 
cost effectiveness of education and social programs. Many of 
our studies use a random assignment research design, which is 
the most rigorous method for assessing such programs.
    As was mentioned earlier today by a number of the Senators 
and others, our challenge really is to develop more 
opportunities for low-income students to both attend and 
succeed at institutions of higher learning. Fortunately, 
research is beginning to point the way toward some solutions in 
four primary areas: first, comprehensive and integrated 
reforms; second, developmental education reforms; third, 
structured pathways; and, fourth, innovations in financial aid.
    I'll share some of the main lessons from this existing 
research. In terms of comprehensive and integrated programs, 
we've learned from the City University of New York's ASAP 
program, the Accelerated Study in Associates Program, that such 
integrated and comprehensive programs can make a sizable 
difference in graduation rates.
    ASAP is designed to help students nearly double the rate at 
which they graduate within 3 years. It consists primarily of 
four components: requirements and messages around attending 
college full-time, which, in this program, is defined as 12 
credits per semester; student services, which entails having 
advising services for students in the program, including career 
advisement; course enrollment or structured pathways; and 
financial support, including financial incentives through 
textbook vouchers and transportation cards.
    These components resulted in very large impacts, the 
largest impacts among any random assignment study of a 
postsecondary intervention. Students in the ASAP program 
graduated at a rate of 18.3 percentage points higher than their 
control group counterparts. This is almost a doubling of the 
graduation rate in 3 years among community college students, 
all of whom were Pell eligible and most of whom were students 
of color.
    It also lowered the cost per degree at the 3-year point, 
lower than the control condition, meaning that the program was 
also cost-effective.
    In terms of other research, research has identified 
strategies for improving developmental education outcomes as 
well. As was mentioned earlier today, students needing 
remediation actually require more services, and it's necessary 
to address this issue to improve the graduation rates, because 
differences in outcomes vary by socioeconomic status, making 
gaps in achievement evident.
    Several random assignment interventions have been conducted 
thus far that suggest that there are modest impacts and 
improvement that are possible through such interventions. At 
this point, we have second generation interventions--including 
new ways to assess incoming students to provide them with 
services before they enroll in college, and to improve and 
accelerate developmental education teaching--that are currently 
being evaluated, and findings are not yet available.
    Structured pathway approaches have been shown to have some 
promise. Among the many structured pathway programs out there, 
ASAP is one example of a program that has implemented a lot of 
elements that are touted in the research as being useful.
    Financial aid is also another important lever to help low-
income students succeed. Studies demonstrate that incentive-
based grants and innovation on traditional financial aid result 
in a larger proportion of students meeting academic benchmarks, 
a greater number of credits earned, and modest effects on GPA.
    Building on what we already know, my written testimony 
offers a number of recommendations in two broad categories. 
First, give colleges and States incentives to replicate proven 
programs. For example, the Federal Government could support the 
spread of ASAP and other interventions with strong evidence of 
effectiveness.
    Second, encourage innovation paired with research, 
particularly rigorous research, so that we continue to identify 
programs that make a real difference. Specifically, additional 
research could be conducted into structured pathways, an area 
for which little is known currently beyond programs such as 
ASAP, year-round financial aid, and innovations in work-study 
programs.
    Thank you again for the opportunity to testify here today, 
and I look forward to questions you may have.
    [The prepared statement of Dr. Richburg-Hayes follows:]
          Prepared Statement of Lashawn Richburg-Hayes, Ph.D.
                                summary
    Thank you for inviting me to testify today about what the research 
evidence tells us about ways to improve the academic success of low-
income college students. MDRC is known for conducting large-scale 
evaluations and demonstration projects to test the impacts and cost-
effectiveness of education and social programs. Many of our studies use 
a random assignment research design, the most rigorous method for 
assessing such programs, which is able to determine the value an 
intervention adds to the status quo. Here are the main lessons of the 
existing research:
    1. Comprehensive and integrated programs can make a sizable 
difference in graduation rates. The City University of New York's 
Accelerated Study in Associate Programs (ASAP) is a comprehensive and 
integrated long-term program designed to help more community college 
students graduate more quickly. Both an opportunity and an obligation, 
ASAP nearly doubled 3-year graduation rates for students who started 
college needing developmental (or remedial) course work--at a lower 
cost per graduate than usual college services.
    2. Identifying effective strategies for developmental education 
students is critical to improving national graduation rates and evening 
outcomes by socioeconomic status. Several random assignment 
interventions have been conducted that suggest modest positive 
improvements in outcomes are possible. Second-generation interventions 
are currently being evaluated and findings will be available shortly.
    3. A structured pathway approach has shown promise at improving 
graduation rates. ASAP is one example of a program that implemented 
elements of a structured pathway approach, which is based on the idea 
that simple, well-defined programs of study may help more students 
complete community college.
    4. Financial aid is an important lever to help low-income students 
succeed. Work by MDRC in this area has shown that incentive-based 
grants can increase first-year enrollment when the intervention targets 
graduating high school seniors, and that they can modestly improve 
academic outcomes for diverse groups of students.
                            recommendations
    1. Give colleges and States incentives to replicate proven 
programs. For example, the Federal Government could support the spread 
of ASAP.
    2. Encourage innovation paired with research, especially rigorous 
evaluation. Specifically, additional research could be conducted into 
structured pathways, year-round financial aid, and work-study programs.
                                 ______
                                 
    Good morning, Chairman Alexander, Ranking Member Murray, and 
members of the committee. Thank you for inviting me to testify today 
about what the research evidence tells us about ways to improve the 
academic success of low-income college students.
    My name is Lashawn Richburg-Hayes, and I am director of the Young 
Adults and Postsecondary Education policy area for MDRC, a nonprofit, 
nonpartisan research organization based in New York City. MDRC was 
founded more than 40 years ago to build reliable evidence on the 
effectiveness of programs for the disadvantaged and to help 
policymakers and practitioners use that evidence to improve policies 
and programs. MDRC is known for conducting large-scale evaluations and 
demonstration projects to test the impacts and cost-effectiveness of 
education and social programs. Many of our studies use a random 
assignment research design, the most rigorous method for assessing such 
programs, which is able to determine the value an intervention adds to 
the status quo. This method, analogous to the one used in medical 
clinical trials, produces the most reliable evidence that a program 
works. As a result, it is the only method to be accepted without 
reservations by the Department of Education's What Works Clearinghouse. 
Given that resources are limited and problems are very difficult to 
solve, proceeding with evidenced-based policy is prudent. Ensuring that 
the evidence is there when it is needed is our mission and that of many 
other dedicated researchers.
    Let me begin by summarizing my main points. These are all lessons 
drawn from existing research:

    1. Comprehensive and integrated programs can make a sizable 
difference. The City University of New York's Accelerated Study in 
Associate Programs (ASAP) is a comprehensive and integrated long-term 
program designed to help more community college students graduate more 
quickly. MDRC's random assignment study of ASAP shows that the program 
nearly doubled 3-year graduation rates for students who started college 
needing developmental (or remedial) course work--at a lower cost per 
graduate than usual college services.
    2. Identifying effective strategies for developmental education 
students is critical to improving national graduation rates and evening 
outcomes by socioeconomic status. Several random assignment 
interventions have been conducted that suggest modest positive 
improvements in outcomes are possible. Second-generation interventions 
are currently being evaluated and findings will be available shortly to 
inform policymakers and practitioners about what works in this area.
    3. ASAP is one example of a program that implemented elements of a 
structured pathway approach, which is based on the idea that simple, 
well-defined programs of study may help more students complete 
community college. Most community college students are offered a vast 
array of courses and options to arrange their schedules and earn 
credentials. In theory, these allow them to match their interests with 
the right program. In reality, however, they leave many students 
confused and overwhelmed.
    4. Financial aid is an important lever to help low-income students 
succeed. Given both the size of the financial aid system ($226 billion) 
and the widespread use of financial aid for various purposes, financial 
aid must be thought of as another tool that can be used to improve 
academic success and postsecondary completion. A growing body of work 
has studied interventions that use financial aid as an incentive to 
improve academic success. Nine such studies demonstrate that incentive-
based grants--an innovation on traditional financial aid--result in a 
larger proportion of students meeting academic benchmarks, a greater 
number of credits earned, and modest effects on grade point average in 
the first year. Work by MDRC in this area has shown that incentive-
based grants can increase first-year enrollment when the intervention 
targets graduating high school seniors.
                            recommendations
    1. Give colleges and States incentives to replicate proven 
programs. For example, the Federal Government could support the spread 
of ASAP. This could be through funding mechanisms such as First in the 
World. This year's First in the World competition did encourage 
applicants to propose replicating interventions that had strong 
evidence, but additional support could be fostered through future 
competitions and also through other funding mechanisms.
    2. Encourage innovation paired with research, especially rigorous 
evaluation. Specifically, additional research could be conducted into 
structured pathways, year-round financial aid, and work-study programs.

    <bullet> The Department of Education (or other parts of the Federal 
Government) can encourage tests of structured pathways. Components of 
structured pathways have been studied in different fields but evidence 
is lacking on the effectiveness of an entire model. A center focused on 
structured pathways or a grant competition with long-term support can 
foster more research in this area.

        <bullet>  The Department of Education can test Pell Grant 
        funding to cover the summer term of the academic year. Offering 
        Pell Grant aid to students during the summer would offer an 
        opportunity to test whether aid during short terms (that is, 
        those less than 12 weeks in duration) helps students make 
        stronger progress toward degree completion. Tying the 
        reintroduction of summer Pell awards to some of the other 
        strategies discussed in this testimony (for example, 
        incremental aid disbursements) could help control program costs 
        and make the program more sustainable.
        <bullet>  States and institutions could be encouraged to use 
        internal or external grant funding to test whether summer 
        funding improves outcomes. States and institutions with 
        flexible grant aid dollars could allocate some of those funds 
        to grants for summer or winter college enrollment, or both. 
        Additionally, States and institutions could seek out 
        partnerships with local and national donor organizations 
        committed to helping low-income students graduate from college.
        <bullet>  The Federal Government could encourage a test that 
        compares the current work-study model with a modified version 
        designed to help low-income students make career advances while 
        in college. Given the amount of money expended on this aid 
        program ($972 million in academic year 2011-12), it would be a 
        worthy endeavor to clarify how that aid can help students most 
        effectively.
                             the challenge
    Access to college has increased substantially over the last 50 
years, but student success--defined as the combination of academic 
success and degree or certificate completion--has not improved.\1\ 
What's more, success is unevenly distributed by socioeconomic status, 
with students from high-income families attending and completing 
college at higher rates than low-income students are completing. While 
low-income students are now more likely to attend college, they are not 
more likely to complete college.\2\
    Part of the reason is that students arrive at college 
underprepared. Many students from low-income families are unlikely to 
engage in a curriculum that prepares them for college. A large 
proportion of such students therefore arrive at college, are assessed 
to see if they are ready for college course work, and are placed into 
developmental education courses, where they linger.
    The gap in completion rates is exacerbated by the fact that low-
income students are more likely to attend open- or broad-access 
institutions that typically do not have the resources to provide the 
level of support that underprepared and unprepared students need in 
order to succeed.\3\ To cite just one statistic, the Nation's 1,200 
community colleges enroll over 10 million students each year--nearly 
half of the Nation's undergraduates. Yet fewer than 40 percent of 
entrants complete an undergraduate degree within 6 years.\4\ The 
outcomes are not much better at public 4-year, open-access 
institutions, where the 6-year graduation rate is only slightly higher. 
In short, while there have been marked successes in college access 
since the passage of the Higher Education Act of 1965--which extended 
need-based financial assistance to the general population for the first 
time--more work remains to be done to improve college persistence and 
completion rates.
    The challenge is to develop more opportunities for low-income 
students to both attend and succeed at institutions of higher learning. 
Fortunately, research is beginning to point the way toward some 
possible solutions in four areas: comprehensive and integrated reforms, 
developmental education reforms, structured pathways, and innovations 
in financial aid.
               comprehensive and integrated interventions
    Many reforms have been found to help students in the short term, 
but few have substantially boosted college completion.\5\ The City 
University of New York's (CUNY's) Accelerated Study in Associate 
Programs (ASAP), launched in 2007 with funding from the New York City 
Center for Economic Opportunity, is an uncommonly comprehensive and 
long-term program designed to help more community college students 
graduate and help them graduate more quickly. Earlier this year, MDRC 
released new results from our random assignment study of ASAP showing 
that the program nearly doubled 3-year graduation rates for students 
who started college needing developmental (or remedial) course work--at 
a lower cost per graduate than usual college services.\6\
    ASAP represents both an opportunity and an obligation for students. 
It was designed to address multiple potential barriers to student 
success and to address them for up to 3 years. The key components of 
ASAP are:

    <bullet> Requirements and messages: Students are required to attend 
college full-time (defined as 12 credit hours per term) and are 
encouraged to take developmental courses early and to graduate within 3 
years.
    <bullet> Student services: Students receive comprehensive advising 
from an ASAP-dedicated adviser with a caseload of 60 to 80 students (as 
compared with 600-plus for other CUNY advisers), career information 
from an ASAP-dedicated career and employment services staff member, and 
ASAP-dedicated tutoring services.
    <bullet> Course enrollment: Students may enroll in blocked or 
linked courses (two or more courses grouped together with seats 
reserved for ASAP students) in their first year. Students also enroll 
in an ASAP seminar during their first few semesters covering topics 
such as goal setting and study skills. Students can also register for 
courses early.
    <bullet> Financial support: Students receive a tuition waiver that 
covers any gap between financial aid and college tuition and fees. 
Students also receive free use of textbooks and free MetroCards for use 
on public transportation, contingent on participation in key program 
services.

    Many of the components of ASAP (enhanced student services, 
financial aid as an incentive, linked courses, student support courses) 
have been studied rigorously in other settings and found to increase 
student success only modestly at best. Would combining them together 
create a whole that was more effective than the sum of its parts? For 
the MDRC study, ASAP targeted Pell-eligible low-income students who 
needed one or two developmental courses to build their reading, 
writing, or math skills and compared ASAP with regular services and 
classes at the colleges. MDRC's report, which provides results for 3 
years, found that ASAP:

    <bullet> Boosted enrollment and credits earned. ASAP increased 
enrollment in college, especially during the shorter winter and summer 
intersessions. ASAP increased the average number of credits earned over 
3 years by 8.7 credits (47.7 for ASAP students vs. 39.0 for students in 
the control group).
    <bullet> Greatly increased graduation rates. ASAP nearly doubled 
the percentage of students who earned an associate's degree in 3 years 
(40.1 percent for ASAP students vs. 21.8 percent for students in the 
control group, for an 18.3 percentage point difference). It is 
important to note that these students had to fulfill developmental 
education requirements before earning at least 60 college-level credits 
to graduate.
    <bullet> Increased transfers to 4-year colleges. ASAP increased the 
percentage of students who transferred to a 4-year college by 7.8 
percentage points (25.1 for ASAP students vs. 17.3 for the students in 
the control group).
    <bullet> Lowered the cost per degree. At the 3-year point, the cost 
per degree was lower in ASAP than in the control condition. Because the 
program generated so many more graduates than the usual college 
services, the cost per degree was less, despite the substantial 
investment required to operate the program.

    While ASAP offers many services to students (and expects their 
substantial commitment in return), it is important to emphasize that it 
achieves its effects without making changes in curricula or in 
pedagogy. A few other points are worth noting. A substantial portion of 
the effect on credit accumulation for ASAP students came during the 
winter and summer terms, which ASAP strongly encouraged students to 
attend. (In fact, students could fulfill their full-time status for a 
main spring or fall term by taking summer or winter courses). The value 
of providing support to students year-round is a subject I will return 
to later. While our research design cannot definitively determine which 
components of ASAP made the most difference, three aspects of the 
program stand out: (1) combining participation requirements for 
students with extensive support services, (2) tying the distribution of 
the MetroCard (worth more than $100 per month) to student engagement in 
program services like advising and careful monitoring of student 
participation by CUNY, and (3) encouraging students to take 
developmental courses early and to enroll in summer and winter 
sessions. The success of ASAP does not come easy. Other similarly 
ambitious programs have confronted a variety of implementation and 
institutional challenges.
    What is next for ASAP? ASAP's success has prompted New York City to 
invest up to $42 million by 2019 to bring the program to as many as 
25,000 students. As CUNY has expanded ASAP, it has been able to bring 
down its per-student cost. In addition, CUNY and MDRC, with anchor 
funding from the Great Lakes Higher Education Guaranty Corporation, are 
replicating ASAP at three Ohio community colleges to test whether it 
can be successfully adapted in new contexts serving different student 
populations. In the future, MDRC may work with other colleges 
interested in implementing their own versions of ASAP to evaluate the 
effectiveness of these adaptations.
                    developmental education reforms
    Research suggests that about one-half of all entering college 
students and 68 percent of entering community college students take at 
least one remedial course within 6 years. Many enroll in more than one 
remedial course, either in one subject or in multiple subjects.\7\ 
Fewer than half of students successfully make it through the sequence 
of courses to which they are referred and only one-third of students 
who take a remedial course ever earn any postsecondary credential.\8\ 
Low-income, minority, and first-generation college students are all 
overrepresented in these negative outcomes associated with 
developmental education.\9\
    Several interventions have shown modest short-term effects for 
students with developmental education needs. For example, MDRC studied 
eight summer bridge programs in Texas that aimed to reduce the need for 
remediation by offering students accelerated, focused learning 
opportunities between the senior year of high school and college. That 
study found positive impacts on introductory college-level course 
completion in math and writing, though those impacts faded by the end 
of 2 years. MDRC also evaluated learning communities, a strategy to 
address developmental education by bringing together small groups of 
students who take two or more linked courses that have mutually 
reinforcing themes and assignments. That evaluation also found modest, 
positive impacts for students while the learning communities were in 
place.
    More research will emerge on strategies effective at addressing 
developmental education. The Center for the Analysis of Postsecondary 
Readiness (CAPR)--a joint center funded by the Institute for Education 
Sciences and run by MDRC and the Community College Research Center at 
Teacher's College, Columbia University--is conducting research to 
document current practices in developmental English and math education 
across the United States and to rigorously evaluate innovative 
assessment and instructional practices. The purpose of CAPR's research 
is to help advance a second generation of developmental education 
innovation in which colleges and State agencies design, implement, and 
expand stronger and more comprehensive reforms that improve student 
outcomes. CAPR is conducting three major studies that together will 
help provide a foundation for this undertaking: (1) a national survey 
of developmental education practices at 2- and 4-year colleges, (2) an 
evaluation of alternate systems of remedial assessment and placement, 
and (3) an evaluation of an innovative developmental math pathways 
program.
    In addition to CAPR, rigorous random assignment evaluations are 
currently under way of several promising interventions including CUNY 
Start, a multifaceted prematriculation program that provides intensive 
instruction in reading, writing, and math through a carefully 
prescribed curriculum and instructional delivery system. CUNY Start 
condenses the time students spend preparing for college-level English 
and math into a single semester. In addition, it delivers enhanced 
academic and nonacademic support through advisers, tutors, and a weekly 
seminar that builds college success skills, at a cost to students of 
only $75 per semester.
    MDRC's Developmental Education Acceleration Project is also testing 
the effectiveness of an ``accelerated'' developmental education 
curriculum, using a random assignment design. The ModMath program at 
Tarrant County College in Fort Worth, TX, divides three semesters of 
developmental math into nine discrete modules, allowing students to 
enter the sequence at a point appropriate to their skills and to leave 
and return without losing as much ground as they would in semester-
length courses.
                          structured pathways
    ASAP is one example of a program that implemented elements of a 
structured pathway approach, which is based on the idea that simple, 
well-defined programs of study may help more students to complete 
community college. Most community college students are offered a vast 
array of courses and options to arrange their schedules and earn 
credentials. In theory these allow them to match their interests with 
the right program. In reality, however, they leave many students 
confused and overwhelmed, unsure about what classes they need to 
complete their degrees and which credits can transfer to a 4-year 
institution. Moreover, little guidance is provided on how to sift 
through the chaos and make the right decisions based on their goals and 
long-term plans. Students end up taking courses and accumulating 
credits, but never finishing their degrees or getting their 
certificates.
    More choice is not always better. For example, studies in 
behavioral economics have shown that when people are faced with a 
plethora of choices, seemingly irrelevant contextual factors tend to 
influence their decisions. In addition, when they are confronted with 
complicated decisions with long-term implications, they struggle to 
identify which factors are the most important, how to gather all the 
necessary relevant information, and how to weigh the costs and benefits 
of these factors.\10\ Basically, people who are uninformed or 
overwhelmed with too much complicated information may make decisions 
that are not in their best interests.
    A promising approach is to provide more structure and guidance and 
a limited selection of pathways in community colleges. In principle, 
the structured pathways model applies to all aspects of a student's 
experience in college. It includes robust services to help students 
choose career goals and majors. It integrates developmental education 
courses with college-level courses and organizes the curriculum around 
a limited number of broad subject areas that encourage defined programs 
of study. It also emphasizes ongoing collaboration among faculty, 
advisers, and staff members.
    Beside the robust and structured advising and guidance offered by 
ASAP, other schools that have implemented the structured pathway 
approach include Guttman Community College in New York City. Students 
there were required to enroll full-time their first year and to take a 
common first-year curriculum. They were also placed in ``houses,'' 
which were similar to learning communities and which included faculty 
members who taught the students throughout their first year at school. 
After the first year, students could choose their preferred program of 
study from a limited selection. The first-year students had promising 
outcomes, although no rigorous evaluation has been conducted.\11\
                       financial aid innovations
    Financial aid has long been the tool of choice to increase access. 
In fact, one of the original purposes of student financial aid was to 
ensure more equitable access to postsecondary education for those 
traditionally underrepresented and those least able to afford it.\12\ 
However, the current financial aid system serves far more students than 
originally envisioned by the legislation that created it, and for 
purposes beyond the inability to pay. Almost two-thirds of all 
undergraduates receive some form of financial aid and many institutions 
are using financial aid for other reasons, such as ``enrollment 
management'' to attract competitive students to attend their 
institutions rather than others.\13\
    Given both the size of the financial aid system ($226 billion) and 
the widespread use of financial aid for various purposes, financial aid 
must be thought of as another tool that can be used to improve academic 
success and postsecondary completion.\14\ Yet little is known about 
whether financial aid increases access and improves academic success. 
Previous research suggests that financial aid is positively associated 
with increased enrollment in postsecondary education,\15\ and also 
positively associated with increased persistence.\16\ Generally, the 
relationship between financial aid and student outcomes has been 
difficult to answer because of problems with endogeneity.\17\ That is, 
factors that are associated with financial need, such as low family 
income, are also associated with a lack of academic success, making it 
difficult to isolate the effect of additional financial aid on student 
achievement. This issue of selection bias is best addressed through the 
employment of a random assignment experimental design.\18\
    A growing body of work has studied interventions that use financial 
aid as an incentive to improve academic success. Fortunately, several 
of the incentive-based grant programs--where incentive-based grants are 
defined as additional financial aid to students that is contingent on 
academic performance--have been evaluated using random assignment.\19\ 
Since it is not ethical to eliminate need-based aid and experiment with 
randomly providing aid to students, the studies have focused on 
randomly providing additional aid.\20\ Nine such studies demonstrate 
that incentive-based grants--an innovation on traditional financial 
aid--result in a larger proportion of students meeting academic 
benchmarks, a greater number of credits earned, and modest effects on 
grade point average (GPA) in the first year.\21\ Work by MDRC in this 
area has shown that incentive-based grants (known as performance-based 
scholarships in MDRC's studies) can increase first-year enrollment when 
the intervention targets graduating high school seniors.
    There are several promising innovations for financial aid that 
could improve success and allow students to complete their degrees 
faster: (1) distributing aid in a way that encourages students to 
devote effort to their studies, (2) providing year-round financial aid 
so students can accelerate their studies, and (3) restructuring the 
notification of satisfactory academic progress (SAP) requirements so 
that students are aware of the requirements and have an incentive to 
meet them. It is important, however, that these reforms be rigorously 
evaluated before they are implemented on a large scale.
    Innovative Distribution of Aid: In order to support students' 
ongoing expenses, encourage students to stay enrolled, and reduce the 
inefficiencies and risks of disbursing financial aid at the start of 
the semester in a lump sum, States and institutions could consider 
disbursing aid on various timetables. Typically, any amount left over 
of a student's financial aid after tuition, fees, books, and supplies 
is refunded to the student in a lump sum at the beginning of the 
semester. While these financial aid refunds may support and enable 
student success, when students withdraw prior to the 60 percent point 
in the term, the college may be required to pay back part of the 
refunded aid (Return to title IV), and may need to recoup those funds 
from students. Students who are unable to settle their debts with the 
college may not be allowed to re-enroll until they do. MDRC does not 
know of any national data about the scale of these returns or the 
number of students affected, but anecdotally it seems common for large 
colleges to report that they lose over $1 million a year due to returns 
to title IV.
    One innovation to consider is to have institutions reallocate lump 
sum aid into small increments. When refunds (both grants and loans) are 
disbursed to students in small biweekly or monthly increments, those 
students could potentially better budget and manage the financial aid 
that they receive. These more frequent incremental disbursements may 
also better align with the timing of when aid is earned, which could 
result in fewer or smaller returns to title IV (which would benefit 
colleges as well as students). MDRC's Aid Like A Paycheck evaluation is 
currently evaluating the impact of this intervention.\22\
    Another innovation to consider is a restructuring of Federal work-
study. Students who are employed full-time while enrolled in college 
are at a greater risk of dropping out or at least prolonging their time 
to degree completion. Work-study could be expanded to more low-income 
students to reduce their need to work full-time jobs disconnected from 
their educational pursuits. While this idea has not been studied, the 
Federal Government could alter the funding formula for work-study. 
Current allocation formulas send more work-study funds to institutions 
with small numbers of low-income students (according to Pell Grant 
eligibility).\23\ In addition, many work-study jobs bear little 
relation to students' career objectives.\24\ Modifications to job 
development processes for work-study-eligible jobs could improve the 
program's ability to advance students' careers.
    Year-Round Financial Aid: Faster is better for college completion. 
Faster completion can be achieved if students are encouraged to attend 
college full-time when possible and supported in doing so. While it is 
clear that many community college students work and need to attend 
school part time, it may be helpful and feasible to encourage them to 
increase their ``attendance intensity.'' There are two ways to get 
there. One way would be to try to increase the number of credits 
students earn per semester. The other would be to make greater use of 
the winter intersession and summer sessions. Focusing on year-round 
attendance would change the mental accounting period for students to a 
full year, possibly making it easier for them to accumulate 24 or 30 
credits and keeping them on track for timely degree completion. Year-
round attendance could help students catch up or move ahead in their 
studies, which may be especially important for students who need to 
combine work and school. In addition, summer enrollment keeps students 
connected to college without a large break, which may boost re-
enrollment the following academic year. Evidence from three studies 
suggests that year-round aid can increase enrollment during the summer 
and winter, and that summer and winter enrollment can help students 
earn more credits.
    One of these studies--the Performance-Based Scholarship 
Demonstration evaluation at two community colleges in New York City--
evaluated the effect of adding a summer scholarship offer to 
scholarships otherwise offered only during the fall and spring. 
Students in the program group could receive up to $1,300 per semester 
if they enrolled for a certain number of credits and kept their grades 
above a ``C.'' Half of the program group could receive the scholarship 
for two semesters, the other half for two semesters plus a summer term. 
The summer-scholarship group was 6.8 percentage points more likely to 
enroll in summer than the group who received scholarships only in the 
fall and spring, an increase of about 35 percent over the fall- and 
spring-group's summer enrollment rate of 19.4 percent.\25\
    Recent research also suggests that undergraduates who attend summer 
school have better retention rates thereafter and are significantly 
more likely to complete a degree.\26\ Two MDRC studies (CUNY ASAP and 
the Opening Doors Learning Communities) encouraged students to enroll 
in summer and winter and included financial support for them to do so. 
Those two studies also suggest that increased enrollment during 
intersessions may be linked to greater credit accumulation over time. 
Students in both studies could use financial aid during the summer and 
winter, meaning that the usual financial barriers to year-round 
enrollment were largely absent.

    <bullet> ASAP: As mentioned above, much of ASAP's large impact on 
student outcomes could be traced to ASAP's outsized effect on students' 
performance during summer and winter intersessions--where ASAP pushed 
hard for students to enroll. During the main sessions of the second 
through sixth semesters after students joined the study, ASAP boosted 
enrollment by between 4.6 percentage points and 9.6 percentage points. 
Yet ASAP's effects on intersession enrollment were far more dramatic, 
peaking at 25.2 percentage points during the second semester. That rise 
in intersession enrollment is responsible for the program group earning 
on average 2.4 more cumulative total credits over six semesters (the 
equivalent of taking nearly an additional extra course), about a 
quarter of the program's total impact on credits earned.\27\
    <bullet> Opening Doors Learning Communities: The Opening Doors 
demonstration at Kingsborough Community College found that on average, 
program group students enrolled in more intersessions than control 
group students and earned more credits on average during intersessions: 
0.5 credits more in the first year (than the 3.7 credits earned in the 
control group) and 1.0 credits more after 6 years (than the 9.2 credits 
earned in the control group). This gain accounted for about a quarter 
of the program's total impact on credits earned. The demonstration put 
freshmen into groups of up to 25 who took three classes together their 
first semester, and provided enhanced counseling and tutoring as well 
as textbook vouchers. Students were encouraged to enroll in the 
intersession following the program session, and received an additional 
textbook voucher of $75 if they did.\28\

    Taken together, these three studies suggest that a year-round Pell 
Grant program may be beneficial. If it is reintroduced, however, it 
should be with a plan for rigorous evaluation to inform the policy 
moving forward.
    Restructure the Notification of SAP Requirements: Students must 
make satisfactory academic progress (SAP) to maintain any title IV 
Federal aid (including Pell Grants). SAP has three components: (1) 
passing 60 percent of courses attempted (to demonstrate academic 
progress); (2) earning a GPA of at least 2.0 in these courses (to 
demonstrate academic performance); and (3) if these first two 
components are violated, increasing performance during an academic 
probation semester to be returned to good standing. While these 
criteria appear straightforward, in practice students may fail for 
several terms before their eligibility is restricted, as 2-year 
institutions are only required to check SAP annually for students in 2-
year programs (though they can check more frequently). In addition, 
students may continue to be in violation of SAP, lose their title IV 
eligibility, yet remain enrolled if the cost of tuition and fees are 
very low.\29\ As a result, the current system may provide only a weak 
incentive to induce students to alter their behavior.\30\
    Many students are not aware of an institution's SAP requirements 
and institutions typically evaluate SAP progress at the end of each 
academic year, so students do not know if they are at risk of failing 
to meet the standards. One innovation in financial aid could have 
institutions implement an early notification system, so that students 
have the opportunity to change their behavior if they are at risk of 
failing to meet SAP standards. While such systems are often labeled as 
student success strategies, they can have sizable implications for 
financial aid as well. Georgia State University's predictive analytics 
intervention is a well-known example of this type of intervention.
                            recommendations
    1. Give colleges and States an incentive to replicate proven 
programs. For example, the Federal Government could support the spread 
of ASAP. This could be through funding mechanisms such as First in the 
World. This year's First in the World competition did encourage 
applicants to propose replicating interventions that had strong 
evidence, but additional support could be fostered through future 
competitions and also through other funding mechanisms.
    2. Encourage innovation paired with research, especially rigorous 
evaluation. Specifically, additional research could be conducted into 
structured pathways, year-round financial aid, and work-study programs.

    a. The Department of Education (or other parts of the Federal 
Government) can encourage tests of structured pathways. Components of 
structured pathways have been studied in different fields but evidence 
is lacking on the effectiveness of an entire model. A center focused on 
structured pathways or a grant competition with long-term support can 
foster more research in this area.
    b. The Department of Education could clarify areas for innovation. 
In our experience, institutions are very conscious of complying with 
title IV regulations and are reluctant to innovate if such innovation 
is not clearly protected. To remedy this, the Department of Education 
could put out a fact sheet about what colleges can do right now to 
disburse aid differently without approval from the Department or a 
legislative change. Waivers could also be granted more readily for 
experimentation.
    c. The Department of Education can test Pell Grant funding to cover 
the summer term of the academic year. Offering Pell Grant aid to 
students during the summer would offer an opportunity to test whether 
aid during short terms (that is, those less than 12 weeks in duration) 
helps students make stronger progress toward degree completion. Tying 
the reintroduction of summer Pell awards to some of the other 
strategies discussed in this testimony (for example, incremental aid 
disbursements) could help control program costs and make the program 
more sustainable. While summer Pell turned out to be prohibitively 
expensive for the government, it might not be more expensive if 
analyzed in terms of costs per graduate. In addition, costs may be 
mitigated by targeting the availability of summer aid in various ways.
    d. The Department of Education (or other parts of the Federal 
Government) could also encourage a test of Supplemental Educational 
Opportunity Grant (SEOG) funding to cover the summer or winter terms of 
the academic year, or both. Federal Student Aid could collaborate with 
selected 2-year and 4-year institutions to test offering additional 
SEOG funds to students during summer and winter terms.\31\
    e. States and institutions could be encouraged to use internal or 
external grant funding to test whether summer funding improves 
outcomes. States and institutions with flexible grant aid dollars could 
allocate some of those funds toward grants for summer or winter college 
enrollment, or both. Additionally, States and institutions could seek 
out partnerships with local and national donor organizations committed 
to helping low-income students graduate from college. The effect of 
summer grant aid on students' academic success could be tested by 
randomly assigning students to one of three groups: aid during the 
summer and winter, more aid during all academic terms, or no additional 
aid. Designing a test with these three variable conditions would help 
to inform the field about how much summer aid helped students, and 
about whether summer aid alone was enough to see a meaningful impact on 
student success.
    f. The Federal Government could encourage a test that compares the 
current work-study model with a modified version designed to help low-
income students make career advances while in college. To date, little 
research has been conducted to test the effectiveness of the Federal 
Work-Study program. The few studies that have been conducted of such 
aid have been quasi-experimental and have yielded heterogeneous 
findings.\32\ Given the amount of money expended on this aid program 
($972 million in academic year 2011-12), it would be a worthy endeavor 
to clarify how that aid can help students most effectively.
                               References
    1. Turner, Sarah T. 2004. Going to College and Finishing College: 
Explaining Different Educational Outcomes. In Caroline Hoxby (Editor), 
College Choices: The Economics of Where to Go, When to Go, and How to 
Pay for It. Chicago: University of Chicago Press.
    2. Kelly, Andrew J. 2014. Big Payoff, Low Probability: Post-
secondary Education and Upward Mobility in America. Washington, DC: 
American Enterprise Institute.
    3. Jenkins, Davis, and Olga Rodriguez. 2013. Access and Success 
with Less: Improving Productivity in Broad-Access Postsecondary 
Institutions. Future of Children: Special Issue on Postsecondary 
Education in the United States. Volume 23, Number 1, 187-209.
    4. Bailey, Thomas R., Shanna Smith Jaggars, and Davis Jenkins. 
2015. Redesigning America's Community Colleges: A Clearer Path to 
Student Success. Cambridge, MA: Harvard University Press.
    5. MDRC. 2013. Developmental Education: A Barrier to a 
Postsecondary Credential for Millions of Americans. New York: MDRC.
    6. Scrivener, Susan, Michael J. Weiss, Alyssa Ratledge, Timothy 
Rudd, Colleen Sommo, and Hannah Fresques. 2015. Doubling Graduation 
Rates: Three-Year Effects of CUNY's Accelerated Study in Associate 
Programs (ASAP) for Developmental Education Students. New York: MDRC.
    7. Attewell, P., Lavin, D., Domina, T., & Levey, T. (2006). New 
evidence on college remediation. Journal of Higher Education, 77(5), 
886-924.
    8. Adelman, C. (2004). Principal indicators of student academic 
histories in postsecondary education, 1972-2000. Washington, DC: U.S. 
Department of Education, Institute of Education Sciences. Bailey, T., 
Jeong, D. W., & Cho, S. W. (2010). Referral, enrollment, and completion 
in developmental education sequences in community colleges. Economics 
of Education Review, 29(2), 255-70.
    9. Perry, M., Bahr, P. R., Rosin, M., & Woodward, K. M. (2010). 
Course-taking patterns, policies, and practices in developmental 
education in the California Community Colleges. Mountain View, CA: 
EdSource. Retrieved from http://www.edsource.org /
iss_research_communitycollege.html.
    10. Scott-Clayton, Judith. 2011. The Shapeless River: Does a Lack 
of Structure Inhibit Students' Progress at Community Colleges? New 
York: Community College Research Center.
    11. Bailey, Thomas R., Shanna Smith Jaggars, and Davis Jenkins. 
2015. Redesigning America's Community Colleges: A Clearer Path to 
Student Success. Cambridge, MA: Harvard University Press.
    12. Title IV of the Higher Education Act of 1965 references the 
purpose of financial aid in this way.
    13. Enrollment management refers to the consolidation of 
recruitment, admission, and retention under a single leader or office. 
Among other things, many enrollment managers systematically test 
financial incentives to maximize enrollment yield with targeted groups 
of students or to increase net tuition revenue. Harrison Keller and 
Nate Johnson, ``Completion Management: Using Aid and Price to Improve 
Results,'' Working Paper: Report of the Institutional Working Group 
(Indianapolis, Indiana: Lumina Foundation, 2013).
    14. The size of Federal, State, and institutional aid for both 
undergraduate and graduate students as cited in HCM Strategists, The 
American Dream 2.0: How Financial Aid Can Help Improve College Access, 
Affordability, and Completion (Washington, District of Columbia: HCM 
Strategists, 2013).
    15. Edward St. John, et al., Meeting the Access Challenge: 
Indiana's Twenty-first Century Program (Indianapolis, IN: Lumina 
Foundation for Education, 2002); Thomas Kane, ``Evaluating the impact 
of the DC Tuition Assistance Grant Program,'' National Bureau of 
Economic Research Working Paper No. 10658 (2004); Susan Dynarski, 
``Hope for Whom? Financial Aid for the Middle Class and Its Impact on 
College Attendance,'' National Bureau of Economic Research Working 
Paper No. 7756 (2000); Susan Dynarski, ``Does Aid Matter? Measuring the 
Effect of Student Aid on College Attendance and Completion,'' American 
Economic Review 93, no. 1 (March 2003); Christopher Cornwell, David B. 
Mustard, and Deepa J. Sridhar, ``The Enrollment Effects of Merit-Based 
Financial Aid: Evidence from Georgia's Hope Program,'' Journal of Labor 
Economics 24, no. 4 (October 2006).
    16. Edward St. John, Shouping Hu, and Jeff Weber, ``State Policy 
and the Affordability of Public Higher Education: The Influence of 
State Grants on Persistence in Indiana,'' Research in Higher Education 
42 (2001); Susan Choy, Access and Persistence: Findings from Ten Years 
of Longitudinal Research on Students (Washington, District of Columbia: 
Center for Policy Analysis, American Council on Education, 2002); 
Stephen L. DesJardins, Dennis A. Ahlburg, and Brian P. McCall, 
``Simulating the Longitudinal Effects of Changes in Financial Aid on 
Student Departure from College,'' Journal of Human Resources 37, no. 3 
(2002); Eric Bettinger, ``How Financial Aid Affects Persistence,'' in 
College Choices: The Economics of Where to Go, When to Go, and How to 
Pay for It, ed. Caroline M. Hoxby (Chicago: University of Chicago 
Press, 2007); Larry Singell and Mark Stater, ``Going, Going, Gone: The 
Effects of Aid Policies on Graduation at Three Large Public 
Institutions,'' Policy Sciences 39, no. 4 (2006).
    17. (Dynarski, 2002)
    18. (Shadish, Cook, and Campbell, 2002)
    19. See Joshua Angrist, Daniel Lang, and Philip Oreopoulos, 
``Incentives and Services for College Achievement: Evidence from a 
Randomized Trial,'' American Economic Journal: Applied Economics 1, no. 
1 (2009). Joshua Angrist, Philip Oreopoulos, and Tyler Williams, ``When 
Opportunity Knocks, Who Answers? New Evidence on College Achievement 
Awards,'' National Bureau of Economic Research Working Paper No. 16643 
(2010). Edwin Leuven, Hessel Oosterbeek, and Bas van der Klaauw, ``The 
Effect of Financial Rewards on Students' Achievement: Evidence from a 
Randomized Experiment,'' Journal of the European Economic Association 
8, no. 6 (2010). MacDonald, et al., Final Impacts Report: Foundations 
for Success (Ottawa, Canada: R.A. Malatest & Associates LTD., 2009). 
Lashawn Richburg-Hayes, et al., Rewarding Persistence: Effects of a 
Performance-Based Scholarship Program for Low-Income Parents (New York: 
MDRC, 2009) and Lisa Barrow, et al., ``Paying for Performance: The 
Education Impacts of a Community College Scholarship Program for Low-
Income Adults'' Journal of Labor Economics, Volt. 32, No. 3 for Opening 
Doors Louisiana; Lashawn Richburg-Hayes, et al., Providing More Cash 
for College: Interim Findings from the Performance-Based Scholarship 
Demonstration in California (New York: MDRC, forthcoming) for 
California; Cynthia Miller, et al., Staying on Track: Early Findings 
from a Performance-Based Scholarship Program at the University of New 
Mexico (New York: MDRC, 2011) for New Mexico; Reshma Patel and Timothy 
Rudd, Can Scholarships Alone Help Students Succeed? Lessons from Two 
New York City Community Colleges (New York: MDRC, 2012) for New York; 
Paulette Cha and Reshma Patel, Rewarding Progress, Reducing Debt: Early 
Results from Ohio's Performance-Based Scholarship Demonstration for 
Low-Income Parents (New York: MDRC, 2010) and Reshma Patel, et al., 
Using Financial Aid to Promote Student Progress: Interim Findings from 
the Performance-Based Scholarship Demonstration (New York: MDRC, 2013) 
for Ohio.
    20. Therefore, the results of these studies are likely to reflect 
marginal returns to financial aid since the aid is on top of any other 
aid for which students are eligible.
    21. See Richburg-Hayes, Lashawn. (2014). ``Incentivizing Success: 
Lessons from Experimenting with Incentive-Based Grants,'' in Andrew 
Kelly and Sara Goldrick-Rab (Eds.), Reinventing Financial Aid (PP. 101-
26) Cambridge, MA: Harvard Education Press.
    22. Ware, Michelle, Evan Weissman, and Drew McDermott. 2013. Aid 
Like A Paycheck: Incremental Aid to Promote Student Success. New York, 
NY: MDRC.
    23. The top 10 institutions that were awarded the most work-study 
allocations in 2012-13 are (in order of greatest to least): City 
University of New York, New York University, Columbia University, 
University of Southern California, Pennsylvania State University, DeVry 
University, ITT Technical Institute, University of Michigan (Ann 
Arbor), International American University of Puerto Rico, and Cornell 
University. See http://www.nationaljournal.com/next-america/education/
the-ten-colleges-that-get-the-most-work-study-aid-20141001.
    24. O'Sullivan, Rory, and Reid Setzer. 2014. A Federal Work Study 
Reform Agenda to Better Serve Low-Income Students. Washington, DC: 
Young Invincibles; Scott-Clayton and Minaya, 2014. ``Should Student 
Employment Be Subsidized? Conditional Counterfactuals and the Outcomes 
of Work-Study Participation.'' NBER Working Paper 20329. Cambridge: 
National Bureau of Economic Research.
    25. Patel, Reshma, and Timothy Rudd. 2012. Can Scholarships Alone 
Help Students Succeed? Lessons from Two New York City Community 
Colleges. New York: MDRC.
    26. Paul Attewell and Sou Hyun Jang, ``Summer Coursework and 
Completing College,'' Research in Higher Education 20 (2013): 117-41.
    27. Scrivener, Susan, Michael J. Weiss, Alyssa Ratledge, Timothy 
Rudd, Colleen Sommo, and Hannah Fresques. 2015. Doubling Graduation 
Rates: Three-Year Effects of CUNY's Accelerated Study in Associate 
Programs (ASAP) for Developmental Education Students. New York: MDRC.
    28. Sommo, Colleen, Alexander Mayer, Timothy Rudd, and Dan 
Cullinan. 2012. Commencement Day: Six-Year Effects of a Freshman 
Learning Community Program at Kingsborough Community College. New York: 
MDRC.
    29. See Sue Scrivener, Colleen Sommo, and Herbert Collado, Getting 
Back on Track: Effects of a Community College Program for Probationary 
Students (New York: MDRC, 2009) for evidence of this in California.
    30. See U.S. Department of Education, Federal Student Aid Handbook 
2012-13 (Washington, District of Columbia: U.S. Department of 
Education, 2012): Chapter 1 for specific details.
    31. Institutions have discretion over the schedule of SEOG 
disbursements, so this innovation would need to be a partnership 
between Federal Student Aid and selected institutions.
    32. Scott-Clayton (2011) and Scott-Clayton and Minaya, 2014.

    The Chairman. Thank you. We'll begin those questions now 
with a round of 5-minute questions for Senators.
    One of the tempting things to do when you hear great 
stories of success like this is to say, ``OK. That sounds good. 
Let's just make everybody do it.'' That usually isn't the right 
thing to do, even as impressive as Georgia State's progress has 
been.
    One question might be: Should we require, should we 
encourage, should we change something about the Federal 
requirement that you've got to take 12 hours to qualify for a 
student grant or a student loan when there's so much evidence 
that if you take--if that puts you on a track to taking more 
time than 4 years or 2 years or 1 year to get your certificate, 
is there something wrong with requiring Federal student aid to 
be based upon 15 credits instead of 12?
    Or if there's something wrong with that, is there some way 
we could encourage colleges to do that? Why aren't more 
colleges and institutions doing that? I know in Tennessee, once 
they focused on student success, they were wise enough to let 
different campuses do it different ways. Austin Peay focused on 
remediation, as you talked about. UT Knoxville told its 
students that you may take 12 hours if you want to, but you're 
going to pay for 15, and they began to see an immediate 
increase in the number of students who took 15 hours.
    What should we do about that, and what should we not do 
about it?
    Mr. Jones.
    Mr. Jones. I'm glad you mentioned that, because the Pell 
grant not only has an effect by itself, but it has the effect 
of changing every university's financial aid program, every 
State's financial aid program to be de facto at 12 credit 
hours. You'd have a huge ripple effect if you would incent 
students to take 15 credit hours.
    Those colleges that have done this--this started in 
Hawaii--have had their incoming freshmen essentially double the 
number of students taking 15 credit hours just in 1 year. How I 
would do it at the Federal level would not be to necessarily 
raise to 15, but students get so many semesters. I would incent 
them, to say, ``If you take 15, we'll just take it off the back 
end of what you might have been eligible for 6 years later.'' 
That would benefit the student and benefit the taxpayer as 
well.
    The Chairman. You're right. We spend $130 billion a year in 
grants and loans. If we make a single change like that, it 
affects millions of students and 6,000 institutions. What's the 
down side of that?
    Mr. Jones. I guess I wouldn't want to penalize students----
    The Chairman. Let me ask Mr. Ralls.
    Mr. Ralls. I don't think it takes much research to say that 
students who are going full-time are more likely to complete. 
The thing I would worry about, though, is that so many students 
work. When students are working, if the choice for many of them 
is the choice between working and going to college, they're 
going to choose to work, not because they want to, but because 
they have to. That's so much the circumstances for lower income 
students, community college students.
    My greatest fear is how you would structure incentives that 
would challenge students who must work to further their college 
education and move forward.
    The Chairman. So you'd leave that to the State system, for 
example, to make judgments about that?
    Mr. Ralls. It's important to encourage continuous movement 
forward. That's why I think the push toward year-round Pell 
grants is so important to make sure that movement is 
continuous. I would be very cautious about anything that would 
discourage students who are working from being able to pursue 
college attainment.
    The Chairman. Let me ask about remediation. There's been a 
shift in that over the last 30 years, at least, that I've seen. 
In our State, we thought we'd made great progress to say, ``You 
may come to the community college, but if you're not prepared 
for it, you don't get credit for the courses you take.''
    Based upon your testimony, Mr. Jones, that's sort of a 
bridge to nowhere. Only 1 in 10 remedial students will ever 
graduate.
    The Austin Peay experience took a different approach, as I 
understand it, and said, ``Come on in if you need remedial 
help, and we'll just find other ways to help you succeed,'' and 
they had a great success story from that.
    Dr. Renick, what's your advice about how we deal with 
remediation? Are there any changes in Federal policy or 
incentives that we should include in the Higher Education Act?
    Mr. Renick. It's clear that one-size-does-not-fit-all, and 
it's always a risk if we try to mandate one path forward. We 
have been able to collect, with the help of Complete College 
America and other organizations, increasingly convincing 
evidence that remediation works best when it's an add-on to 
students who are already engaged in college-level credits.
    If that's the case, then some of these questions about 
whether remediation should be funded or not become far less 
central. Students are in college-level courses, and at the same 
time, they're getting the support system that they need to be 
able to increase their reading or writing ability or whatever 
deficiencies they currently have.
    This discipline-based support has been much more effective 
at institutions like Georgia State and at institutions like 
Georgia Perimeter, the university we're consolidating with. As 
a result, we will absolutely require it for all remedial 
programs for our students over the next 12 months.
    The Chairman. Thank you.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman. Just 
following on your first question, sometimes our higher 
education policy is driven by our own memories of what we did 
in our college experience rather than what's actually happening 
today, when more and more students are worrying about a lot 
more than college classes. They might be parents. They are 
working two or three jobs to pay for college today.
    I want to make sure that we don't disenfranchise those 
students who are struggling the most by setting a bar that 
makes it impossible for them to meet. We have to be very 
careful with that.
    Mr. Ralls, I appreciate your comments on that.
    Dr. Richburg-Hayes, I wanted to ask you--I'm very 
interested in the results of the CUNY ASAP program that you 
talked about that doubled the graduation rates for community 
college students that needed remediation. Can you talk just a 
little bit about the support services that were provided to the 
students and getting the impressive results from that program?
    Ms. Richburg-Hayes. The support services were basically in 
four broad categories. The first was requirements and 
messaging. Students were invited to the program and told that 
they needed to enroll full-time, full-time being 12 credits.
    They were allowed to make up this full-time enrollment 
through the regular normal academic terms of fall and spring, 
as well as intersessions and summer enrollment. In totality, 
their intensity of enrollment was based on their accumulation 
of credits across an academic year and not just two semesters.
    In terms of student services, students received a 
comprehensive advisement from advisors. The advising ratio for 
the study that we performed was one advisor per 80 students. 
Students also were able to talk to career advisement.
    They also received automatic course enrollment with block 
scheduling available to some students, and students in limited 
majors were available for this program. For example, some 
majors, such as nursing--it's not possible to graduate in a 
very short period of time, given practicals and other 
requirements of the major.
    Finally, students were given financial support, including 
tuition gap coverage. All students were required to fill out 
the FAFSA and to apply for all aid for which they were 
eligible. If there should be unmet need for tuition and fees 
after that amount, the program covered that gap, in addition to 
incentivizing students through having a transportation voucher 
and providing use of free textbooks.
    Senator Murray. Dr. Renick, what support services did you 
provide?
    Mr. Renick. We've worked to try to recognize what is 
tripping up students overall, and what we found is those kinds 
of interventions had a disproportionate positive impact upon 
the students who were most at risk. I don't think we appreciate 
enough how much institutional know-how it takes to navigate a 
modern postsecondary institution. These are big bureaucracies.
    You hand students and their families these FAFSA forms. 
Then you put them through a process of registering for classes. 
At places like Georgia State, we have over 90 majors and 3,000 
courses. And then we're surprised when some students who don't 
have family support systems and knowledge about college go off 
path.
    What we're doing is trying to recognize that it takes a 
combination of technology and high touch, personal contact. 
We've increased the number of advisors--more than doubled 
them--over the last 4 years, and we've put technology in their 
hands so that they can reach out to students in the most 
personal and most timely way imaginable. That's where we're 
beginning to see huge results.
    Senator Murray. It makes sense when you say it. Absolutely.
    Mr. Jones and Dr. Ralls, I wanted to ask you--I said in my 
opening statement that it's really critical that we have the 
right data on student outcomes if we want to make sure we're 
targeting our intervention to really make sure we're 
successful.
    Dr. Ralls, you noted in your testimony that less than a 
third of the students in North Carolina community colleges are 
included in the current Federal completion data. Can both of 
you talk a little bit about how this data might help us better 
inform what policy we should be pursuing in terms of low-income 
and non-traditional students?
    Mr. Ralls. That's because until recently, it's only been 
first-time, full-time students that are counted. less than a 
third of the students who go for degrees in our system are 
counted in that regard.
    Mr. Jones pointed out that if you look at the Federal IPEDS 
data, the national average for community college completion 
within 150 percent is 21 percent. If you look at the recent 
National Student Clearinghouse data, after 6 years, 57 percent 
of community college students have earned a bachelor's degree 
or a community college degree.
    Fifty-seven percent is not the reason for a victory dance. 
Don't get me wrong. It's a lot more than 21 percent, and it 
illustrates the gaps in terms of defining, in terms of what is 
success. Many students that come to us are part-time, and so it 
takes 300 percent, that period of time for many to succeed.
    Another factor for us is so many of our students leave with 
alternative credentials that are recognized in the workplace 
but are not counted. When we did our student success tour, I 
remember going to a college in the mountains, Tri County 
Community College, and the welding instructor said,

          ``I need to give you some supplemental data, because 
        if you've looked at our completion rate for the welding 
        program, you know it's 8 percent.''

    He put a stack of pay stubs on the desk and noted that all 
of those students had AWS welding certifications that led to 
very lucrative opportunities for them.
    We don't count those. We don't count students who transfer 
from community colleges and ultimately get a 4-year degree. 
Those are the factors that--we have to look at the totality of 
student success, and that's not what's done now with current 
metrics.
    Senator Murray. I'm out of time.
    Mr. Jones, if you can just be concise.
    Mr. Jones. The obvious one is called grant graduation 
rates. Why the Federal Government wouldn't collect data on 
whether Pell students graduate is beyond my comprehension. But 
they don't. They don't--also, there's been this back and forth 
about whether we graduate veterans or not. That's pretty 
obvious. We should know that, too.
    They don't collect data on remediation, which both of you 
have remarked. That's pretty obvious, too. The metrics we use 
have been adopted by the National Governors Association back 
when Senator Manchin was Governor Manchin and started that 
initiative.
    There's a key set of small, disaggregated metrics that are 
important to college. As Senator Alexander pointed to, these 
things send signals across the whole U.S. colleges and 
universities.
    Senator Murray. Thank you.
    The Chairman. Thank you.
    Senator Collins.

                      Statement of Senator Collins

    Senator Collins. Thank you, Mr. Chairman.
    My concern is focused on those students who end up in debt 
and with no degree. That's the worst possible combination. Yet 
when I hear about the low completion rates, we have a whole 
category of people in that situation. We also know that if 
students don't graduate that they are three times more likely 
to default on their student loan debt.
    I want to describe a program that is going on at a college 
in Maine and get your reaction to it, but also run by you a 
suggestion that has been made to me by the director of that 
program.
    Eastern Maine Community College has a student success 
center, and it has two main components. First, for incoming 
students, it has an intensive 2-week remedial course in 
mathematics and writing. That has helped improve their 
retention rate, just that 2-week intensive course right at the 
start.
    Second, for ongoing purposes, there is a student success 
center where students can come for peer mentoring, for 
tutoring, for counseling, for small grants that may help them 
out if they're having childcare problems or transportation 
problems. It looks at the whole person and what the barriers to 
completion are, and that, too, combined with the academic 
advising, has increased retention rates.
    The director of the center has suggested to me--given the 
high default rate of students who don't complete college and 
given the fact that we know that if they do complete college, 
they are going to have lifetime earnings that are a million 
dollars higher than someone with just a high school diploma--
that if we had some sort of incentive in the form of very small 
loan forgiveness, that it would help provide the incentive that 
students need to complete college.
    I'd like to get your reaction to that idea. Why don't we 
just start and go across the panel with Mr. Jones?
    Mr. Jones. I want to pick up on your point about the short 
remediation right before classes start and Senator Alexander's 
example of Austin Peay, where they connect a class with 
remediation support. Tennessee is now going to do that 
statewide starting in the fall.
    Georgia has a different model that they're doing statewide 
starting this fall, as is West Virginia. They're doubling the 
success rates in English. They're quadrupling the success rates 
in math.
    You provide in the Pell program money that is used for 
remediation. You could strengthen that by encouraging that 
money to be used in programs like you suggested in Maine, in 
that fashion, or programs they're doing in Georgia or they're 
doing in Tennessee, and you'll get more bang for your buck, 
more success, than traditional remedial programs that are 
unconnected.
    Senator Collins. Dr. Ralls.
    Mr. Ralls. I believe your comments illustrate there's no 
one magic bullet, and we have to do all of these things, so 
things such as how we look at remediation or developmental in 
that regard. We all know that for many students, we were over-
medicating them. We can accelerate them through.
    There's a number of students who come to us who haven't 
learned the material the first time through. They've only been 
exposed to us. We haven't found the secrets to those. We know 
that mentorship and having students in cohorts makes a 
difference. They need that type of support. We have to create 
that.
    We also have to create structures, though, that are not so 
complex and complicated and that sometimes don't give them as 
many options, because often they don't do optional as well.
    And finally, Your comments are right on about--many of our 
students--I'll go back to the working students--they live on 
the edge, and sometimes--one of the most heartbreaking things I 
used to see as a college president is a student who would drop 
out 2 weeks away from completing because their transmission 
died.
    Those are the realities that they face. We have to have 
ways of helping them get to that finish line, which is often 
not just motivating them, but giving them some resource to get 
to that finish line.
    Senator Collins. Dr. Renick.
    Mr. Renick. The ideas that you are suggesting, are 
wonderful. Our approach to getting students off to a great 
start is slightly different. We have a summer academy for the 
most at-risk students, and they attend 7 weeks. They're taking 
bachelor's level courses, but they're getting the kind of 
remedial support on the perimeter. For those students, we've 
turned the retention rates from about 50 percent to now very 
close to 90 percent, and we've done that in a 3-year period.
    Getting students off to a head start is great. As you heard 
with our retention grant program, it's a wonderful idea to have 
these micro loans, micro grants available to meet the students 
where they are. The reality is that $200 or $300 can make the 
difference between a student staying enrolled or not. It's 
sometimes hard for us to recognize.
    When you have an annual household income of $20,000 a year 
or less, and you're short $300, and you're not getting that 
money from a bank, and you're not getting it from a relative, 
if institutions can plug it in, it actually can be a cost saver 
for the taxpayer, because these students can cross the finish 
line rather than swirling and having less promising futures.
    Senator Collins. Dr. Richburg-Hayes.
    Ms. Richburg-Hayes. I'm trained by nature to be skeptical. 
With that said, the program sounds very interesting. A lot of 
the components seem to be based on research. There's some 
support for individual components.
    Yet I would be concerned that this program is not 
necessarily one that could fit all. As we said here, there's 
targeting that needs to be involved and some reflection of what 
student supports are needed for different types of students.
    In addition, it seems that the engagement nature of this 
program would be something that would need to be shored up in 
order to make sure that the students who needed it most were 
the ones who were actually participating in the student success 
centers. We've actually done random assignment evaluations of 
student success centers, and they work when students attend.
    I would also say that in terms of the solution of providing 
loan forgiveness, there has been some rigorous research that 
suggests that when you have a loan forgiveness program, you can 
generate the desirable outcomes that you'd want. The structure 
of such programs really matter. Pulling in behavioral concepts 
and being very privy to the incentive structures in place is 
very important.
    I would just say that these are the types of ideas that 
really warrant themselves to be studied in order to determine 
unintended consequences before they're scaled up and required 
and mandated as a policy.
    Senator Collins. Thank you.
    The Chairman. Thank you.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much, Mr. Chairman.
    Almost without exception schools are making decisions about 
programs based on what's best for students. I guess I don't 
think that schools can completely ignore, at least at a 
subconscious level, the financial incentives that dictate what 
you invest in and what you don't invest in.
    Right now, when it comes to Federal support for colleges, 
the only thing that gets you in trouble is a massive default 
rate that puts you on the far edge of your cohort. There's 
nothing that provides a financial incentive for schools, for 
instance, to graduate more kids on time or to invest in these 
kinds of supports for remedial course work. In fact, you can 
argue that there's actually a financial incentive not to invest 
in those things. I don't think that prevents schools from doing 
it.
    Mr. Jones, I'll ask the question to you. Don't you think it 
would make sense for us to try to rework the way in which we 
send billions of dollars to schools through the Pell grant 
program and the Stafford program such that we provide at least 
a small financial incentive for schools to invest in all these 
programs? It might actually be a way of addressing this 
legitimate concern that many have about being overly 
prescriptive.
    If we just simply used all of the money we send to schools 
to expect them to do a little bit better and left it up to them 
to follow the evidence where it led them, wouldn't that get us 
a little bit faster to where we want to go?
    Mr. Jones. I think that's exactly right. When we started 6 
years ago, there were only three States in the country--
Washington was one of them, Indiana was one of them, Ohio--that 
had performance funding. There are 15 States. We're quickly 
going to 30 States. My projection in 10 years is we'll be at 40 
to 45 States that will have their own performance funding.
    What you also can do in providing incentives is provide 
incentives to graduate more low-income students, like Pell 
students, or incentives to get students through remediation in 
a more timely way, or incentives to graduate students on time. 
Between, as you pointed out, all the other Federal grant 
programs that you have as well as the Pell program, it would be 
very powerful.
    It doesn't take much money to put on the table--no 
disrespect to the former president of the University of 
Tennessee--to get presidents interested in changing their ways. 
Put a little money on the table in the right direction.
    Senator Murphy. Dr. Renick, I was so impressed with the 
focus you've had on bringing in low-income students. Do you 
think there's a way to do this, to build an accountability 
system that doesn't discourage schools from reaching out and 
taking in at-risk students? That's often the critique of these 
accountability systems, that you're going to make it less 
likely that you have low-income, at-risk students coming 
through the door, as if you get punished for, for instance, 
longer graduation times.
    Is there a way to do this that risk adjusts for schools 
that are reaching out to these student populations?
    Mr. Renick. Absolutely. I do believe that we should 
incentivize universities to do what's right and what works, 
and, currently, we're not doing enough of that. The idea, for 
instance, that we would put great emphasis upon rating schools 
based on income levels after graduation is inherently 
problematic, given that the best predictor of a student's 
income after graduation is their family income before they 
enroll in the first place.
    What we need to do is find ways to reward institutions and 
reward students who are making a difference against the odds. 
Currently, we don't do that, and as you point out, there is a 
great incentive with regard to national rankings like U.S. News 
and World Report to actually turn your back on low-income and 
at-risk students.
    One of the ironies of this whole progress that Georgia 
State has made over the last decade with our graduation rates 
up 22 percentage points is we've actually gone down in the U.S. 
News and World Report rankings over this time period, because 
we're educating more students at lower cost. Our SAT scores 
have actually declined some because we are opening our doors to 
students who previously were not succeeding at Georgia State 
and other institutions, and those things are things that count 
against you in those kinds of national rankings.
    Senator Murphy. I just think there's a way to take the 
billions of dollars that we're using and incentivize the kinds 
of programs we're talking about today in a way that's not 
prescriptive and also in a way that's not overly punitive, 
suggesting, for instance, that the outlier schools, the schools 
that really have the worst retention rates, may for a period of 
time have a portion of their Federal aid compromised.
    We've had separate hearings on this topic. I hope it's 
something that we entertain as we move forward with the 
consideration of the reauthorization.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murphy.
    Senator Cassidy.

                      Statement of Senator Cassidy

    Senator Cassidy. I've really found this very enlightening.
    Mr. Renick, your 800 variable model, is that open source? 
Could any university access that online? Is it proprietary? How 
does it work?
    Mr. Renick. It is proprietary, but there are some caveats 
to that. We collaborated with the Education Advisory Board here 
in DC to develop it. Those kinds of public-private partnerships 
are an important part of accelerating change. It enabled us to 
do things more quickly than we would if we developed it on our 
own.
    The caveat is as follows: that there are ways to transfer 
these kinds of innovations more quickly. The first year project 
of the University Innovation Alliance, which includes huge 
public universities like not only Georgia State, but Arizona 
State, Texas, Ohio State, Michigan State, is to take this model 
for advising and tracking using predictive analytics and 
transfer it to all those universities.
    Because of the work that was done already, the costs have 
already been reduced greatly, and in a 1-year period, all 11 of 
those universities, representing 400,000 students, now have 
predictive analytics based on tracking systems that are very 
similar to the one at Georgia State.
    Senator Cassidy. If a community college system in 
Louisiana--they may already be doing it--or elsewhere, New York 
or you name it, wanted to take your open source thing, how much 
would it cost them to do it? Or does it cost them anything to 
say, ``Oh, now we have it.'' Is it like Linux, where, my gosh, 
I get it just by logging in and by downloading it? Or do they 
have to buy it from you? I'm sure there are costs to put in 
that kind of data. How does it work?
    Mr. Renick. There are costs involved, and some institutions 
are developing systems on their own. Some are using outside 
vendors. The cost is really quite modest comparatively.
    Senator Cassidy. Give me a dollar figure.
    Mr. Renick. For an institution like Georgia State to have a 
tracking system like this would cost about $150,000 a year. 
That's difficult at a time of constrained budgets, but the 
reality is----
    Senator Cassidy. You've got 30,000 students and it's 
$150,000. How much is required in terms of data entry?
    Mr. Renick. It's a good amount of work. You have to have 
clean and accurate data that you put into the system. That, 
too, is not a major undertaking. At Georgia State, it took us 
about 6 months once we launched the project before we were 
tracking all 30,000 students.
    Senator Cassidy. You mentioned, or somebody mentioned, 
``Well, my gosh, this is particularly for Georgia State, but 
maybe not for elsewhere,'' and I'm thinking you've got 800 
variables. You've got a pretty robust data set. You also stated 
that other institutions are taking it on pretty quickly. It 
makes me think that it does have general applicability.
    Mr. Renick. I believe so, that many of the markers that 
we're tracking are indices that would transfer to other 
institutions. For instance, we look at----
    Senator Cassidy. Let me stop you, because I've only got a 
minute or two left.
    Mr. Jones, you mentioned, and by the way, you were talking 
about why doesn't DOE publish Pell grant graduation rates. It 
turns out that they were required to by some consolidated bill 
of last year, and I've spoken to staff, and they're actually 
not going to publish the rates until 2019 because once they're 
instructed to do so, they begin collecting the data.
    I guess my question is--you have each spoken of 
institutions knowing their Pell grant graduation rate, which 
makes me think that there's proxy data.
    Ma'am, let me compliment you. I've never had testimony with 
so many references. You're clearly an academic in every sense 
of the word.
    It makes me think that there must be some sort of way to 
get at this data, as opposed to, ``Well, we were instructed to 
do it. Let's start. Six years later, we're going to give you a 
report.''
    Ma'am, I'll start with you again. Is there a way that we 
could know the graduation rates now as opposed to waiting for a 
6-year longitudinal study?
    Ms. Richburg-Hayes. Many institutions calculate those rates 
on their own using their internal institutional research 
departments to do so, because they need it for institutional 
decisionmaking. Whether you as a committee could demand that 
those studies come up--I don't think that there is a way in 
terms of a short timeframe from a research perspective.
    Senator Cassidy. Mr. Jones.
    Mr. Jones. We collect data from 30 States, including 
Tennessee. They all collect data on Pell student graduation 
rates. Most every institution does collect it.
    Senator Cassidy. What about the for-profits?
    Mr. Jones. I don't know. It's not available to the general 
public, to researchers. More importantly, the policymakers--I 
honestly think a letter from this committee to the secretary of 
education would be the fastest----
    Senator Cassidy. We've already requested that. We actually 
instructed it in a bill. They just started once we instructed 
them. Six years from now, they're going to tell us, which I 
find incredible that we are blinded to that which you generally 
know.
    Mr. Jones. Most institutions have that information. They 
don't publish it.
    Senator Cassidy. I'm almost out of time. I yield back. 
Thank you.
    The Chairman. Thank you, Senator Cassidy.
    Senator Baldwin.

                      Statement of Senator Baldwin

    Senator Baldwin. Thank you, Mr. Chairman. I'm pleased to be 
a part of the discussion today. It's very enlightening. One of 
the things that we still use as terminology is the phrase, 
nontraditional students, and yet we find that the majority of 
students today are what we used to call nontraditional 
students. We've got to ultimately probably change that 
nomenclature.
    It provides us with some real challenges in terms of making 
sure that we have the policies that increase the chance of 
these students completing their degrees or certificates on time 
with little or, certainly, a lot less debt, but also avoid 
implementing punitive measures that would serve to impede their 
success.
    In July of this year, I was proud to introduce, along with 
13 of my colleagues in the Senate and Congressman Bobby Scott 
in the House, a bill called the America's College Promise Act. 
The bill creates a new Federal-State partnership that would 
waive tuition and fees at community colleges, with States 
contributing $1 for every $3 of the Federal investment.
    It's a first dollar program, meaning students can use their 
Pell grants and other financial aid to cover the many financial 
demands of obtaining a higher education outside of tuition and 
fees. I've been very interested in the questions that have been 
posed and the discussion that we've been having today, because 
when you start debate on a new idea, we don't need to repeat 
the mistakes of the past. We can incorporate what seems to be 
working.
    America's College Promise doesn't just require States to 
invest financially. It asks them to make reforms, reforms like 
we've been talking about--expanding student supportive 
services, improving remediation, stressing career pathways--and 
these reforms, we hope, will help the students complete their 
course work and be prepared.
    What I want to ask is for you to perhaps weigh in a little 
further on this. We have a choice of making this prescriptive 
and mandatory or providing a menu and requiring these reforms 
be adopted as appropriate so it's not a one-size-fits-all. If 
we're going to get it right from the beginning, as we initiate 
this debate on covering the first 2 years of community or 
technical college, I want to hear where you see that balance.
    I want to start with Mr. Ralls, but I certainly would 
welcome all of your comments on this.
    Mr. Ralls. Thank you, Senator. I grew up in a state--and 
will reside for another month in this State--where the State 
constitution says that higher education should be free as 
practicable. While we do not have free tuition, we've always 
had among the lowest tuition in the Nation, and I think that's 
made a difference for our State. It's made a difference for 
middle income kids like me.
    That's why the emphasis on making higher ed accessible--
tuition is not the only cost, and in States like ours, it's 
really not the most challenging cost. That's why one-size-fits-
all may not work everywhere. The notion of making it accessible 
for low-income and working class students is so important.
    However, that being said, we also have to make sure that 
it--you have to hold us accountable, but we have to hold 
ourselves accountable to create the structures, that it's not 
just access, because then access becomes--you know, the open 
door becomes a revolving door. We have to create structures.
    I would emphasize, too, that it's important to look at 
structures that go across institutions. We still talk very much 
about within single institutions. That's why I'm so proud of 
the work we've been doing in North Carolina around articulation 
agreements between all 58 colleges, all 16 universities, and 
most of the private colleges, because that's often where 
students fall through the cracks. Their credits fall through 
the cracks. They start and stop.
    The Federal Government can do more to incentivize, at 
least, encourage those kinds of statewide agreements, those 
kinds of articulation agreements recognizing, as I said, 
embracing the swirl that is the reality of students going 
across multiple institutions.
    Senator Baldwin. Thank you.
    Mr. Jones.
    Mr. Jones. I've spent most of my life pushing 
affordability. I would couple that with what you said--reform. 
We have a lot of people going to college--the highest ever in 
the recession, but we don't have the reform necessary.
    I would make it a menu. Whether it's the Austin Peay model 
for remediation, or some of the models that Tim has done at 
Georgia State, or a model like the Tennessee Tech Center that 
has a 75 percent completion rate and an 80 percent placement 
rate, I would make it models or menus where there's evidence 
that they actually succeed in delivering, not just simply a 
menu--you could do this or you could do this--but menus where 
there's evidence of success. There is plenty of evidence out 
there where colleges like Georgia State and Austin Peay have 
done this very successfully.
    Senator Baldwin. Any other comments?
    Dr. Renick?
    Mr. Renick. The one caution I would add is that we've run 
lots of data in analytics at Georgia State. We've found that 
there is actually a sweet spot, where if students have their 
costs covered completely, their completion rates are actually 
lower than those who have a little skin in the game.
    The proposal overall is a good one. We found that somewhere 
between 7 percent and 15 percent to 20 percent of the total 
cost--that if that is what the student has to pay, they have 
more motivation, and they have more persistence.
    Senator Baldwin. Dr. Richburg-Hayes.
    Ms. Richburg-Hayes. I would just add that programs really 
need to be targeted so that a menu is very important. It's 
unlikely that any one of the programs that we talked about 
today that are evidence-based strategies will be applicable to 
all institutions and to all students. It will be really 
important to give institutions the time and resources in order 
to develop programs that will work.
    Georgia State University is a great example. It took them a 
decade to get where they are, and it's important for us to 
remember that. These changes do not happen immediately and 
overnight.
    Senator Baldwin. Thank you.
    The Chairman. Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman, and thank you for 
holding this hearing and for reminding us to be cautious about 
one-size-fits-all. As I listened to the testimony today, I'm 
reminded again that policy is one thing and implementation is 
something else. You can have the best policy in the world and 
terrible implementation, and you don't get the results that you 
need.
    We compound that problem by also measuring the wrong 
things. We're asking the wrong questions. Dr. Renick pointed 
out that this gainful employment stuff has really made it 
difficult for a number of our institutions, because the 
correlation on income is actually what your family's income 
looked like, not what the institution you went to looked like, 
but we decided that would be a good way to measure outcomes. 
There's a lot of work for us to do, a lot of thoughtful work 
for us to pay attention to.
    I wanted to spend my time with you, Dr. Renick, today. 
Georgia State has done some incredible things--amazing 
accomplishments. I wonder if you could describe what the GPS 
program looks like from the student's perspective. How do I 
know, if I'm a student at Georgia State, that I'm at Georgia 
State instead of someplace else, that my experience would be 
different?
    Mr. Renick. It's become significantly different----
    Senator Bennet. It's not--you're measuring, you say, in the 
top 30,000 students, 800 factors. From the student's 
perspective, what does that look like?
    Mr. Renick. Right. From the student's perspective, we do 
have, as Complete College America recommends and others on this 
panel have supported, program maps for all students. Students 
have a pathway, a set of courses they're supposed to be taking 
each semester.
    The challenge is we weren't enforcing it before. Students 
who are following their maps and doing everything right will 
hear very little from us, because no alerts are going off. 
Students who are making mistakes will hear from us almost 
immediately.
    We're concentrating the kind of precious resources we have 
in personnel and advisors and so forth upon the students who 
need it the most. They're getting to know their advisors more 
personally and more quickly. We've made a move to bring the 
advisors to the classroom the first weeks of the fall semester 
so that the students get to know their advisors on a one-to-one 
basis.
    The interactions that the advisors are having with the 
students and staff, in general, are much more personalized now. 
It's not just, ``Come in and see me, and we'll shoot the 
breeze.'' It's,

          ``Oh, I saw you just registered for your spring 
        classes. You're a bio major, and you're in the wrong 
        lab sequence. Let's come in and talk about it.''

    As a result, the students are much more responsive, and 
they get to know their advisors and support staff on a much 
more personal level.
    If a student is really struggling, the system can be a 
little annoying, to be frank about it, because they're going to 
have lots and lots of interventions. We've been polling our 
students ever since we went live, and not a single student has 
complained.
    Senator Bennet. Tell me what those kinds of mistakes would 
be, away from the map, that you could detect, and how you reach 
out to the student.
    Mr. Renick. One very simple example of the kind of 
predictive analytics is that we found that the first grade that 
a student gets in what becomes his or her major is very 
predictive of their graduation rates. If a political science 
major gets an A or a B, they're graduating from Georgia State 
at a 75 percent clip. If they get a C in their first political 
science course, they're graduating at a 25 percent clip.
    In the past, we would do nothing with that C student other 
than pass them along to upper level work that was more 
demanding, and whatever weaknesses were being revealed by that 
C grade becomes exacerbated and they begin to get Ds and Fs and 
run into problems. What we do across the whole curriculum is 
trace those kinds of markers, and we have an immediate 
intervention as soon as the student gets a C grade.
    We bring them in. They may go to tutoring, reading, 
writing, whatever we diagnosed as the problem. The idea is to 
correct the issue before they waste money and time and put 
themselves at risk by taking courses they're unprepared to 
succeed in.
    Senator Bennet. I was also struck by something you talked 
about in terms of how we measure success for institutions and 
for students. We've just, with the Chairman's leadership, 
managed to pass a reauthorization of what used to be called No 
Child Left Behind, which for a long, long time measured the 
wrong thing. It said, ``These are successful schools because 
the kids are at a high status, and these are failing schools.''
    Even though these kids might not be growing, and these kids 
were actually growing while they're there, we were telling the 
world that these schools where the teachers were actually 
driving success and growth were failures. One of the things you 
said was that we ought to reward students and institutions who 
are making a difference against the odds. That is the right way 
to think about it. How do we do that?
    Mr. Renick. We need to incentivize in lots of ways. This 
goes from Federal grant programs, which often are bestowed upon 
institutions that are meeting those kinds of quality markers in 
the most traditional sense, have the highest graduation rates, 
but maybe not have the greatest struggles--we need to be much 
more flexible with the way we assign Federal financial aid.
    Right now, it is in many cases a one-size-fits-all model, 
where students who are not meeting certain progress markers are 
denied aid. Others are granted aid. That shouldn't be the case 
if what we can show by more reliable data is that students are 
doing what they need to do within the context of their ability 
and their resources and making significant progress toward 
their degrees.
    Senator Bennet. I'm out of time. If you don't mind, I'll 
followup with you after the panel to get your list.
    Mr. Renick. Absolutely.
    Senator Bennet. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Bennet.
    Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman, and thank you all 
for being here today.
    We all know that helping students should be a high 
priority, and I know that you all see this. I've read your 
testimony, and you've provided a lot of good information about 
programs that colleges can adopt to improve student outcomes. 
Only a few colleges are showing any real leadership in this 
area. I want to focus on Federal policies that can push schools 
harder in that direction.
    Mr. Jones, could I start with you? Your organization works 
with schools and States to help improve outcomes for students. 
In your opinion, do colleges have enough incentives to improve 
student success?
    Mr. Jones. They don't. Typically, the old incentive was 
what we call the 10-day or the 14-day count. You got your money 
based on whether you were there on the 10th day. If you weren't 
there on the 11th day, it didn't make any difference. States 
have moved rather rapidly to change that.
    The Federal Government is very powerful in the money that 
you provide, both in the Pell money, but other grant programs 
that you provide. Providing incentives to graduate more 
students, graduate them in a more timely way, because they'll 
incur less debt, get them through remediation into the credit-
bearing classes--those are all incentives that you could easily 
do and put in programs.
    Senator Warren. Good. I just want to underline what I'm 
hearing you say about this is putting financial incentives in 
place so that schools have a reason to invest not just in 
getting students in through the door, but in having them 
succeed.
    When we talk about improving student success, we aren't 
just talking about getting students through a graduation 
ceremony--getting them in the row and walking them across the 
stage. We're talking about making sure that students leave 
college with an education that helps them succeed.
    I wanted to turn to you on this, Mr. Renick. Which colleges 
are doing a better or worse job at making sure that students 
are prepared for good jobs after they graduate?
    Mr. Renick. That's an increasingly important topic in my 
world. Where I think the scalable growth is, again, in using 
data and analytics to help us advise and promote good career 
and postgradua-
tion knowledge for our students. We now, as part of our 
platform, have an alliance with a vendor called Burning Glass 
that is tracking data for job listings across the country every 
day.
    As students come in at Georgia State and pick majors, they 
actually can see for any major that we offer the 25 to 40 
careers that are most likely to result in an empirical basis 
for majoring in that area. Then they can see job data about 
what job demands are like, what starting salaries are like, 
what qualifications----
    Senator Warren. Let me just stop you there, though, Mr. 
Renick. I very much hear your point about helping students find 
out what career paths may be most informative for them.
    I particularly want to focus on--I heard you say, earlier 
or know that you referred to predatory institutions, that we're 
not just talking about how we get more students to study things 
that are going to be useful. It's about whole institutions and 
where institutions are focused. Do you want to say just a word 
about that?
    Mr. Renick. Yes, absolutely. We see at Georgia State the 
kind of back end of some of these predatory practices. Because 
our student population is largely at-risk, they're often the 
students who are targeted. We have two students arriving at 
Georgia State this fall as transfer students who already have 
$100,000 of debt.
    We hear these stories and ask, what happened once they get 
to campus? It's usually a trail of broken promises and 
misleading claims. Oftentimes, these students have very little 
usable credits. We've had students who have been approached by 
lenders who actually tell them not to fill out the FAFSA 
because it's so complicated, but fill out this one sheet of 
paper and they can get the same money, never fully explaining 
the difference in the terms.
    Senator Warren. So $100,000 in debt and very little credit 
that will actually transfer. For-profit colleges seem more 
interested in shareholder success than in student success. 
About one in five students who borrow to attend a for-profit 
college default on their loans within 3 years of leaving 
school. That means, on average, that for-profit colleges are 
failing at least one in five of their students. Let me just see 
if I can wrap this up really quickly with a note here.
    Mr. Jones, what kinds of policies would give for-profit 
colleges an incentive to improve outcomes for their students?
    Mr. Jones. You should look at the creditors. You authorize 
the creditors. Right now, it's all about resources for 
colleges, but it ought to be about outcomes, both in terms of 
completion rates and on-time completion rates. Do they get 
jobs? What kind of debt ratios do they serve?
    The creditors, have been very lax at looking at any of 
those factors in terms of re-accrediting schools. I can't 
imagine the ones they've accredited just can't meet those--
having met those standards. I'd look to the creditors and how 
they do this and rewrite that.
    Senator Warren. Good. I'll just put this in----
    Mr. Jones. For both private and public.
    Senator Warren. Thank you. I'll put this in as a question 
for the record for everyone here.
    We just have to go back to the fact that the Federal 
Government is shelling out $150 billion every year to help 
students attend college. Some schools are doing their part to 
make sure that those dollars are well-spent. Some are not. As 
we work on the Higher Education Act, it is critical to focus on 
whether all colleges that dip into that $150 billion have the 
right incentives to invest in the success of their students.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Warren.
    Senator Murray, do you have any further thoughts?
    Senator Murray. I do not. I just want to thank our 
panelists today for a really important discussion.
    As we move forward to work to reauthorize the Higher 
Education Act, you've given us a lot to ponder and think about. 
At the end of the day, we want to make sure that all young 
people today and adults from all walks of life have access, and 
this has been an important part of that discussion. Thank you.
    The Chairman. This has been a very helpful hearing and a 
reminder about how big and complex and diverse our system of 
higher education is. It makes me think, with all these really 
good ideas, 75 percent, 76 percent of our students go to public 
2-year schools, 4-year schools, and they have legislators and 
Governors and Higher Education Commission members and 
university presidents and board of trustees all rushing around 
to meet with one another to find out what North Carolina is 
doing.
    I know I used to--when I was Governor, I'd go see Bill 
Friday, and I'd try to learn everything I could about North 
Carolina's higher education system. I'm sure that Dr. Renick 
has seen a great many of our other institutions work to adopt 
his progress.
    Senator Warren is right. We spend a lot of money here, and 
we have a chance here in the next few months to make sure we 
spend it wisely to create an environment in which you can do 
more of what you're doing without imposing on you what might be 
a very good idea that works here but doesn't necessarily work 
there and not to tar you with predatory practices that might 
exist in other places.
    As you followup this hearing, if you have thoughts that 
you'd like to suggest to us about ways to adjust our system of 
financial aid so that we can encourage the kind of student 
success that so many States have been adopting over the last 
few years really on their own, if there's an appropriate way 
for us to do that, we certainly ought to consider it. If there 
are things that you think we should definitely not do that 
would get in the way of letting that happen, I'd like to hear 
that as well.
    The hearing record will remain open for 10 days to submit 
additional comments and any questions for the record that 
Senators may have. We plan to hold the next HELP hearing in 
September.
    Thank you for being here today. The committee will stand 
adjourned.
    [Additional Material follows.]

                          ADDITIONAL MATERIAL

   Response by Stan Jones to Questions of Senator Alexander, Senator 
  Cassidy, Senator Collins, Senator Enzi, Senator Murray, and Senator 
                                 Warren
                           senator alexander
    Question 1. Does Federal aid allow for so many remedial classes 
that it unintentionally puts students on a ``bridge to nowhere'' as 
your organization's report on remediation puts it?
    Answer 1. Yes, under the Federal Pell grant program, students can 
use their Pell grant to cover up to 30 credits of remediation. This is 
problematic for three reasons:

    a. Current regulations limit a student's eligibility for Pell to 12 
semesters. If a student uses their full allotment of remedial credits, 
they will likely run out of Pell funding prior to completing their 
bachelor's degree, making it less likely that they will complete the 
degree.
    b. Traditional remediation does not work. Only 1 in every 10 
remedial students graduate with an associate's degree in 3 years and a 
little more than one-third graduate with a bachelors degree from non-
research institutions.
    c. Pell students have a higher rate of remediation than non-Pell 
students (55 percent compared to 30 percent), meaning Pell students are 
more likely to fall into this group of students who take multiple 
levels and semesters of remediation without completing.

    Complete College America recommends rethinking the remedial 
allotment of Pell by encouraging States and institutions to adopt 
corequisite remediation, which allows students to complete college-
level English and math much more quickly, while receiving just-in-time 
remedial supports. States and institutions that have adopted this model 
at scale are seeing tremendous results. For example, Tennessee went 
from 12 percent student completion of traditional math remediation to 
63 percent completion for both the remedial and college-level math 
course by using a corequisite strategy. In English, Tennessee went from 
31 percent completion of traditional remediation to 74 percent 
completion for both the remedial and college-level English course 
through the corequisite strategy.
    One possible solution would be distinguish remedial credits between 
those that are taken as a pre-requisite vs. those that are taken as a 
corequisite--with the college-level course. For example, the Pell 
program could maintain the current 30-credit allotment, but make clear 
that no more than 15 credits be used for standalone prerequisite 
remediation and that all other remedial credits must be taken as a 
corequisite course, while students are enrolled in the gateway course 
for which they require remediation.

    Question 2. Why is it important that students complete their degree 
or certificate?
    Answer 1. Degree and certificate completion matters for both 
individual and societal reasons. Individuals with a college degree on 
average earn over $1 million more during their lifetime than 
individuals with a high school diploma. While students may accrue 
skills during their postsecondary experience that aids them in future 
roles regardless of whether they complete the degree or certificate, 
without a degree or certificate, students are less likely to qualify 
for jobs, less likely to increase their earning power, and more likely 
to have student debt without the increased ability to pay back such 
debt. At the societal level, having more individuals with credentials 
and degrees is good for the economy, as the individuals will be better 
prepared to fill critical roles and contribute to the overall economy.

    Question 3. You mentioned that Federal policies set de facto 
policies in States and at institutions, such as considering 12 credits 
as full-time student status. Based on that observation, what drawbacks 
or promise does the de facto standards setting effect of Federal policy 
have for policymakers as they consider potential changes to Federal 
student aid or Federal higher education policies?
    Answer 3. Federal policies have significant implications for State 
and institutional policy and action, particularly given the size of the 
Federal investment in higher education and the signal that Federal 
policies send to the field. Future potential drawbacks or promise can 
be gauged by the outcomes of current Federal policy.
    For example, IPEDs is the primary database that the bulk of higher 
education researchers rely on for their research. Regrettably, because 
it does not include part-time students, Pell students, and other key 
metrics, there are huge gaps in the research. The lack of these metrics 
sends a message about the importance of knowing the outcomes of part-
time students, Pell students and other key components. States and 
institutions also rely on the standards set by IPEDs, such as 3-year 
and 6-year graduation rates, instead of maintaining a strong focus of 
on-time completion rates. This standard reduces accountability for 
States and institutions to graduate more students on-time.
    Another example is the definition of full-time status for Pell 
students. All institutions accessing title IV funds must adhere to this 
definition. Beyond that, this definition of 12 credits per term has 
become the standard for many State-level and institutional-level aid 
programs. It signals that 12 credits per term is appropriate for full-
time enrollment, even though 12 credits per term automatically put 
students seeking a bachelor's degree on the 5-year plan. Research from 
Temple University and The University of Texas found that the cost of a 
bachelor's degree dramatically rises for students in their fifth year 
and beyond. One reason for the dramatic increase is that many State, 
institutional or private grant programs are capped at four academic 
years. Consequently, Pell students may actually see a dramatic increase 
in their cost of attendance if they gear their educational program to 
the 12-credit requirement. Ultimately, this approach will lead to 
dramatic increases in student debt or even worse students abandoning or 
delaying their completion of a degree altogether. By encouraging and 
incentivizing students to enroll in 15 credits per term or 30 credits 
year round, the Federal Government would be sending a strong signal to 
States and institutions that they also should take action to encourage 
and incentivize their students to complete on-time.

    Question 4. Is there a downside of incentivizing institutions and 
States to adopt policies that consider full-time as 15 credits, rather 
than 12 credits?
    Answer 4. No, there is not a downside to incentivizing States and 
institutions to adopt policies that support students attending at 15 
credits per term. Such policies will help students complete their 
degree programs on time, preventing them from spending extra time and 
money to earn the degree and allowing them to more quickly enter the 
workforce. Having students complete a degree on time is good for 
Federal and State governments, as it reduces additional expenditures in 
student aid beyond the 2 or 4 years. At the institutional level, it 
allows colleges and universities to more efficiently tailor their 
resources to helping students complete.
    Certainly, not all students are able to enroll full-time, as many 
students have work and family obligations that make full-time 
enrollment impossible. However, such students may be able to complete 
30 credits through year-round attendance. At the Federal level, re-
installing the summer Pell offering would help make year-round 
attendance possible. Within institutions, highly structured programs, 
schedules and pathways would facilitate students' ability to more 
easily and successfully move through their degree programs for on-time 
completion.
                            senator cassidy
    Question 1. I am a father of a child who is dyslexic. As any proud 
father, I want the best for her and to see her succeed academically and 
in life. As such, research from the National Center for Learning 
Disabilities shows that students with learning disabilities--such as 
dyslexia--value a college education and most want to attend either a 2-
year or 4-year postsecondary education program.\1\
---------------------------------------------------------------------------
    \1\ http://www.ncld.org/reports-and-studies/2014-state-of-ld/.
---------------------------------------------------------------------------
    While 68 percent of students with learning disabilities are 
graduating high school with a regular diploma--a statistic that is too 
low but has risen over time\2\--these students continue to lag behind 
their peers in entering and completing college. Just 34 percent of such 
students completed a 4-year degree compared to 51 percent of students 
without disabilities.\3\
---------------------------------------------------------------------------
    \2\ http://www.ncld.org/reports-and-studies/diplomas-at-risk-a-
critical-look-at-the-high-school-graduation-rate/.
    \3\ http://www.nlts2.org.
---------------------------------------------------------------------------
    <bullet> As your organizations reviewed reasons for students not 
succeeding in college and as part of your development of initiatives to 
help such students succeed, what considerations were given to students 
who had learning differences?
    <bullet> If we really want students with learning disabilities to 
have access to postsecondary education, what are colleges and 
universities doing to educate their faculty about the needs of these 
college students? What are colleges and universities doing in general 
to accommodate these students?
    Answer 1. One key challenge for students with disabilities is that 
Individual Education Plans at the K-12 level are not shared with 
postsecondary education institutions because of FERPA regulations. 
While we do not have recommendations related to these regulations, we 
do think it is important to encourage postsecondary education 
institutions to develop more effective intake processes to better 
understand their new entering students. Complete College America 
strongly encourages institutions to abandon the process of assessment 
and placement of new entering students based on highly ineffective 
placement exams, such as the Accuplacer, to determine the starting 
point for students in higher education.
    Instead, we recommend a process where students are provided the 
opportunity to identify the academic goals, career goals and other 
important information that will enable a more comprehensive strategy 
for ensuring that all students, including those with learning 
disabilities, can identify and follow a clear path to completion.

    Question 2. The U.S. Department of Education's College Navigator, 
an online tool to provide parents and prospective students with 
information about colleges falls short in collecting information about 
services available to students with learning disabilities. A random 
review of the profiles of 400 institutions of higher education in the 
College Navigator revealed that only six provided any information to 
students and the public about services available for students with 
learning disabilities at that college.\4\ When information is not 
provided to parents and students, it's difficult to make informed 
decisions about which college to attend.
---------------------------------------------------------------------------
    \4\ NCLD conducted review in January 2014.
---------------------------------------------------------------------------
    <bullet> How do colleges communicate with prospective and enrolled 
students about the types of services and supports offered for students 
with learning disabilities, such as students with dyslexia?
    <bullet> Overall, how do colleges work with the K-12 educational 
system to support a seamless transition from high school to 
postsecondary education for students with learning differences, such as 
students with dyslexia? If colleges and universities to not work with 
K-12 educational systems for such students, is this something Congress 
should consider as we reauthorize the Higher Education Act?
    Answer 2. A mechanism for ensuring the success of all students is 
to support funding models based on student success, rather than 
enrollment. By creating specific financial incentives to colleges to 
meet the needs of specific demographic groups or other subgroup of 
students, colleges are incented to provide services that will support 
students--to include students with disabilities.
                            senator collins
    Question 1. The various forms of Federal financial aid have helped 
increase college access. I am concerned, however, that there is little 
Federal effort to increase awareness among students about college 
costs, debt, and repayment, and that students can become discouraged 
from completing their degrees if they feel overwhelmed by cost.
    Answer 1. Husson University in Bangor, ME, where I worked prior to 
my election to the Senate, requires all freshmen students to enroll in 
a one-credit student success seminar, which includes financial literacy 
and other essential skills development. In your view, what forms of 
financial counseling are most effective? Are there Federal impediments 
to increasing student financial awareness?
    Complete College America fully supports helping students complete 
their degree programs on-time in order to reduce the level of college 
cost and debt, as well as to increase their ability to repay such debt. 
College costs and student debt are at all-time highs. These are 
important issues for Congress, States, and institutions to address. 
While Complete College America does not offer specific strategies 
around financial counseling or financial literacy, we agree that 
supports are essential to prepare students to make informed choices 
before, during, and after their college experience.
                              senator enzi
    Question 1. Can you tell us about the effort that States are taking 
to help students in dual-enrollment programs receive full credit at 
and/or from their in-State Institutions of Higher Education? What 
strategies would you recommend we focus on within the context of this 
reauthorization process to ensure that States are not prohibited from 
establishing such programs?
    Answer 1. At this time, Complete College America works primarily at 
the postsecondary level and does not directly engage the secondary 
education sector. We believe dual enrollment is an important on-ramp to 
college access for many students and can help reduce both time and cost 
to degree. States differ in their approach to dual enrollment. Some 
States use it as a strategy to help more students become college-ready 
and begin accruing college credits early. Other States offer it as a 
benefit and tool only for students that meet GPA and other college 
readiness criteria. For more information on best practices for dual 
enrollment, please contact the National Alliance of Concurrent 
Enrollment Partnerships, Jobs for the Future and the American Youth 
Policy Forum.

    Question 2. Could you please tell us about the efforts that 
Institutions of Higher Education are making to accommodate retraining 
for adults to change careers by attending school part-time, especially 
in an economy as changing as ours?
    Answer 2. Complete College America works with States and 
institutions to implement five key strategies, known as the Game 
Changers, to help all students complete certificate and degree 
programs. These strategies apply to and benefit all student 
populations. For example, we strongly encourage colleges to develop 
structured scheduling options to enable returning adults to more 
effectively balance the competing obligations of work, family and 
college. By creating program offerings that are scheduled as blocks 
which might be, Monday through Friday in the mornings, afternoons or 
evenings, will allow students to reliably schedule school, work and 
family obligations. Too often, students must choose between work and a 
college class because of time conflicts each semester. Even if they are 
able to find balance one semester, they have to go through the process 
again the following semester. Creating consistent blocked schedules for 
an entire program enables more students to enroll in and complete 
college programs.
                             senator murray
    Question 1. Poverty and financial need can have a profound impact 
on students' ability to succeed. Research shows that high achieving 
students from low-income backgrounds are less likely to complete than 
high achieving students from families with higher incomes, even when 
controlling for their academic preparation at the time of enrollment.
    Answer 1. Are there opportunities for postsecondary institutions, 
including community colleges and traditional 4-year colleges, to 
develop counseling and support services specifically geared toward 
meeting the unique needs of high achieving, first-generation students 
from economically disadvantaged backgrounds and ensuring that they are 
successful? Please describe how such initiatives might work and the 
benefits they could bring to this demographic of students.
    Complete College America works with States and institutions to 
promote completion strategies for all students. We believe our 
strategies, known as the Game Changers, will support all students in 
moving through to graduation, including high achieving, lower income 
students. These game changers include providing highly structured 
programs, pathways and schedules to give students a straight line to 
graduation with all of the supports built in to help them succeed. 
Changing policies to incentivize students to take 15 credits per term 
or 30 credits year round for part-time students will facilitate greater 
completion and on-time completion. Such policies or initiatives could 
include banded tuition, advising students on the benefits of on-time 
completion, marketing efforts to students, other incentive programs to 
support this level of enrollment. Being aware of the completion rates 
of lower income students is also a recommended step, specifically the 
graduation rate for students receiving Pell grants. There is currently 
no mandated Federal reporting of this metric, only a disclosure 
requirement, to which many institutions do not adhere. With the Federal 
Government spending billions of dollars each year on the Pell grant 
program, understanding how these students are succeeding is an 
important component.
                             senator warren
    Question 1. Do colleges have enough incentives to improve student 
success?
    Answer 1. Institutions are certainly more attentive then ever 
before to helping their students succeed and many institutions are 
engaged in a range of national, State, and institutional initiatives to 
improve their student outcomes. There are some key actions that can be 
taken to help better align institutions' focus on student success. At 
the State level, performance-based funding is an effective tool to help 
institutions prioritize student success and orient their programs and 
initiatives around efforts that will support student success. Policies 
and legislation that better enable institutions to implement strategies 
around highly structured programs, remedial transformation, and on-time 
completion can serve as incentives. The Federal Government can help 
colleges to better focus on student success by including additional 
progress and completion metrics into IPEDs that will highlight how 
colleges are serving their students and better position them to 
understand what changes can be made to improve their student outcomes. 
Complete College America recommends the Federal Government adopt its 
data metrics into IPEDS. This is a set of 12 metrics, which have been 
endorsed by the National Governors Association and the State Higher 
Education Executive Officers Association and for which more than 30 
States annually submit State-level data to Complete College America. 
Six of these metrics (completion ratio, progress on remediation, 
success in 1st year English and math, credit accumulation, course 
completion, and credit and time to degree) are not included in IPEDs. 
Another important data metric that the Federal Government should 
collect is Pell student graduation rate. There is currently no mandated 
reporting of this metric, only a disclosure requirement, to which many 
institutions do not adhere. With the Federal Government spending 
billions of dollars each year on the Pell grant program, understanding 
how these students are succeeding is an important component.

    Question 2. What policies would give for-profit colleges an 
incentive to improve outcomes for their students?
    Answer 2. Inclusion of the Complete College America data metrics 
into IPEDs, as noted above, and mandated reporting of Pell student 
graduation rates are a good first step to incentivize all institutions 
to improve outcomes for their students.
    Thank you again for including Complete College America in the 
August 5th hearing. If we can provide any additional information, 
please let us know.
 Response by R. Scott Ralls to Questions of Senator Alexander, Senator 
Cassidy, Senator Collins, Senator Enzi, Senator Murray, Senator Warren 
                           and Senator Scott
                           senator alexander
    Question 1. Why is it important that students complete their degree 
or certificate?
    First, community college students who transfer to a 4-year college 
are significantly more likely to complete their bachelor's degree if 
they transfer after completing their associate's degree, compared to 
similar students who transfer without completion. A study by the Center 
for Community College Research (CCRC) at Teachers College, Columbia 
University of first time-college students enrolled at North Carolina 
Community Colleges between 2002 and 2005 were 49 percent more likely to 
complete a bachelor's degree within 4 years, and 22 percent more likely 
to complete the degree within 6 years, than similar students who 
transferred without completing. These results are similar to a national 
descriptive study from the National Student Clearinghouse that found 
students who transferred with a certificate or associate's degree were 
16 percentage points more likely to complete a bachelor's degree.
    Answer 1. Second, research by CCRC of North Carolina Community 
College students has indicated that degree completers fare better 
financially. A study of our students over a 9-year period after first 
enrollment, demonstrated the internal rate of return (labor market 
gains net of tuition costs and forgone income) to an associate degree, 
compared with no award, is approximately 16 percent for women and 5 
percent for men.

    Question 2. How could the availability of a year-round Pell grant 
increase completion among your student body?
    Answer 2. In North Carolina, much of our student success efforts 
have been built on a theoretical framework of loss and momentum points. 
In other words, examining points along students' educational 
progression where we lose students and they drop out, and opportunities 
for acceleration toward degree completion. A natural loss point is 
created by the slow-down in course taking behavior for community 
college students during the summer. Given that our students are older, 
with an average age of 28, this slowdown is not created by their desire 
to take time off during the summer, but rather by the lack of 
availability of course offerings and financial aid. Recognizing this, 
our State has pushed a legislative agenda for ``year-round'' community 
college funding, with STEM courses, healthcare, technical education, 
and developmental education courses now funded in the summer. In 
addition, Governor McCrory championing an effort this year for year-
round funding for all courses. Of course even with this support for 
State funding of courses, many students will still be limited by the 
lack of year-round Pell grant opportunities.
    Previous research by Benjamin Castleman has demonstrated the 
significant numbers of students impacted by what is referred to as 
``summer melt,'' and the proclivity of that loss among low-income 
students. As approximately two-thirds of community college students are 
from the lower half of the income bracket, efforts to prevent their 
loss during the summer through the availability of year-round Pell 
funding are likely to increase community college degree completion.
                            senator cassidy
    Question 1a. I am a father of a child who is dyslexic. As any proud 
father, I want the best for her and to see her succeed academically and 
in life. As such, research from the National Center for Learning 
Disabilities shows that students with learning disabilities--such as 
dyslexia--value a college education and most want to attend either a 2-
year or 4-year postsecondary education program.\1\
---------------------------------------------------------------------------
    \1\ http://www.ncld.org/reports-and-studies/2014-state-of-ld/.
---------------------------------------------------------------------------
    While 68 percent of students with learning disabilities are 
graduating high school with a regular diploma--a statistic that is too 
low but has risen over time\2\--these students continue to lag behind 
their peers in entering and completing college. Just 34 percent of such 
students completed a 4-year degree compared to 51 percent of students 
without disabilities.\3\
---------------------------------------------------------------------------
    \2\ http://www.ncld.org/reports-and-studies/diplomas-at-risk-a-
critical-look-at-the-high-school-graduation-rate/.
    \3\ http://www.nlts2.org .
---------------------------------------------------------------------------
    As your organizations reviewed reasons for students not succeeding 
in college and as part of your development of initiatives to help such 
students succeed, what considerations were given to students who had 
learning differences?
    Answer 1a. To provide better access to students with disabilities, 
in 2013 the North Carolina Community College System initiated a 5-year 
plan for web and e-learning accessibility. Colleges were asked to form 
an accessibility compliance committee to review all aspects of 
electronic information, including Web sites, e-Learning, and purchasing 
of electronic or digital assets or resources. As part of its Success NC 
initiative (student success strategic plan), colleges were asked to 
focus on strategies to increase student success, access and program 
excellence. As a result of Success NC, colleges are developing 
approaches to enhance access for all students through increased 
tutoring, improved advising, centrally located information and 
resources, and leveraging the use of technology.

    Question 1b. If we really want students with learning disabilities 
to have access to postsecondary education, what are colleges and 
universities doing to educate their faculty about the needs of these 
college students? What are colleges and universities doing in general 
to accommodate these students?
    Answer 1b. During staff development days, many colleges include 
sessions on working with students with disabilities as part of the 
program. The North Carolina Community College System Office (SO) has 
provided and arranged for sessions on students with disabilities, 
including LD, at various conferences, meetings and training sessions. 
In addition, the System Office had also provided training for faculty 
and staff at individual colleges upon request.
    Disability counselors at all colleges assist students and provide 
reasonable accommodations to students who self-disclose/register with 
the disability services office and are confirmed to have a disability. 
Learning disabilities are unique to each student and accommodations are 
tailored to the needs of the individual student (case-by-case, class-
by-class basis). Accommodations may include note-takers, smart pens, 
electronic tablets, distraction minimized environment for testing, 
frequent breaks, copies of instructor notes/presentations, extended 
time for assignments and exams, as well as other accommodations that 
fit the student's academic needs.

    Question 2a. The U.S. Department of Education's College Navigator, 
an online tool to provide parents and prospective students with 
information about colleges falls short in collecting information about 
services available to students with learning disabilities. A random 
review of the profiles of 400 institutions of higher education in the 
College Navigator revealed that only six provided any information to 
students and the public about services available for students with 
learning disabilities at that college.\4\ When information is not 
provided to parents and students, it's difficult to make informed 
decisions about which college to attend.
---------------------------------------------------------------------------
    \4\ NCLD conducted review in January 2014.
---------------------------------------------------------------------------
    How do colleges communicate with prospective and enrolled students 
about the types of services and supports offered for students with 
learning disabilities, such as students with dyslexia?
    Answer 2a. Most college disability services offices work with the 
local high school counselors to provide transition information for 
students with disabilities. Many colleges will schedule transition 
events for students with disabilities and their parents. For students 
already enrolled in a college, information is communicated during the 
admissions process and included in orientation programs and classes. 
Instructors are encouraged, and in some cases required, to include a 
statement on their syllabus which provides the location and contact 
information for the campus disability services office and encourages 
students with special needs to register with the disability services 
office.

    Question 2b. Overall, how do colleges work with the K-12 
educational system to support a seamless transition from high school to 
postsecondary education for students with learning differences, such as 
students with dyslexia? If colleges and universities to not work with 
K-12 educational systems for such students, is this something Congress 
should consider as we reauthorize the Higher Education Act?
    Answer 2b. Most colleges work with their local high schools to 
provide information to students with disabilities and to their parents. 
Partnerships with area colleges and high schools vary across the State 
with some working closely together, while others may have a less 
cooperative relationship.
    Congress has an opportunity to encourage stronger transition 
partnerships between secondary and postsecondary institutions to better 
inform students and parents of the differences, resources and 
expectations for students with all disabilities who wish to enroll in a 
college or university. With the reauthorization, universal design which 
helps all students, but especially students with disabilities, could 
also be encouraged.
                            senator collins
    Question. The various forms of Federal financial aid have helped 
increase college access. I am concerned, however, that there is little 
Federal effort to increase awareness among students about college 
costs, debt, and repayment, and that students can become discouraged 
from completing their degrees if they feel overwhelmed by cost.
    Husson University in Bangor, ME, where I worked prior to my 
election to the Senate, requires all freshmen students to enroll in a 
one-credit student success seminar, which includes financial literacy 
and other essential skills development. In your view, what forms of 
financial counseling are most effective? Are there Federal impediments 
to increasing student financial awareness?
    Answer. While not a requirement, as in Maine, financial literacy is 
often included in our college success courses that are required for 
degree completion. In addition, since 1972, North Carolina has provided 
free employability skills training through our 58 community colleges to 
individuals who have been dislocated from their jobs and/or make less 
than 200 percent of the Federal poverty level. Included in the 
available training is financial literacy education.
    More recently, our North Carolina State Treasurer, Janet Cowell, 
and our State Education Assistance Authority, joined forces to create 
an initiative called Advanced Money Management for Community College 
Students. They did so after I requested their help in developing 
financial literacy tools that our community colleges in North Carolina 
may use in counseling student prior to taking out loans and assuming 
debt to pay for college. Colleges today face restrictions on 
requirements they may place on students for financial literacy 
instruction, prior to assuming Federal loans. In our State, many 
community colleges have dropped out of the Federal Loan program because 
they face significant consequences for accounting for loan defaults but 
have little control over student requirements prior to assuming a loan, 
such as taking a financial literacy course. A Federal impediment to 
increasing student financial awareness is the restrictions placed on 
colleges who may wish to require some type of financial literacy 
courses prior to providing a Federal loan.
                              senator enzi
    Question 1. I would like to start off by saying that I am very 
proud that students in my home State of Wyoming, along with students in 
North Dakota and Nebraska, have the lowest student loan default rate of 
5 percent in the Nation.
    I was proud to work on and support the Every Child Achieves Act 
these past few months which highlighted State-funded dual enrollment 
programs in our K-12 education system. We know it is important for K-12 
and higher education to communicate about expectations for college-
level work. K-12 students who pursue dual enrollment learn about 
college expectations early and have a leg up gaining college credit so 
they can graduate from college faster and potentially with less debt.
    Dr. Ralls, you mentioned that Federal legislation should encourage 
and incentivize State-funded dual enrollment partnerships between our 
K-12 public schools and community colleges and universities. Can you 
provide us with some recommendations on how we can improve 
communication between our K-12 education system and our Institutions of 
Higher Education and vocational training centers to expand dual 
enrollment programs and ensure that the credits and credentials being 
earned by students are transferable to their postsecondary education?
    Answer 1. I would pay close attention to articulation agreements 
between community colleges and universities, and next dual enrollment 
agreements between community colleges and public schools, and look for 
opportunities to incentivize States and regions with strong agreements 
through Federal funding opportunities. In my opinion, articulation 
agreements between higher education institutions are best when they 
cover multiple institutions and provide clear, strong degree and course 
guarantees for students. Statewide agreements between systems of higher 
education greatly assist students in having consistent pathways that 
are similar across multiple institutions. Articulation agreements that 
provide guarantees that courses will transfer as general education 
credit (i.e., not just counted for elective credit), are best for 
students who are more likely to ultimately graduate, and taxpayers who 
do not have to pay for students to retake courses that do not transfer.
    With respect to dual enrollment, the best agreements I believe are 
those that allow high school students to enroll free of charge, and 
where they enroll in pathways that have limited course choice directly 
to a degree, rather than random course taking. You can find several 
States, like North Carolina, or regions where these types of agreements 
are in place. The Federal Government could play a more active role in 
encouraging these types of agreements by making them a requirement for 
eligibility for various grant programs.

    Question 2. Could you please tell us about the efforts that 
Institutions of Higher Education are making to accommodate retraining 
for adults to change careers by attending school part-time, especially 
in an economy as changing as ours?
    Answer 2. Most community college students are working students 
attending part-time. There have been many efforts to accommodate 
working students in our sector including the rapid growth of distance 
education which adds to the convenience of when working students can 
take classes, as well as scheduling seated classes late in the evening 
and early in the morning outside of normal working hours.
    One recent effort that I believe has great validity, is the effort 
by colleges in States such as ours to develop programs that lead to 
third-party certification, and then awarding credit on a competency 
basis toward completion of degrees. Many lower income working adults 
need the expediency of gaining an immediate skill, and the competency 
recognition of certification credential, to solidify or increase their 
earning potential. After doing so, if they can receive academic credit 
for such short-term, competency-based training, they can move further 
down the road toward the attainment of a degree which can further 
enhance their earning potential. This is why I believe consideration 
should be strongly given to opening Pell eligibility for students in 
short-term training programs, when those programs lead to rigorous 
third-party credentials, and those credentials have been articulated 
into degree programs through ``stackable certification'' models.
    Also because part-time students typically choose to go part-time 
not because of personal preference, but rather job and financial 
necessity, I believe great caution should be taken in requiring full-
time attendance for Pell eligibility. If lower income and working-class 
adults are forced to choose between working and going to college, most 
will be forced to give up their higher education pursuits so they can 
earn a living. However, this is also why I believe Pell grants should 
be eligible year-round, so that students who are working and going to 
school part-time can stay on a continuous forward trajectory and gain 
greater momentum toward completion of their degrees.
                             senator murray
    Question. Poverty and financial need can have a profound impact on 
students' ability to succeed. Research shows that high-achieving 
students from low-income backgrounds are less likely to complete than 
high-achieving students from families with higher incomes, even when 
controlling for their academic preparation at the time of enrollment.
    Are there opportunities for postsecondary institutions, including 
community colleges and traditional 4-year colleges, to develop 
counseling and support services specifically geared toward meeting the 
unique needs of high-achieving, first-generation students from 
economically disadvantaged backgrounds and ensuring that they are 
successful?
    Please describe how such initiatives might work and the benefits 
they could bring to this demographic of students.
    Answer. Many community colleges, such as the one where I will be 
the new president (Northern Virginia Community College), are developing 
honors programs to support high achievers. I believe one of the most 
important policy levers for supporting high achievers, and other lower 
income students, is very strong community college to university 
articulation agreements. Approximately two-thirds of community college 
students are from the bottom 50 percent of the income bracket, compared 
to only 14 percent of the students at the ``elite 200'' universities 
and 5 percent at the ``elite top 50.'' Increasingly, research has 
documented an increasing socioeconomic segregation in higher education 
with poorer students, even those with higher academic achievement, 
going to open-enrollment institutions, and fewer going to elite 
institutions. Therefore, as opposed to addressing ``undermatching'' 
from just a 4-year college enrollment issue, the greatest overall 
impact can be from policies that promote first very strong community 
college to articulation agreements with general education course 
guarantees (like we have in North Carolina), and strong direct 
guarantee admissions programs between community colleges and 
universities (like the DirectConnect program between Valencia College 
and University of Central Florida, and the Pathway to the baccalaureate 
program between Northern Virginia Community College and George Mason 
University). Research indicates that community college students who can 
transfer all or most of their credits are 2.5 times more likely to 
complete a bachelor's degree, than students transferring half or less 
of their credits. As the Federal Government creates grant programs and 
other Federal fundings opportunities supportive of higher education, 
they can help low-income students by incentivizing strong community 
college to university articulation guarantees.
                             senator warren
    Question 1. Do colleges have enough incentives to improve student 
success?
    Answer 1. No. Enrollment-based funding models, upon which most 
higher education funding is provided, put all of the incentives on 
getting students enrolled, not in graduation. In other words, rewarding 
inputs rather than outputs. I believe that a mix of funding is 
important. Enrollment funding helps cover the fixed costs that higher 
education institutions face with each student enrollment. (For example, 
community colleges put the vast majority of their funding in direct 
instructional costs, and if a class starts with 30 students but ends 
with 20, the teaching costs are the same). However, we have found that 
even a relatively smaller percentage of funding tied to student success 
outcomes play an important role in focusing greater attention to 
program completion and graduation.
    One way the Federal Government could help in this process is 
providing greater incentives to States that maintain tuition to their 
public institutions at rates significantly below the national average. 
In fact, some current policies have been a disincentive to maintaining 
lower tuition. For example, Federal job training policy through the 
Workforce Investment Act (now WIOA) allows for eligible job training 
participants to receive training funds through ITAs that pay for the 
cost of community college attendance (i.e., tuition and fees). For 
States like North Carolina that maintain very low State-subsidized 
tuition, sometimes it is seen as ``leaving money on the table'' because 
the Federal funding can only pay for the highly State-
subsidized tuition rate, not the actual cost of the training. This 
creates from some that tuition rates should be increased. Policies that 
would allow States that maintain tuition rates significantly below the 
national average, to flexibly use some of those funds to support 
instructional infrastructure costs such as technology, would help 
remove the disincentives to maintaining low tuition through high State 
subsidies.

    Question 2. What policies would give for-profit colleges an 
incentive to improve outcomes for their students?
    Answer 2. I've never worked with a for-profit college so I am not 
in a great position to answer this question. However, I do know very 
little higher education Federal funding is directly tied to outcomes 
other than enrollment, so it should be little surprise that if your 
underlying philosophy is based on a for-profit motive, less attention 
will likely to be given to program completion outcomes. Recently, based 
on work in North Carolina and other community college systems, the 
Center for Community College Research at Columbia University has 
documented the high cost of adopting significant student success 
efforts in funding environments that primarily reward enrollment. For 
example, if we were built on a for-profit motive for our North Carolina 
community colleges, we would have very little incentive to have 
significantly changed our developmental education programs which 
``churned'' students and as such generated funding, but were 
insufficient in producing student success. We knew this going into our 
statewide reform efforts, but did it anyway because student success was 
prioritized more than the financial impact.
                             senator scott
    Question. In my home State, universities have made strides toward 
allowing students to utilize the full calendar year to work toward an 
undergraduate degree. The University of South Carolina, in particular, 
offers ``on your time'' and accelerated degrees that offer an increased 
variety of classes to students during the summers to encourage 
motivated students to complete a degree in their own time. In 2014, the 
South Carolina State legislature decided to allow students to use 
State-funded scholarships year round, rather than just during the 
traditional school year. S. 108, introduced by our Chairman, Senator 
Alexander, and my colleague Senator Bennett, will expand students' 
ability to use Pell grants year-round. Do you believe full-year Pell 
grants have the potential to help students graduate on time or early, 
and could they reduce the cost of higher education for qualified 
students?
    Answer. In my opinion, providing year-round Pell opportunities 
could be one of the most important policies in a new Higher Education 
Act that to significantly impact student success rates.
    As in South Carolina, we in North Carolina have been aggressively 
pursuing State policies to enable year-round attendance. Starting 2 
years ago, our State began providing year-round funding to community 
colleges for students taking STEM, health care, technical education and 
developmental courses. This year, Governor McCrory is helping to 
champion year-round funding at community colleges for all courses. The 
reason for doing so is that the average age of our students is 28 and 
they come to us with a primary goal of moving quickly into and upward 
in the workforce, or to transfer to a university. They are not looking 
to take a break in the summer, and if we do not provide them with year-
round opportunity, some lose their momentum and ``melt away.''
    Last year presidents of our 58 community colleges in North Carolina 
declared year-round Pell funding as their No. 1 desired Federal policy 
change, because they believe it is so fundamental to helping students 
achieve their goals.
   Response by Timothy M. Renick to Questions of Senator Alexander, 
Senator Cassidy, Senator Collins, Senator Enzi, Senator Murray, Senator 
                        Warren and Senator Scott
                           senator alexander
    Question 1. What is problematic about the academic progress 
benchmarks or indicators for students built into Federal student aid 
programs today? What would a better way to encourage progress look like 
in Federal student aid?
    Answer 2. Our use of analytics to track all students at Georgia 
State University has revealed a subset of students who have high 
probabilities of graduation and yet who are out of compliance with SAP. 
Because we are the largest transfer recipient school in the State of 
Georgia and serve significant numbers of at-risk students, Georgia 
State enrolls a subset of students who arrive having largely exhausted 
their aid eligibility. In a significant number of cases, these students 
may have been misled by previous institutions, including schools that 
did not provide basic supports that promote student success. When they 
arrive at the more positive academic environment of Georgia State, 
these students progress nicely--but they often lack sufficient aid 
eligibility to get to graduation. We would like to be able to approve 
SAP appeals of students scheduled to graduate but who do not have 
extenuating circumstances as currently defined. Students who have been 
ill-served by previous institutions often exceed the maximum time for 
Federal aid and need one or two additional terms to graduate.
    Especially with the increase in non-traditional and working 
students, SAP standards should be based on total financial aid payouts 
instead of a maximum timeframe. Some students are flagged for SAP but 
have not yet attempted anything close to 180 hours. This causes 
confusion and undermines the ability of some of the most at-risk 
students to graduate.
    There should be more flexibility as it relates to SAP for students 
who change their majors. The new predictive analytics being used by 
universities such as Georgia State and Austin Peay can help struggling 
students to get back on track for graduation by having them switch to 
majors that better fit their abilities and make better use of their 
successfully competed courses. Change in major is not currently a valid 
basis for a SAP appeal.
    There also should be more flexibility in calculating SAP for first-
year students. These students are often adjusting to their first year 
in college, but such arguments do not count as extenuating 
circumstances for SAP purposes. We are required to deny these appeals, 
which impacts retention, progression and graduation rates, especially 
for at-risk students who often have the greatest challenge adjusting to 
college.
    SAP requirements should only be required for undergraduates 
students. The academic progress of graduate and professional students 
should be monitored by academic departments. All graduate programs have 
measures in place to suspend or expel students who are not meeting 
department's academic standards. A least intrusive approach also makes 
sense for graduate and professional students since the vast majority of 
such students are only eligible for Unsubsidized and Grad Plus Loans.

    Question 2. In order to improve student success, why is it 
important for the Federal Government to provide institutions the 
ability to require that students receive counseling and take training 
classes about their finances?
    Answer 2. There are currently too many cultural barriers to college 
completion for at-risk student populations. Students who are the first 
in their families to attend college or who come from low-income 
backgrounds often lack experience making high-stakes financial 
decisions and have no natural support systems to guide them. Just one 
or two financial mistakes can mean the difference between a student 
dropping out and staying enrolled. We need to begin to equip students 
to navigate the financial decisions necessary to progress through 
college starting before matriculation and extending through graduation. 
Unfortunately, few students participate in such financial literacy 
training voluntarily. Georgia State University has created an internal 
system to induce students to go through financial literacy training: we 
require all recipients of institutional aid to sign a contract agreeing 
to go through training modules. This approach has proven helpful but is 
less than comprehensive. While I do not support one-size-fits-all, 
mandatory Federal training for financial literacy, I do believe we 
could use Federal requirements to induce students to participate in 
online and in-person literacy modules that would be customized to their 
circumstances: entering students learning the difference between types 
of educational loans and the impact of borrowing; seniors learning the 
rules and options surrounding paying back loans.

    Question 3. The advising models developed by Georgia State 
University and Austin Peay State University have shown great success in 
keeping their students on track to graduation. What are the barriers to 
other institutions adopting similar models? Are there any drawbacks to 
a data-driven approach on student advising?
    Answer 3. The largest barrier to the widespread implementation of 
analytics-based advising interventions nationally is cultural. We do 
not incentivize college leadership to embrace what is new and 
different, especially when it might create pushback from faculty, staff 
or other stakeholders. Presidents are too often rewarded for what they 
do not do--upset the status quo, anger constituencies--than what they 
do. We need to change the incentive structure.
    On the issues of advising tracking systems, there are some more 
particular barriers:

    (a) Tracking systems are only as effective as the data that are the 
basis for the alerts and predictive analytics. Institutions such as 
Georgia State and Austin Peay have invested in collecting and scrubbing 
data so that it is sound.\1\ Too many institutions lack the 
infrastructure, history and culture to easily populate such systems. 
Still, we need to support national projects to identify data trends 
across institutions so that the benefits of such early alerts can be 
enjoyed by students at all institutions. For instance, there is much 
reason to believe that academic indicators from lower-level courses in 
pre-calculus math are accurate predictors of performance in upper-level 
chemistry courses across all institutions.\2\ We could greatly 
accelerate the propagation of advising tracking systems by pursuing 
projects of a cross-institutional and even national level to collect 
such data.
---------------------------------------------------------------------------
    \1\ ``GPS Advising at Georgia State University,'' Georgia State 
University Office of Institutional Effectiveness, http://oie.gsu.edu/
files/2014/04/Advisement-GPS.pdf (accessed September 3, 2015).
    \2\ N/A.
---------------------------------------------------------------------------
    (b) Many campuses are not currently set up effectively to respond 
to the alerts that come from these systems. Georgia State has supported 
43,000 one-on-one proactive interventions between staff and students 
over the past 12 months because we were able to make substantial 
changes in the way we organize and deploy academic advisors on campus. 
At too many universities, academic advisors report to and are assessed 
by multiple stakeholders, making coordination of responses difficult.

    Question 4. Why is it important that students complete their degree 
or certificate?
    Answer 4. The national data are compelling. According to a 2014 
study of the Pew Research Center, even at the depths of the Recession, 
college graduates were only one-third as likely to be unemployed as 
Americans who possessed only a high school diploma.\3\ The gap is even 
wider between college graduates and high school dropouts. The Pew study 
replicates the often-cited claim that, over a Lifetime, college 
graduates will earn more than $1 million more than the high school 
graduates.\4\ With the emergence of an American economy increasingly 
dependent on information, technology and service, there is strong 
reason to believe that these types of gaps will grow in the future. 
While there are exceptions--we all hear the stories of the college 
graduates with high depth who are unemployed or underemployed--by every 
objective indicator, such individuals are the exception and not the 
rule. Quality of life indices--life expectancy, access to good health 
care, education level of offspring, lower rates of incarceration--also 
increase with a college education.\5\ This is an important instance in 
which what is right for the individual is also what is best for the 
Nation.
---------------------------------------------------------------------------
    \3\ ``The Rising Cost of Not Going to College,'' Pew Research 
Center, February 11, 2014, http://www.pewsocialtrends.org/2014/02/11/
the-rising-cost-of-not-going-to-college/ (accessed Septem-
ber 3, 2015).
    \4\ Anthony P. Carnevale, Stephen J. Rose, & Ban Cheah, ``The 
College Payoff: Education, Occupations, Lifetime Earnings,'' Georgetown 
University Center on Education and the Workforce. https://www2.ed.gov/
policy/highered/reg/hearulemaking/2011/collegepayoff.pdf (accessed 
September 3, 2015).
    \5\ Sandy Baum, Jennifer Ma, & Kathleen Payea, ``Education Pays 
2013: The Benefits of Higher Education for Individuals and Society,'' 
The College Board, http://trends.collegeboard.org/education-pays 
(accessed September 3, 2015).
---------------------------------------------------------------------------
                            senator cassidy
    Question 1. I am a father of a child who is dyslexic. As any proud 
father, I want the best for her and to see her succeed academically and 
in life. As such, research from the National Center for Learning 
Disabilities shows that students with learning disabilities--such as 
dyslexia--value a college education and most want to attend either a 2-
year or 4-year postsecondary education program.\6\
---------------------------------------------------------------------------
    \6\ Candace Cortiella, ``2014 State of LD,'' National Center for 
Learning Disabilities, November 24, 2014, http://www.ncld.org/reports-
and-studies/2014-state-of-ld/ (accessed September 3, 2015).
---------------------------------------------------------------------------
    While 68 percent of students with learning disabilities are 
graduating high school with a regular diploma--a statistic that is too 
low but has risen over time\7\--these students continue to lag behind 
their peers in entering and completing college. Just 34 percent of such 
students completed a 4-year degree compared to 51 percent of students 
without disabilities.\8\
---------------------------------------------------------------------------
    \7\ Candace Cortiella, ``Diplomas at Risk: A Critical Look at the 
High School Graduation Rate,'' National Center for Learning 
Disabilities, November 24, 2014, http://www.ncld.org/reports-and-
studies/diplomas-at-risk-a-critical-look-at-the-high-school-graduation-
rate/ (accessed September 3, 2015).
    \8\ National Longitudinal Transition Study 2. http://www.nlts2.org 
(accessed September 3, 2015).
---------------------------------------------------------------------------
    As your organizations reviewed reasons for students not succeeding 
in college and as part of your development of initiatives to help such 
students succeed, what considerations were given to students who had 
learning differences?
    If we really want students with learning disabilities to have 
access to postsecondary education, what are colleges and universities 
doing to educate their faculty about the needs of these college 
students? What are colleges and universities doing in general to 
accommodate these students?
    Answer 1. I share your concern for supporting students with 
learning disabilities. There is clearly a need to respect the personal 
privacy of the students. As such, we do not volunteer the information 
about students with disabilities to faculty members who may have such 
students enroll in their courses. We also do not want to require that 
students disclose their personal circumstances to all faculty and staff 
with whom they work on an individual basis. With these principles in 
mind, Georgia State staffs an Office of Disability Services.\9\ 
Students with disabilities are encouraged to visit the office where 
appropriate accommodations can be discussed with highly trained 
professionals. Subsequently, students merely tell their instructors 
that they have an approved accommodation through the Office of 
Disability Services, and the Office then advocates on behalf of the 
students. If students, for instance, need more time to complete an 
exam, the Office of Disability Services will proctor the exam so the 
student will not be put in a position of requesting accommodation 
directly from the instructor. Students do not have to disclose the 
nature of their disabilities to their instructors (unless they chose to 
do so) in order to be appropriately accommodated.
---------------------------------------------------------------------------
    \9\ Georgia State University Disability Services. http://
disability.gsu.edu/ (accessed September 3, 2015).
---------------------------------------------------------------------------
    A challenge is reducing barriers that sometime hinder students from 
seeking this help, and I agree that requiring institutions to outline 
their support system in a standard place of the website would help to 
ensure that impacted students know what resources are available from 
day one.

    Question 2. The U.S. Department of Education's College 
Navigator,\10\ an online tool to provide parents and prospective 
students with information about colleges, falls short in collecting 
information about services available to students with learning 
disabilities. A random review of the profiles of 400 institutions of 
higher education in the College Navigator revealed that only six 
provided any information to students and the public about services 
available for students with learning disabilities at that college.\11\ 
When information is not provided to parents and students, it's 
difficult to make informed decisions about which college to attend.
---------------------------------------------------------------------------
    \10\ College Navigator. https://nces.ed.gov/collegenavigator/ 
(accessed September 3, 2015).
    \11\ NCLD conducted review in January 2014.
---------------------------------------------------------------------------
    How do colleges communicate with prospective and enrolled students 
about the types of services and supports offered for students with 
learning disabilities, such as students with dyslexia?
    Overall, how do colleges work with the K-12 educational system to 
support a seamless transition from high school to postsecondary 
education for students with learning differences, such as students with 
dyslexia? If colleges and universities were not to work with K-12 
educational systems for such students, is this something Congress 
should consider as we reauthorize the Higher Education Act?
    Answer 2. At Georgia State, we outline the resources available to 
students with disabilities through our orientation process and provide 
a referral service to the Office of Disability Services for faculty 
members who may identify unreported cases in the classroom. At present, 
there is not a seamless process from high school to postsecondary 
institutions. A challenge that we have not resolved is respecting the 
privacy of our students who understandably may resist (and whose 
parents may resist) their being tracked as students with disabilities 
across institutions or as students transition from secondary to 
postsecondary education. There is currently no means that I know of by 
which a student's circumstances with regard to special needs is relayed 
from K-12 to the college in which the student matriculates unless the 
student takes the initiative to do so. Because of this dynamic, we rely 
heavily of the students's self disclosure of his or her situation, 
which likely leaves some students unserved.
                            senator collins
    Question 1. The various forms of Federal financial aid have helped 
increase college access. I am concerned, however, that there is little 
Federal effort to increase awareness among students about college 
costs, debt, and repayment, and that students can become discouraged 
from completing their degrees if they feel overwhelmed by cost.
    Husson University in Bangor, ME, where I worked prior to my 
election to the Senate, requires all freshmen students to enroll in a 
one-credit student success seminar, which includes financial literacy 
and other essential skills development. In your view, what forms of 
financial counseling are most effective? Are there Federal impediments 
to increasing student financial awareness?
    Answer 1. Like Husson University, Georgia State has a mandatory 1-
hour course that includes a financial literacy component.\12\ We have 
found it effective to have students who receive institutional aid sign 
a contract when that requires them to attend financial literacy 
training. We use in-person meetings as well as online modules, both of 
which we customize to serve the specific needs of the students.\13\ 
Graduating seniors, for instance, might be assigned modules focusing on 
paying back their loans after graduation and managing credit card debt. 
All participation is tracked.
---------------------------------------------------------------------------
    \12\ ``GSU 1010: New Student Orientation Curriculum,'' Office of 
Undergraduate Studies, http://success.students.gsu.edu/files/2013/01/
GSU-1010-curriculum.pdf (accessed September 3, 2015).
    \13\ ``Financial Literacy,'' Georgia State University Student 
Financial Services, http://sfs.gsu.edu/the-financial-aid-process/
financial-resources/financial-literacy/ (accessed September 3, 2015).
---------------------------------------------------------------------------
    The link that we create at Georgia State between institutional aid 
and financial literacy training could be strengthened by building 
parallel requirements for the recipients of Federal aid. My caution is 
that we recognize that, as with all learning, it needs to be 
incremental. A model that requires 17-year-olds to be fully literate 
about all types of loans, interest rates and so on before they can 
receive Federal aid will only hinder the educational progress of large 
numbers of the very students that such a policy would aim to protect.
    The biggest help that the Federal Government could offer to the 
financial literacy of college students is to simplify the application 
and award processes and the numbers and types of programs offered by 
the Federal Government. Currently, even trained professionals have 
difficulties grasping the nuances. How can we expect first-generation, 
17-year-olds to do so?
    I also support certain steps proposed by the National Association 
of Financial Aid Administrators:\14\ (1) First, we should allow 
students to use tax returns (their own or their parents, as 
appropriate) from the previous filing year. Our efforts to engage 
students in a personalized fashion about their financial aid, loans, 
and packaging is severely limited by the fact that tax returns are not 
due until April 15 and classes for the academic year end in May. In the 
vast majority of cases, changes in financial circumstances are 
insignificant. The only way to make true financial counseling tenable 
is to speed up the process by which students can be awarded aid. (2) 
Second, students whose income level (or that of their families, as 
appropriate) fall below a certain level (such as $50,000) can and 
should have a vastly simplified FAFSA form to complete. The current 
complexities of the FAFSA add a disproportionate burden to low-income 
families or often lack the know-how and resources to complete the 
current form.
---------------------------------------------------------------------------
    \14\ See, for instance: http://chronicle.com/article/Everyone-s-
Talking-About/232899/?cid=at&
utm_source=at&utm_medium=en.

    Question 2. Increasing college completion means preparing students 
for college success. I have been a longtime supporter of the Federal 
TRIO programs, which are among the Nation's most important educational 
support programs, particularly for first-generation and low-income 
students. TRIO supports a variety of services, including academic and 
career advising, and financial aid planning and assisting. Dr. Renick, 
Georgia State University has many of the TRIO programs on campus. Has 
the success of TRIO at George State influenced the retention and 
support services on the campus as a whole?
    Answer 2. We value our TRIO programs as an important resource for 
at-risk students.\15\ Georgia State's TRIO programs have consistently 
outperformed targets. For example, 90 percent of participants served by 
our Student Success Services (SSS) Project persist from one academic 
year to the beginning of the next academic year or graduate and or 
transfer from a 2-year to a 4-year institution during the academic 
year. Ninety-one percent of participants served by our SSS STEM Project 
persist from one academic year to the beginning of the next academic 
year or graduate and or transfer from a 2-year to a 4-year institution 
during the academic year. Seventy-six percent of Upward Bound 
participants who enroll in a program of postsecondary education by the 
fall term immediately following high school graduation attain either an 
associate's or bachelor's degree within 6 years following graduation 
from high school. Eighty-seven percent of participants who complete 
their prescribed Veterans Upward Bound educational program enroll in 
programs of postsecondary education by the end of the next project 
year.
---------------------------------------------------------------------------
    \15\ Georgia State University TRIO Programs, http://oeo.gsu.edu/ 
(accessed September 3, 2015).
---------------------------------------------------------------------------
    My advice here is that TRIO programs--at least those focused on the 
success of postsecondary students enrolled in college--be situated in 
the academic wing of colleges and universities, not in student affairs. 
The program's focus crosses many areas, from course content to social 
support, but placement of TRIO programs under the guidance of academic 
deans, provosts, and faculty members (rather than deans of students) 
legitimizes the effort of these offices and raises TRIO's visibility 
while creating linkages to a range of academic resources that are 
critical to the success of students.
                              senator enzi
    Question 1. Could you please tell us about the efforts that 
Institutions of Higher Education are making to accommodate retraining 
for adults to change careers by attending school part-time, especially 
in an economy as changing as ours?
    Answer 1. While the State of Georgia has millions of adults in the 
workforce who have earned some college credit but no college degree and 
tens of thousands of unfilled jobs in high-paying fields such as 
healthcare and technology, we continue to struggle as a State to induce 
adults to come back to our colleges and universities. At Georgia State 
University, we have used workforce projections in order to create new 
academic programs to address these needs. In the past 2 years, for 
instance, we have added new programs in Analytics and Big Data, Health 
Informatics, Health Management, and Film Production to respond to the 
needs of employers in the State. The challenges here, though, are also 
cultural and economic. We have established an Office for Adult Learners 
with trained admissions counselors to help adult learners navigate the 
application and registration processes.\16\ The program recognizes that 
these students have different needs, expectations and capabilities than 
the average high-school graduate and works to ease the transition for 
these learners back to the university setting. Georgia State also has 
teamed with the University System of Georgia in support of Governor 
Nathan Deal's ``Go Back, Move Ahead'' program to facilitate the return 
of adult learners to college. We also employ graduate students in our 
Early Childhood Education program to help staff one of the best pre-
school centers in Atlanta to help parents who are returning to school 
to overcome one of their largest obstacles: childcare issues. 
Unfortunately, we have a student body of greater than 32,000 students, 
and the scale and cost of the challenge means that we cannot 
accommodate the vast majority of our students who wish to place 
children in our center. Inducing adults to return to college and 
providing these learners with the financial support and resources that 
they need once they are re-enrolled require a coordinated effort of 
universities and their local communities, as well as State and Federal 
Governments.
---------------------------------------------------------------------------
    \16\ http://admissions.gsu.edu/how-do-i-apply/other-enrollment-
types/non-traditional-students/ and http://admissions.gsu.edu/how-do-i-
apply/other-enrollment-types/gsu-62-students/.
---------------------------------------------------------------------------
                             senator murray
    Question 1. Poverty and financial need can have a profound impact 
on students' ability to succeed. Research shows that high-achieving 
students from low-income backgrounds are less likely to complete than 
high-achieving students from families with higher incomes, even when 
controlling for their academic preparation at the time of enrollment.
    Are there opportunities for postsecondary institutions, including 
community colleges and traditional 4-year colleges, to develop 
counseling and support services specifically geared toward meeting the 
unique needs of high-achieving, first-generation students from 
economically disadvantaged backgrounds and ensuring that they are 
successful?
    Please describe how such initiatives might work and the benefits 
they could bring to this demographic of students.
    Answer 1. ``Summer melt'' is a far too innocuous term used to refer 
to a profound problem. Summer melt refers to the group of students who 
apply to college, are admitted as fully qualified, confirm their plans 
to attend, but who never show up for classes. This group is growing at 
an alarming rate. In 2008, such students constituted approximately 8 
percent of the incoming class at Georgia State. This fall, the number 
tops 20 percent.
    Why should we be concerned about this group of students? First, 
they skew disproportionately first generation, low-income and non-
white. In other words, they are precisely the type of students who we, 
in higher education, struggle to ensure are college-ready and apply to 
college. Second, large numbers of these students end up attending no 
college at all. Last fall at Georgia State, we had more than 100 
students who were accepted and who confirmed their plans to attend 
Georgia State who never showed up for classes and who, 1 year later, 
had attended no college at all (according to National Student 
Clearinghouse data). When we looked at the profile of these students, 
they were largely first-generation and low-income. They had an average 
high-school GPA of 3.3 and averaged 9 hours of dual enrollment credit. 
These are students who are doing everything right academically and who 
are still sitting on the sidelines when it come to the opportunity that 
a college education affords. This is a tragedy.
    We need to concentrate more efforts and resources on helping 
students figure the pathways to college, including the financial ones, 
while they are still in high school. We also need to make these 
pathways less complex and convoluted so we do not disadvantage those 
students who lack an independent support system to help them navigate 
the terrain. What can be done?

    <bullet> Georgia State requires that recipients of our 
institutional scholarships sign contracts pledging to give something 
back. Many are assigned to mentor local middle and high school students 
with a focus on college preparedness. Our largest scholarship program 
for Latino students, for instance, requires recipients to spend time 
each week mentoring students in Cobb County public schools, the school 
district with the fastest growing Latino population in metro Atlanta. 
Such peer and near-peer mentoring programs are often more effective 
than placing trained staff in the same settings. Peer mentors not only 
can tell students about how to succeed; they also can show them what 
success looks like. This is why the College Advising Corps is a great 
idea (though a program that is too limited in its focus and reach).
    <bullet> A new program at Georgia State will use National Student 
Clearinghouse data to identify ``melt'' students and re-engage them in 
colleges. In cases in which the greatest obstacles are financial, we 
will help students complete FAFSAs and apply for scholarships and other 
forms of aid that might make college a reality for them, and in cases 
where adequate funding cannot be located to allow them to attend 
Georgia State, we will create pathways for these students into lower-
costs Associate's degree programs.
    <bullet> In the 2015-16 academic year, Georgia State will open a 
Financial Counseling Center with a trained staff charged to identify 
and to reach out proactively to students who might be tripped up by the 
financial complexities of attending college. We have run analytics and 
found that there are early warning signs--some as simple as missing 
deadlines for turning in financial forms--that can help identify such 
students.
    There are many challenges in preparing low-income students to be 
college-ready academically and getting them to want to go to college. 
The growing phenomenon of ``summer melt'' shows that, in a significant 
number of cases, we need to worry less about which students are 
college-ready and more about which colleges are study-ready.
    The need for higher education rather than students to change 
typifies the approach that Georgia State University has implemented 
over the past 7 years. We have endeavored to change the way students 
experience college from the time they matriculate, including the way 
they choose courses and majors, their experiences in the classroom, and 
the support they receive outside of class. A summary of some of these 
programs and interventions and their impacts can be found in Georgia 
State's 2015 completion plan at www.enrollment.gsu.edu/files/2015/08/
Georgia-State-University-CCG-Report-2015.pdf.
                             senator warren
    Question 1. Do colleges have enough incentives to improve student 
success?
    Answer 1. In 25 years in higher education, I have never seen more 
attention paid to the issue of college completion. It is a true bi-
partisan issue, and this support has served to motivate many campuses 
to turn their attention to student success. In many cases, these were 
institutions that, in the past, were content with their efforts and 
mediocre results. At Georgia State University, we have had teams from 
approximately 160 other colleges and universities visit us over the 
past 2 years to study our programs and initiatives.
    With that said, there are still far too many disincentives for 
colleges and universities that wish to make a difference in the lives 
of the students who most need a college degree. While there is much 
talk about performance funding, few States have actually put meaningful 
amounts of funding behind the model. Universities are still far too 
often rewarded for serving students who bring success in with them as 
they matriculate in college rather than those who become successful 
because of college. High SAT scores and privileged social status are 
the most common distinguishing traits of highly ranked universities, 
not their ability to innovate. Such ``inputs'' are the primary basis 
for national rankings such as U.S. News and World Report. In fact, even 
as Georgia State was improving its graduation rates by 22 percentage 
points and awarding more bachelor's degrees to African Americans than 
any other non-profit college or university in the Nation, it was losing 
points (and ground) in the U.S. News and World Report rankings by 
dropping in average SAT scores and serving more students for fewer 
dollars. Something is wrong with such a system. Most university 
presidents will not enroll more low-income and first-generation 
students as long as it means risking a drop in the national rankings. 
We need to change the equation.
    We need to be very careful not to recreate disincentives in 
national ratings systems. The single best prediction of an individual's 
income level after graduating from college is that individual's family 
income level before enrolling in college. Rating systems that 
uncritically assess campuses by the debt levels or default rates of its 
graduates without equally weighing the incoming income levels of its 
students are destined to continue to create disincentives for campuses 
that might wish to do the hard and needed work of serving at-risk 
populations.
    Colleges and universities that both (1) enroll large numbers and 
percentages of low-income and first-generation students, and (2) 
graduate them at high rates should be supported with greater amounts of 
Federal financial aid to distribute to students. Currently, there is no 
such benefit. As a Nation, we must invest in the campuses that are 
serving students effectively rather than merely enrolling effective 
students.

    Question 2. What policies would give for-profit colleges an 
incentive to improve outcomes for their students?
    Answer 2. Ultimately, the best way to end predatory practices aimed 
at the most vulnerable students and their families is to make such 
practices unprofitable. If campuses and their students were awarded for 
their success with graduating, not merely enrolling, students, for-
profit colleges would be incentivized to innovate on behalf of students 
rather than at their expense. They also might be incentivized to 
dedicate a higher portion of their profits to educational purposes 
rather than to advertising and recruitment.
    How can we achieve this aim? First, the Federal Government needs to 
adopt a far better system of tracking the success of students than the 
model currently employed by IPEDS. I would suggest the Student 
Achievement Measure (SAM) system developed by the Association of Public 
and Grant Universities (APLU) and employed by universities such as 
Georgia State. (See http://www.aplu.org/projects-and-initiatives/
accountability-and-transparency/student-achievement-measure/). SAM 
tracks the progression of part-time, transfer and other student 
populations in addition to full-time students who are in college for 
the first time, a critical factor in assessing the overall performance 
of institutions. Second, we need to set clear standards for success, 
requiring a minimum ratio of students graduated per Federal dollars 
invested. This means that, in effect, that institutions charging $1,000 
per credit hour would be required to produce better results than a 
community college charging $100 per credit hour. This is how it should 
be. We need to create a system that incentivizes institutions to 
produce results in terms of student success for reasonable costs. If 
for-profit colleges are able to deliver results by this standard, we 
should be happy to accept them as partners in our efforts to educate 
Americans.
                             senator scott
    Question 1. Between 1970 and 2009, undergraduate enrollment has 
more than doubled, while the completion rate has been unchanged. 
Students from more diverse backgrounds have been able to access 
college, but we still have a responsibility to ensure that those 
students are working toward degree completion while they are in 
college. Studies have shown that college dropouts cost taxpayers 
billions of dollars a year in State and Federal dollars. Dr. Renick, I 
understand Georgia State has utilized innovative resources for 
monitoring and promoting student success. From using data-driven 
indicators of success to your bridge grant program, which is similar to 
University of South Carolina's ``Gamecock Guarantee'' program, what 
types of initiatives have been shown to close achievement gaps, and how 
can that model be applied to Federal programs?
    Answer 1. See below.
      high impact strategies employed by georgia state university

                             1. GPS Advising
------------------------------------------------------------------------
 
------------------------------------------------------------------------
High-impact strategy......................  Use predictive analytics and
                                             a system of more than 800
                                             alerts to track all
                                             undergraduates daily, to
                                             identify at-risk behaviors,
                                             and to have advisors
                                             respond to alerts by
                                             intervening in a timely
                                             fashion to get students
                                             back on track.
Related Goal..............................  Goal #1: Increase in the
                                             number of undergraduate
                                             degrees awarded by USG
                                             institutions.
                                            Goal #2: Increase the number
                                             of degrees that are earned
                                             ``on time''.
                                            Goal #3: Decrease excess
                                             credits earned on the path
                                             to getting a degree.
                                            Goal #4: Provide intrusive
                                             advising to keep students
                                             on track to graduate.
Summary of Activities.....................  System went fully live in
                                             August 2012. This past
                                             academic year, there were
                                             more than 43,000 individual
                                             meetings between students
                                             and advisors that were
                                             prompted by alerts from GPS
                                             Advising.
Baseline Status...........................  <bullet> Current Six Year
                                             Graduation Rate: 54 percent
                                            <bullet> Total Students
                                             receiving undergraduate
                                             degrees in the 2013-2014
                                             Academic Year: 4,622.
Interim Measures of Progress..............  The numbers we are achieving
                                             via the programs are
                                             exceptionally strong. We
                                             have been tracking the use
                                             of the system and gathering
                                             interim metrics such as:
 
Measures of Success.......................  <bullet> Undergraduate Six-
                                             Year Graduation rates.
                                            <bullet> Number of
                                             Undergraduate Degree
                                             conferrals.
Lessons Learned...........................  <bullet> The true potential
                                             of predictive analytics
                                             comes, not from its ability
                                             to identify students at
                                             risk, but in its ability to
                                             support intensive advising
                                             practices. In order for
                                             predictive analytics to
                                             make a significant impact
                                             in higher education,
                                             technology solutions must
                                             be accompanied by
                                             investment in advising
                                             personnel and practices
                                             that can most effectively
                                             translate data into action.
                                            <bullet> Academic choices
                                             have a significant impact
                                             on career aspirations and
                                             vice versa. With the
                                             introduction of a new
                                             career matcher feature into
                                             our existing GPA advising
                                             platform (powered by data
                                             from Burning Glass),
                                             students are shown lists of
                                             common careers commonly
                                             associated with their
                                             chosen or prospective
                                             majors, as well as
                                             information about what
                                             skills are sought after by
                                             employers in those fields.
                                             Advising students with a
                                             view to life beyond
                                             graduation provides them
                                             with a broader perspective
                                             about what academic success
                                             means, as well as stronger
                                             sense of direction and
                                             motivation to pursue their
                                             degree, not as an end in
                                             itself, but as a
                                             springboard to future
                                             success in life and career.

    What if students who enroll at large, public universities received 
the same kind of personalized attention that is afforded to students at 
small, elite colleges? How would such personalized attention transform 
student success rates? At Georgia State, we are pursuing the answer to 
these questions in part by leveraging new technologies. Our cutting-
edge GPS Advising, a partnership with the Education Advisory of Board 
(EAB), uses more than 10 years of GSU student data--over 2.5 million 
grades--to create predictive analytics for how each individual student 
will fare in any major and in most courses that we offer. The system 
tracks students' decisions and academic performances, and it is updated 
with data from our student information systems on a daily basis--with 
alerts going off when a student is off path. Last academic year, the 
system generated more than 43,000 individual meetings between advisors 
and students to discuss specific alerts--all aimed at getting the 
student back on path to graduation. Since Georgia State went live with 
GPS Advising 3 years ago, freshmen fall-to-spring retention rates have 
increased by 5 percentage points and graduating seniors are taking 
fewer excess courses in completing their degrees.
    In 2016, Georgia State University will consolidate with Georgia 
Perimeter College (GPC). EDUCAUSE, with the support of the Bill & 
Melinda Gates Foundation and the Leona M. and Harry B. Helmsley 
Charitable Trust (the Helmsley Trust) and in partnership with Achieving 
the Dream (ATD), has awarded Georgia State University a grant to 
facilitate our efforts to deploy our technology solution and adapt our 
advising strategy in order to increase graduation rates for the 22,000 
students seeking associate degrees at GPC. In addition to providing 
much-needed support to students seeking associate degrees, the 
extension of our GPS to encompass the entirety of the new consolidated 
university provides us with the opportunity to better understand and 
support transfer pathways between 2- and 4-year institutions.

                        2. Summer Success Academy
------------------------------------------------------------------------
 
------------------------------------------------------------------------
High-impact strategy......................  Use predictive analytics to
                                             identify admitted students
                                             for the fall freshman class
                                             who are academically at-
                                             risk and require that these
                                             students attend a 7-week
                                             summer session before fall
                                             classes.
Related Goal..............................  Goal #7: Increase the
                                             likelihood of degree by
                                             transforming the way that
                                             remediation is accomplished
Summary of Activities.....................  Program was initiated in
                                             2012 as an alternate to
                                             deferring weaker freshmen
                                             admits to the Spring
                                             semester. Students earn 7
                                             hours of credit toward
                                             their Bachelor's degree
                                             while receiving intensive
                                             academic and personal
                                             support including
                                             supplemental instruction,
                                             advisement, learning
                                             communities, team building,
                                             financial literacy
                                             training.
Baseline Status...........................  <bullet> Last year, the 1-
                                             year retention rate of 87
                                             percent for Success Academy
                                             graduates marked a
                                             significant increase over
                                             the 50 percent retention
                                             rate that would be expected
                                             by this population as
                                             recently as 2011.
Interim Measures of Progress..............  <bullet> Retention rates for
                                             the students for the at-
                                             risk students enrolled in
                                             the Success Academy (87
                                             percent) exceed those of
                                             the rest of the freshman
                                             class (83 percent).
                                            <bullet> In summer 2015, the
                                             program enrolled 370
                                             students, up 50 from summer
                                             of 2014.
Measures of Success.......................  <bullet> Retention rates.
                                            <bullet> Graduation rates.
                                            <bullet> Degree completions.
Lessons Learned...........................  <bullet> While the Summer
                                             Success Academy is a
                                             program that would most
                                             certainly be of benefit to
                                             all students, it is
                                             important to ensure that
                                             the size of the program
                                             does not outstrip
                                             resources. The amount of
                                             personalized attention that
                                             students receive in the
                                             program is a significant
                                             reason for the program's
                                             success, not only because
                                             of the level of academic
                                             coaching required for our
                                             most at-risk students, but
                                             also because mentoring by
                                             peers and professionals
                                             also provides academy
                                             students with a sense of
                                             self-efficacy and the
                                             ``soft'' skills necessary
                                             to ``do college.''
                                            <bullet> Georgia State
                                             currently has a proposal
                                             before the Kresge
                                             Foundation to expand our
                                             current program, while at
                                             the same time collecting
                                             validation data that would
                                             allow the Foundation to
                                             help promote the Success
                                             Academy as a national best
                                             practice for closing the
                                             achievement gap for at-risk
                                             populations

    Georgia State takes students admitted to the fall freshmen class 
who are most academically at risk and requires that they attend a 7-
week summer semester before the start of fall courses. Students enroll 
in 7 credits of college-level (non-remedial) courses and are given the 
support of all of GSU's tutoring, advising, financial literacy, and 
academic skills programs at their disposal. All students are in 
freshmen learning committees. Last year's cohort was retained at a rate 
of 87 percent. This compares to an 83 percent retention rate for 
reminder of the freshmen class who were, on paper, better academically 
prepared for college. It is important to note that these same students, 
when Georgia State was deferring their enrollment until the spring 
semester (as is the common practice nationally), were being retained at 
only a 50 percent clip. This equates to more than 100 additional 
freshmen being retained via the Summer Success Academy this past year 
alone than would have been the case under the old model.

                       3. Panther Retention Grants
------------------------------------------------------------------------
 
------------------------------------------------------------------------
High-impact strategy......................  Provide micro grants to
                                             students at the fee drop
                                             each semester to help cover
                                             modest financial shortfalls
                                             impacting the students'
                                             ability to pay tuition and
                                             fees to prevent students
                                             from stopping/dropping out.
Related Goal..............................  Goal #1: Increase in the
                                             number of undergraduate
                                             degrees awarded by USG
                                             institutions.
                                            Goal #10: Mitigate the
                                             detrimental effects of
                                             financial need on student
                                             recruitment, retention, and
                                             graduation.
Summary of Activities.....................  Staff examine the drop lists
                                             for students with genuine
                                             unmet need, who are on
                                             track for graduation using
                                             our academic analytics, and
                                             who have modest balances
                                             for tuition and fees.
                                             Students are offered micro
                                             grants on the condition
                                             that they agree to certain
                                             activities, including
                                             meeting with a financial
                                             counselor to map out plans
                                             to finance the rest of
                                             their education. Last
                                             academic year, nearly 2,000
                                             grants were offered.
Baseline Status...........................  <bullet> Last academic year,
                                             61 percent of the seniors
                                             receiving PRG funding
                                             graduated within two
                                             semesters of receiving the
                                             grants.
Interim Measures of Progress..............  <bullet> Of freshmen who
                                             were offered Panther
                                             Retention grants in fall
                                             2013, 93 percent enrolled
                                             the following spring, a
                                             rate higher than that of
                                             the student body as a
                                             whole. 83 percent of
                                             freshman PRG recipients
                                             returned to class in fall
                                             2014. The retention rate
                                             for freshmen who were
                                             offered the grants in fall
                                             2014 was 88 percent.
                                            <bullet> We are also
                                             tracking the rate of
                                             ``returnees'' to the
                                             program, which we have been
                                             able to keep under 25
                                             percent.
Measures of Success.......................  <bullet> The ultimate
                                             measure of success is
                                             college completion. The
                                             largest group of recipients
                                             last year were seniors, who
                                             often are running out of
                                             Hope funding or exhausting
                                             other aid.
Lessons Learned...........................  <bullet> A data-driven
                                             approach to award
                                             dispersion ensures that
                                             support is given to
                                             students who are both in
                                             need and who are likely to
                                             succeed when their need is
                                             met. This represents a
                                             shift in perspective, away
                                             from distributing funds as
                                             a response to financial
                                             need alone, and toward an
                                             approach that is first and
                                             foremost motivated by an
                                             interest in eliminating non-
                                             academic barriers to
                                             student success.
                                            <bullet> Many students lack
                                             the financial literacy
                                             necessary to ensure that an
                                             otherwise sustainable
                                             amount of financial support
                                             is managed effectively
                                             through to the end of their
                                             degrees. The Panther
                                             Retention Grants are an
                                             excellent way to respond to
                                             the financial needs of
                                             student who are on track to
                                             a degree, but who encounter
                                             financial shortfalls as
                                             they near graduation. In an
                                             effort to be more
                                             proactive, GSU has added a
                                             set of financial indicators
                                             to its predictive analytics
                                             and has also committed to
                                             establishing a dedicated
                                             financial counseling center
                                             by the end of Spring 2016.
                                             Through proactive
                                             interventions like these,
                                             GSU expects to see fewer of
                                             its students run into
                                             financial problems later in
                                             their degree, while at the
                                             same time providing its
                                             students with the tools
                                             necessary for financial
                                             security in career upon
                                             graduation.

    This past fall, over 18,000 of Georgia State's 25,149 
undergraduates (72 percent) had some level of unmet need, meaning that 
even after grants, loans, scholarships, family contributions and the 
income generated from the student working 20 hours a week, the students 
lack sufficient funds to attend college. Each semester, hundreds of 
fully qualified students are dropped from their classes for lack of 
payment. For as little as $300, Panther Retention Grants provide the 
emergency funding to allow students who want to get their degrees the 
opportunity to stay enrolled. Last year, nearly 2,000 Georgia State 
students were brought back to the classroom--and kept on the path to 
attaining a college degree--through the program. Sixty-one percent of 
the seniors who received PRG support last academic year graduated 
within two semesters of receiving the grant.

                        4. Keep Hope Alive (KHA)
------------------------------------------------------------------------
 
------------------------------------------------------------------------
High-impact strategy......................  In 2008, the graduation
                                             rates for students who lose
                                             the Hope scholarship were
                                             only 20 percent, 40 points
                                             lower than the rates for
                                             those who hold on to it.
                                             Gaining the Hope
                                             Scholarship back after
                                             losing it is a statistical
                                             longshot: only about 9
                                             percent of Georgia State
                                             students pull this off.
                                             Using a $500 incentive for
                                             two semesters after the
                                             scholarship is lost, the
                                             Program requires students
                                             to sign a contract agreeing
                                             to meet with their
                                             advisors, attend academic
                                             skills workshops and
                                             participate in financial
                                             literacy training.
Related Goal..............................  Goal #1: Increase in the
                                             number of undergraduate
                                             degrees awarded by USG
                                             institutions.
                                            Goal #10: Mitigate the
                                             detrimental effects of
                                             financial need on student
                                             recruitment, retention, and
                                             graduation.
Summary of Activities.....................  By signing a contract to
                                             receive $500 for each of
                                             the first two semesters
                                             after losing Hope, students
                                             agree to participate in a
                                             series of programs and
                                             interventions designed to
                                             get them back on track
                                             academically and to make
                                             wise financial choices in
                                             the aftermath of losing the
                                             scholarship.
                                            Scholarship Criteria:
 
Baseline Status...........................  <bullet> Since 2008,
                                             institutional HOPE
                                             retention rates have
                                             increased by 50 percent,
                                             from 49 percent to 75
                                             percent in 2013.
                                            <bullet> Compared to 2008,
                                             the 6-year graduation rate
                                             for students who lost their
                                             HOPE scholarship, at some
                                             point in their academic
                                             career, has doubled from 21
                                             percent in 2008 to 41
                                             percent in 2013.
Interim Measures of Progress..............  For students in KHA in the
                                             period from 2011 to 2014,
                                             better than 55 percent
                                             gained the scholarship back
                                             at the next marker.
                                            Leveraging our $1,000
                                             scholarship investment by
                                             gaining between $6,000 and
                                             $12,000 of Hope dollars
                                             back again.
Measures of Success.......................  Retention rates for students
                                             receiving the HOPE
                                             scholarship.
                                            Six-year graduation rates
                                             for students who lost their
                                             HOPE scholarship at some
                                             point in their academic
                                             career.
Lessons Learned...........................  Losing the HOPE scholarship
                                             puts students far more at
                                             risk than losing a 3.0 GPA.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                      
    With 59 percent of Georgia State students coming from Pell-eligible 
households (where the annual household income last year was less than 
$30,000), the Hope scholarship can be a mixed blessing. The $6,000+ 
scholarship provides access to college for thousands of Georgia State 
students, but for the student who does not maintain a 3.0 college GPA, 
the loss of Hope often means the student has to drop out for financial 
reasons. KHA provides a $500 stipend for two semesters to students who 
have lost Hope as an incentive for them to follow a rigorous academic 
restoration plan that includes meeting with advisors, attending 
workshops, and participating in financial literacy training--all 
designed to help students improve their GPAs and to regain the 
scholarship. Since 2008, the program has helped to double the 
graduation rates of Georgia State students who lose the Hope 
scholarship.

                             5. Meta-Majors
------------------------------------------------------------------------
 
------------------------------------------------------------------------
High-impact strategy......................  Requiring all students to
                                             choose a meta-major puts
                                             students on a path to
                                             degree that allows for
                                             flexibility in future
                                             specialization in a
                                             particular program of
                                             study, while also ensuring
                                             the applicability of early
                                             course credits to their
                                             final majors. Implemented
                                             in conjunction with major
                                             maps, block scheduling, and
                                             freshman learning
                                             communities, meta-majors
                                             provide clarity and
                                             direction in what would
                                             otherwise be a confusing
                                             and unstructured
                                             registration process.
Related Goal..............................  Goal #2: Increase the number
                                             of degrees that are earned
                                             ``on time.''
                                            Goal #3: Decrease excess
                                             credits earned on the path
                                             to getting a degree
Summary of Activities.....................  Upon registration, all
                                             students are required to
                                             enroll in one of seven meta-
                                             majors: STEM, Arts &
                                             Humanities, Health,
                                             Education, Policy & Social
                                             Science, and Exploratory.
                                             Once students have selected
                                             their meta-major, they are
                                             given a choice of several
                                             block schedules, which are
                                             pre-populated course
                                             timetables including
                                             courses relevant to their
                                             first year of study. On the
                                             basis of their timetable
                                             selection, students are
                                             assigned to Freshman
                                             Learning Communities
                                             consisting of 25 students
                                             who are in the same meta-
                                             major and take classes
                                             according to the same block
                                             schedules of 5-6 courses in
                                             addition to GSU1010, a 1-
                                             credit hour course
                                             providing students with
                                             essential information and
                                             survival skills to help
                                             them navigate the
                                             logistical, academic, and
                                             social demands of the
                                             University.
Baseline Status...........................  <bullet> In the 2013-14
                                             academic year, enrollment
                                             in a Freshman Learning
                                             Community according to meta-
                                             major resulted in an
                                             average increase in GPA of
                                             8 percent.
                                            <bullet> In the 2013-14
                                             academic year, enrollment
                                             in a Freshman Learning
                                             Community by meta-major was
                                             found to increase a
                                             student's likelihood of
                                             being retained through to
                                             the following year by 5
                                             percent.
Interim Measures of Progress..............  <bullet> Adopting an opt-out
                                             model has mean that 95
                                             percent of non-honors
                                             freshmen are in freshman
                                             learning communities with
                                             common block schedules.
                                             This is up 15 percent from
                                             the 80 percent rate that
                                             was seen when the program
                                             was first implemented in
                                             its current form in Fall
                                             2013.
Measures of Success.......................  <bullet> Average GPA.
                                            <bullet> Freshman retention
                                             rates.
Lessons Learned...........................  <bullet> Time is money, and
                                             students who switch between
                                             majors, especially after
                                             the freshman year,
                                             accumulate wasted credits.
                                             With large numbers of low-
                                             income students who have
                                             strictly limited resources,
                                             mistakes in choosing majors
                                             can equate to college
                                             attrition.
                                            <bullet> Meta-majors, block
                                             scheduling, and freshman
                                             learning communities have
                                             all been shown to
                                             significantly improve the
                                             chances of student success.
                                             GSU has introduced each of
                                             these approaches at
                                             different times in its
                                             history. Bringing each of
                                             these best practices
                                             together as part of an
                                             integrated admissions
                                             strategy has produced a
                                             synergy, with power greater
                                             than the sum of that of its
                                             parts.




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                             
                                             
    At a large public university with 32,000 students, freshmen can 
feel overwhelmed by the size and scope of the campus and can have 
trouble building friendships and support systems. FLCs organize the 
freshmen class into cohorts of 25 students arranged by common academic 
interests, otherwise known as ``meta majors'' (STEM, business, arts and 
humanities, policy, health, education and social sciences). Students 
travel through their classes together, building friendships, study 
partners and support along the way. Block schedules--FLCs in which all 
courses might be between, for example, 8:30 a.m. and 1:30 p.m. 3 days a 
week--accommodate students' work schedules and help to improve class 
attendance. FLC students not only are retained but graduate at rates 4 
points above those of non-FLC students. Almost 80 percent of this 
fall's freshmen class are in FLCs.
    The net impact of these intervention has been to totally eliminate 
achievement gaps based on race and ethnicity, as seen in the chart 
below.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    All disparities based on economic status have also been eliminated.
    My responses to the questions of the various Senators outline a set 
of steps that would allow these same types of gains to be realized at 
other universities. We need to create Federal incentives for 
universities to enroll at-risk populations and then require that 
universities produce results. How can we achieve this aim? First, the 
Federal Government needs to adopt a far better system of tracking the 
success of students than the model currently employed by IPEDS. I would 
suggest the Student Achievement Measure (SAM) system developed by the 
Association of Public and Grant Universities (APLU) and employed by 
universities such as Georgia State. (See http://www.aplu.org/projects-
and-initiatives/accountability-and-transparency/student-achievement-
measure/). SAM tracks the progression of part-time, transfer and other 
student populations in addition to full-time students who are in 
college for the first time, a critical factor in assessing the overall 
performance of institutions. Second, we need to set clear standards for 
success, requiring a minimum ratio of students graduated per Federal 
dollars invested. This means that, in effect, that institutions 
charging $1,000 per credit-hour would be required to produce better 
results than a community college charging $100 per credit-hour. This is 
how it should be. We need to create a system that incentivized 
institutions to produce results (in terms of student success) for 
reasonable costs and invest in the kinds of innovations that 
universities such as Georgia State have shown to be cost-effective and 
impactful.
 Response by Lashawn Richburg-Hayes to Questions of Senator Alexander, 
  Senator Cassidy, Senator Collins, Senator Enzi, Senator Murray, and 
                             Senator Warren
    MDRC is pleased to have this opportunity to respond to the request 
for additional information from Chairman Alexander, Ranking Member 
Murray, and members of the committee on what the research field has 
found about various ways to improve the academic success of low-income 
college students. We have attempted to provide complete but succinct 
answers to the questions; where we do not have expertise, we have 
suggested researchers who may be able to provide information that is 
more complete.
                           senator alexander
    Question 1. In your testimony, you explain that access to higher 
education has expanded widely over the last 50 years, but degree or 
certificate completion has not. Does research indicate that there are 
any reasons for stagnant completion rates?
    Answer 1. Viewed historically, rates of completion at 4-year 
institutions have been unchanged since the Federal Government began 
tracking them in the 1970s and rates at community colleges have 
remained largely the same since tracking began in the 1990s.\1\ While 
research suggests a number of reasons for stagnant completion rates, 
there is no simple answer. The reasons are very complex and partially 
reflect the increased diversity of the college-going population and the 
average decline in preparation for college (largely reflecting the fact 
that a larger number of students now attend college who might not have 
attended decades ago, as they may not have been considered ``college 
material'').\2\ Research also suggests that the change in how students 
attend college contributes to completion rates not increasing at the 
same rate as access. For example, greater part-time attendance, delayed 
entry after high school, and increased work while attending college are 
all associated with increased time to degree attainment, especially at 
community colleges.\3\ The type of institution attended also matters; 
4-year institutions have higher completion rates than 2-year 
institutions.\4\ Indeed, some research suggests that the decline in 
resources provided to students at less selective public-sector schools 
is more important in explaining the stagnant rates of completions at 
these institutions than the above-mentioned changes in academic 
preparation.\5\
---------------------------------------------------------------------------
    \1\ Thomas Brock, ``Young Adults and Higher Education: Barriers and 
Breakthroughs to Success,'' Future of Children 20, 1 (2010): 109-32.
    \2\ For a broad overview of these trends, see Sandy Baum, Charles 
Kurose, and Michael McPherson, ``An Overview of American Higher 
Education,'' Future of Children 23, 1 (2013): 17-39.
    \3\ John Bound, Michael F. Lovenheim, and Sarah Turner, ``Why Have 
College Completion Rates Declined? An Analysis of Changing Student 
Preparation and Collegiate Resources,'' American Economic Journal: 
Applied Economics, American Economic Association 2, 3 (2010): 129-57; 
Ali Berker and Laura Horn, Work First, Study Second: Adult 
Undergraduates Who Combine Employment and Postsecondary Enrollment, 
NCES 2003-167 (Washington, DC: U.S. Department of Education, National 
Center for Education Statistics, 2003).
    \4\ Bound, Lovenheim, and Turner (2010).
    \5\ John Bound, Michael F. Lovenheim, and Sarah Turner, 
``Increasing Time to Baccalaureate Degree in the United States,'' 
Education Finance and Policy 7, 4 (2012): 375-424.

    Question 2. There are multiple proposals regarding how to provide 
year-round Pell grant availability, meaning allowing eligible students 
to receive more than one Pell grant in a year. Currently, part-time 
students can already receive their one Pell grant in fall, spring and 
summer. Though their award can fall short, if they want to attend more 
than the equivalent of two full-time semesters. Does research provide 
any indications on how to best provide this additional aid, in a way 
that promotes credit accumulation and progress toward completion?
    Answer 2. Research by MDRC and others has identified several 
factors associated with higher credit accumulation by students and 
higher likelihood of degree or certificate attainment. These include: 
(1) reducing hours worked while attending school, (2) greater intensity 
of enrollment (for example, full-time rather than part-time 
enrollment), and (3) enrollment in summer and winter intersessions.
    Financial aid programs offer an opportunity to promote student 
success via these mediating factors--for example, by reducing the 
number of hours students need to work in jobs unrelated to their course 
of study. In the context of year-round Pell, an expansion of the 
program that encourages students to enroll full-time or attend summer 
and winter intersessions could improve students' likelihood of 
obtaining a certificate or degree. Here are two ways such an expansion 
could do so:

    <bullet> Students are currently eligible for a maximum Pell award 
upon enrolling in 12 credits in a single semester, but do not receive 
additional aid for enrollment beyond that. A redesign of Pell could 
provide incentives to enroll in additional credits. For example, Sandy 
Baum and others have advocated that students receive additional aid 
upon enrolling in 15 credits, the level of enrollment needed to 
graduate ``on time'' from many 4-year institutions.\6\
---------------------------------------------------------------------------
    \6\ Sandy Baum, Kristin Conklin, and Nate Johnson, ``Stop 
Penalizing Poor College Students,'' New York Times (November 12, 2013).
---------------------------------------------------------------------------
    <bullet> Pell awards for the spring and fall semesters currently 
count against students' total Pell limit for the year, reducing the 
amount of aid remaining for a winter or summer award. A redesign of 
Pell could provide a separate award for winter or summer intersessions, 
precluding scenarios where students would need to choose between 
receiving spring/fall aid and summer/winter aid.

    These examples are far from comprehensive--there are many ways that 
the Pell Grant program could be structured to encourage full-time or 
intersession enrollment. Further research is needed to determine the 
impacts and relative efficacy of different potential approaches, as 
well as the costs associated with each. In other words, current 
research suggests ``what'' an effective redesign of Pell might 
accomplish, but not as much ``how'' or ``how best'' to achieve it. 
Additionally, care should be taken that an expansion of Pell with an 
eye toward boosting completion does not compromise the program's 
original commitment to college access by creating undue obstacles for 
low-income students in need of aid.

    Question 3. Are benchmarks or expectations in financial aid 
programs effective at promoting student behaviors that lead to student 
success? Based on what is known from existing research, is the current 
structure of satisfactory academic progress for students in today's 
Federal student aid programs effective in promoting student progress? 
How could it be changed to provide better signals to recipients?
    Answer 3. Little is known about whether financial aid increases 
access and there is a growing body of evidence that financial aid 
improves academic success. Previous research suggests that financial 
aid is positively associated with increased enrollment in postsecondary 
education.\7\ Previous research also suggests it is positively 
associated with increased persistence.\8\ There have been a few studies 
of the effect of financial aid on other student outcomes, such as the 
type of institution chosen by students (2-year versus 4-year), the 
composition of financial aid packages (grants versus loans), course-
taking patterns, and completion, but the few findings that do exist are 
mixed.\9\
---------------------------------------------------------------------------
    \7\ Susan Dynarski, ``Hope for Whom'' Financial Aid for the Middle 
Class and Its Impact on College Attendance,'' National Bureau of 
Economic Research Working Paper No. 7,756 (Cambridge, MA: National 
Bureau of Economic Research, 2000); Susan Dynarski, ``Does Aid Matter'' 
Measuring the Effect of Student Aid on College Attendance and 
Completion,'' American Economic Review 93, 1 (2003); Christopher 
Cornwell, David B. Mustard, and Deepa J. Sridhar, ``The Enrollment 
Effects of Merit-Based Financial Aid: Evidence from Georgia's Hope 
Program,'' Journal of Labor Economics 24, 4 (2006).
    \8\ Edward St. John, Shouping Hu, and Jeff Weber, ``State Policy 
and the Affordability of Public Higher Education: The Influence of 
State Grants on Persistence in Indiana,'' Research in Higher Education 
42 (2001); Susan Choy, Access and Persistence: Findings from Ten Years 
of Longitudinal Research on Students (Washington, DC: Center for Policy 
Analysis, American Council on Education, 2002); Eric Bettinger, ``How 
Financial Aid Affects Persistence,'' in Caroline M. Hoxby (ed.), 
College Choices: The Economics of Where to Go, When to Go, and How to 
Pay for It (Chicago: University of Chicago Press, 2007).
    \9\ For a summary, see Don Hossler, Mary Ziskin, Jacob P.K. Gross, 
Sooyeon Kim, and Osman Cekic, ``Student Aid and Its Role in Encouraging 
Persistence,'' in J. C. Smart (ed.), Higher Education: Handbook of 
Theory and Research (Netherlands: Springer Science + Business Media 
B.V., 2009). Also see Judith Scott-Clayton, ``On Money and Motivation: 
A Quasi-Experimental Analysis of Financial Incentives for College 
Achievement,'' Journal of Human Resources 46, 3 (2011).
---------------------------------------------------------------------------
    Yet empirical research across a number of fields provides evidence 
that incentives do work to align actual behavior with desired behavior, 
with positive relationships found between monetary incentives and a 
number of behaviors such as welfare exits, crime reduction, and smoking 
cessation.\10\ Perhaps as a result, there has been a recent explosion 
of work applying incentive schemes in the field of secondary education 
to encourage students to increase time spent reading, test taking and 
test scores, course performance, and matriculation.\11\
---------------------------------------------------------------------------
    \10\ For findings related to welfare exits, see Cynthia Miller, 
Virginia Knox, Patricia Auspos, Jo Anna Hunter, and Alan Orenstein, 
Making Work and Work Pay: Implementation and 18-Month impacts of the 
Minnesota Family Investment Program (New York: MDRC, 1997); Winston 
Lin, Philip Robins, David Card, Kristen Harknett, and Susanna Lui-Gurr, 
When Financial Incentives Encourage Work: Complete 18-Month Findings 
from the Self-Sufficiency Project (Ottawa, Canada: Social Research and 
Demonstration Corporation, 1998); Charles Michalopoulos, Philip Robins, 
and David Card, When Financial Work Incentives Pay for Themselves: 
Early Findings From the Self-Sufficiency Project's Applicant Study 
(Ottawa, Canada: Social Research and Demonstration Corporation, 1999). 
For findings on crime, see Naci Mocan and R. Kaj Gittings, ``The Impact 
of Incentives on Human Behavior: Can We Make It Disappear? The Case of 
the Death Penalty,'' National Bureau of Economic Research Working Paper 
No. 12,631 (Cambridge, MA: National Bureau of Economic Research, 2006). 
For findings on smoking cessation, see Kevin Volpp, et al., ``A 
Randomized, Controlled Trial of Financial Incentives for Smoking 
Cessation,'' New England Journal of Medicine 360, 7 (2009).
    \11\ For incentives used to encourage private school attendance, 
see Joshua Angrist, Eric Bettinger, Erik Bloom, Elizabeth King, and 
Michael Kremer, ``Vouchers for Private Schooling in Colombia: Evidence 
from a Randomized Natural Experiment,'' American Economic Review 92, 5 
(2002). For incentives used to increase test scores, see Eric 
Bettinger, ``Paying to Learn: The Effect of Financial Incentives on 
Elementary School Test Scores,'' Review of Economics and Statistics 94, 
3 (2012); Kirabo Jackson, ``The Effects of an Incentive-Based High-
School Intervention on College Outcomes,'' National Bureau of Economic 
Research Working Paper No. 15,722 (Cambridge, MA: National Bureau of 
Economic Research, 2010); Nuria Rodriguez-Planas, ``Longer-term Impacts 
of Mentoring, Educational Services, and Incentives to Learn: Evidence 
from a Randomized Trial in the United States'' (MOVE, IZA and FEDEA 
working paper, 2010). For incentives to increase attendance, see 
Michael Kremer, Edward Miguel, and Rebecca Thornton, ``Incentives To 
Learn,'' Review of Economics and Statistics 91, 3 (2009); Amanda 
Pallais, ``Taking a Chance on College: Is the Tennessee Education 
Lottery Scholarship Program a Winner?'' Journal of Human Resources 34, 
1 (2009). For incentives to increase test scores, attendance, and 
reading, see Roland Fryer, ``Financial Incentives and Student 
Achievement: Evidence from Randomized Trials,'' Quarterly Journal of 
Economics 126 (2011). For incentives to graduate high school, see 
Joshua Angrist and Victor Lavy, ``The Effects of High Stakes High 
School Achievement Awards: Evidence from a Randomized Trial,'' American 
Economic Review 99, 4 (2009).
---------------------------------------------------------------------------
    While the findings from these studies have been mixed, the 
underlying theory is potentially powerful: With the correct incentive 
scheme, it may be possible to induce a change in behavior to produce 
desired educational outcomes without costly monitoring, which will 
benefit both students and society in the long run. However, there are 
also potential downsides, in that incentive schemes may induce 
undesirable behaviors such as cheating.\12\ There is a considerable 
body of literature in the field of psychology that suggests that 
monetary incentives could result in decreases in the desired behavior 
because of the destruction of intrinsic motivation.\13\ As a result, 
the design and implementation of incentives must be done carefully. The 
best evaluation approach to disentangle alternative explanations is a 
randomized controlled trial.
---------------------------------------------------------------------------
    \12\ For evidence of cheating among teachers in response to an 
incentive to increase test scores, see Brian Jacob and Steven Levitt, 
``Rotten Apples: An Investigation of the Prevalence and Predictors of 
Teacher Cheating,'' Quarterly Journal of Economics 118, 3 (2003).
    \13\ Edward L. Deci, Richard Koestner, and Richard M. Ryan, 
``Extrinsic Rewards and Intrinsic Motivation in Education: Reconsidered 
Once Again,'' Review of Educational Research 71, 1 (2001); Bruno S. 
Frey and Reto Jegen, ``Motivation Crowding Theory,'' Journal of 
Economic Surveys 15, 5 (2001); Alfie Kohn, Punished by Rewards: The 
Trouble with Gold Stars, Incentive Plans, A's, Praise, and Other Bribes 
(Boston: Houghton Mifflin Harcourt, 1999).
---------------------------------------------------------------------------
    To date, no randomized controlled trials have been conducted to 
evaluate the efficacy of the implementation of satisfactory academic 
progress (SAP), which is required to maintain any title IV Federal aid 
(including Pell Grants). As you know, SAP entails three components: 
passing 60 percent of courses attempted (to demonstrate academic 
progress), earning a grade point average (GPA) of at least 2.0 in these 
courses (to demonstrate academic performance), and, if these first two 
components are violated, increasing performance during an academic 
probation semester to be returned to good standing.\14\ While these 
criteria appear straightforward, in practice students may fail for 
several terms before their eligibility is restricted, as 2-year 
institutions are only required to check SAP annually for students in 2-
year programs (though they can check more frequently). In addition, 
students may continue to be in violation of SAP, lose their title IV 
eligibility, and yet remain enrolled if the costs of tuition and fees 
are very low.\15\ As a result, the incentive scheme under SAP may be 
weak in inducing students to alter their behavior.
---------------------------------------------------------------------------
    \14\ For specific details, see Chapter 1 in U.S. Department of 
Education, Federal Student Aid Handbook 2012-13 (Washington, DC: U.S. 
Department of Education, 2012).
    \15\ For evidence of this phenomenon in California, see Sue 
Scrivener, Colleen Sommo, and Herbert Collado, Getting Back on Track: 
Effects of a Community College Program for Probationary Students (New 
York: MDRC, 2009) for evidence of this in California.
---------------------------------------------------------------------------
    Several recent studies have been conducted--all employing rigorous 
experimental designs--to evaluate the effect on academic progress of a 
particular type of incentive scheme that we term incentive-based 
grants. Incentive-based grants are defined as additional financial aid 
to students that is contingent on academic performance. These grants 
are in addition to aid that students would typically receive based on 
their institutions' provision of financial aid, and therefore represent 
a net addition. In some instances, the grants--which do not need to be 
repaid--are intended to provide students with supplemental resources 
while simultaneously giving them an incentive to meet performance 
benchmarks. In other instances, the grants are only intended to 
motivate students to be more academically productive. In contrast, pure 
need-based aid provides students with resources to attend college while 
requiring that they meet minimal performance benchmarks. Nine 
randomized controlled trial studies demonstrate that incentive-based 
grants result in a larger proportion of students meeting academic 
benchmarks, a greater number of credits earned, and modest effects on 
GPA in the first year.\16\
---------------------------------------------------------------------------
    \16\ For a review of these studies, see Lashawn Richburg-Hayes, 
``Incentivizing Success: Lessons from Experimenting with Incentive-
Based Grants,'' PP. 101-26 in Andrew Kelly and Sara Goldrick-Rab 
(eds.), Reinventing Financial Aid (Cambridge, MA: Harvard Education 
Press, 2014).
---------------------------------------------------------------------------
    While these studies do not show that making SAP requirements more 
noticeable to students will have effects on its own, the theory of 
change seems pertinent to any changes in the SAP requirements. That is, 
since many students are not aware of an institution's SAP requirements, 
and since institutions typically evaluate SAP progress at the end of 
each academic year (so students do not know if they are at risk of 
failing to meet the standards), making the requirements salient--as in 
the studies--could improve performance. This change could be 
accomplished through interventions that draw on findings from the 
fields of behavioral economics and psychology regarding the deliberate 
crafting of messages and the effective delivery of information. Such 
changes could involve reminders to the parents of freshmen, reminders 
with aid disbursement, or the reserving of some portion of aid to be 
disbursed along the lines of incentive-based grants. Another innovation 
in financial aid could have institutions implement an early 
notification system, so that students have the opportunity to change 
their behavior if they are at risk of failing to meet SAP standards. 
While such systems are often labeled as student success strategies, 
they can have sizable implications for financial aid as well. Georgia 
State University's predictive analytics intervention is a well-known 
example of this type of intervention.

    Question 4. Why is it important that students complete their degree 
or certificate?
    Answer 4. Most students who attend college aspire to attain a 
degree or certificate--so low rates of completion, which are especially 
prevalent at community colleges, ``reflect widespread failure, 
disappointment, frustration, and thwarted potential among the millions 
of students who do not achieve their educational goals.''\17\
---------------------------------------------------------------------------
    \17\ Bailey, Thomas R., Shanna Smith Jaggars, and Davis Jenkins, 
Redesigning America's Community Colleges: A Clearer Path to Student 
Success (Cambridge, MA: Harvard University Press, 2015).
---------------------------------------------------------------------------
    In addition, earning a degree is positively associated with better 
life outcomes including, but not limited to, improved economics and 
health, increased civic participation, decreased use of the criminal 
justice system, and decreased reliance on public benefits.\18\ Although 
more difficult to determine definitively, most evidence suggests that, 
on average, degree or certificate completion is a cause of improved 
life outcomes in these realms.\19\ Moreover, for society, related 
benefits are accrued in terms of the economic benefits of an educated, 
internationally competitive workforce (including increased tax 
revenues), reduced poverty, and decreased criminal justice and social 
service costs.
---------------------------------------------------------------------------
    \18\ See U.S. Census Bureau, ``The Big Payoff: Educational 
Attainment and Synthetic Estimates of Work-Life Earnings'' (Washington: 
U.S. Census Bureau, 2002); Sandy Baum, Jennifer Ma, and Kathleen Payea, 
``Education Pays: The Benefits of Higher Education for Individuals and 
Society'' (Washington, DC: College Board, 2013).
    \19\ Thomas S. Dee, ``Are There Returns to Civic Engagement?'' 
Journal of Public Economics 88 (2004): 1,697-1,720.
---------------------------------------------------------------------------
                            senator cassidy
    Question 1. I am a father of a child who is dyslexic. As any proud 
father, I want the best for her and to see her succeed academically and 
in life. As such, research from the National Center for Learning 
Disabilities shows that students with learning disabilities--such as 
dyslexia--value a college education and most want to attend either a 2-
year or 4-year postsecondary education program.\20\
---------------------------------------------------------------------------
    \20\ http://www.ncld.org/reports-and-studies/2014-state-of-ld/.
---------------------------------------------------------------------------
    While 68 percent of students with learning disabilities are 
graduating high school with a regular diploma--a statistic that is too 
low but has risen over time\21\--these students continue to lag behind 
their peers in entering and completing college. Just 34 percent of such 
students completed a 4-year degree compared to 51 percent of students 
without disabilities.\22\
---------------------------------------------------------------------------
    \21\ http://www.ncld.org/reports-and-studies/diplomas-at-risk-a-
critical-look-at-the-high-school-graduation-rate/.
    \22\ http://www.nlts2.org.

    <bullet> As your organizations reviewed reasons for students not 
succeeding in college and as part of your development of initiatives to 
help such students succeed, what considerations were given to students 
who had learning differences?
    <bullet> If we really want students with learning disabilities to 
have access to postsecondary education, what are colleges and 
universities doing to educate their faculty about the needs of these 
college students? What are colleges and universities doing in general 
to accommodate these students?

    Answer 1. Thank you for asking these important questions. We want 
to provide you with an accurate and thoughtful answer, but, 
unfortunately, MDRC does not have expertise on these specific topics. 
However, other researchers may have more knowledge on this issue and we 
encourage you to make contact with them:

    <bullet> Debra Neubert, Ph.D., University of Maryland, College 
Park, Counseling, Higher Education, and Special Education (CHSE) 
Division, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="66020803130403141226130b024803021348">[email&#160;protected]</a> Dr. Neubert has expertise in transition 
services and secondary education, transition assessment, and technology 
in classrooms and communities.
    <bullet> Susan De La Paz, Ph.D., University of Maryland, College 
Park, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="671403020b0617061d27120a03">[email&#160;protected]</a>
.edu.
    <bullet> Jo M. Hendrickson, Ph.D., University of Iowa, executive 
director of UI REACH (Realizing Educational and Career Hopes), jo-
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f098959e948299939b839f9eb085999f8791de959485de">[email&#160;protected]</a>

    Question 2a. The U.S. Department of Education's College Navigator, 
an online tool to provide parents and prospective students with 
information about colleges falls short in collecting information about 
services available to students with learning disabilities. A random 
review of the profiles of 400 institutions of higher education in the 
College Navigator revealed that only six provided any information to 
students and the public about services available for students with 
learning disabilities at that college.\23\ When information is not 
provided to parents and students, it's difficult to make informed 
decisions about which college to attend.
---------------------------------------------------------------------------
    \23\ NCLD conducted review in January 2014.
---------------------------------------------------------------------------
    How do colleges communicate with prospective and enrolled students 
about the types of services and supports offered for students with 
learning disabilities, such as students with dyslexia?
    Answer 2a. Unfortunately, MDRC does not have expertise on this 
specific topic. However, the researchers named above may be able to 
provide assistance.

    Question 2b. Overall, how do colleges work with the K-12 
educational system to support a seamless transition from high school to 
postsecondary education for students with learning differences, such as 
students with dyslexia? If colleges and universities do not work with 
K-12 educational systems for such students, is this something Congress 
should consider as we reauthorize the Higher Education Act?
    Answer 2b. Generally, there is wide variation in the extent to 
which K-12 and college systems collaborate. Some systems do not 
collaborate at all, while other ``collaborations'' do not entail 
meaningful, shared programs or action behind the label of 
collaboration. As a result, ``seamless'' transitions are not the norm 
for the majority of students. It seems reasonable, then, to presume 
there also is variation in whether and how much K-12 districts and 
colleges collaborate in support of students with learning difficulties. 
We might hope that there is a formal hand-off from a support/Special 
Education staff member at a high school to a designated college staff 
member charged with supporting such students, but we do not know 
whether that happens. MDRC has evaluated models like P-TECH, which are 
designed to help students make smooth transitions between secondary and 
postsecondary schools, but these models do not specifically target 
students with special needs or learning challenges (even though some 
students enroll with individual educational plans, or IEPs).
    As you know, IEPs allow for transition plans for students from high 
school to work/college. There are colleges that specialize in helping 
students with learning disabilities make the transition from high 
school to college. Landmark College (www.landmark.edu) is one such 
institution. Since MDRC does not have expertise on this specific topic, 
we encourage you to make contact with Noel Gregg at the University of 
Georgia (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e00091c0b09092e1b090f400b0a1b">[email&#160;protected]</a>) or Jennifer Windstorm at the University of 
Georgia (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d5bfbdb995a0b2b4fbb0b1a0">[email&#160;protected]</a>).
                            senator collins
    Question 1. The various forms of Federal financial aid have helped 
increase college access. I am concerned, however, that there is little 
Federal effort to increase awareness among students about college 
costs, debt, and repayment, and that students can become discouraged 
from completing their degrees if they feel overwhelmed by cost.
    Husson University in Bangor, ME, where I worked prior to my 
election to the Senate, requires all freshmen students to enroll in a 
one-credit student success seminar, which includes financial literacy 
and other essential skills development. In your view, what forms of 
financial counseling are most effective? Are there Federal impediments 
to increasing student financial awareness?
    Answer 1. MDRC has conducted research that speaks to parts of this 
question, but more research that is rigorous is needed to identify 
effective financial counseling approaches. MDRC did evaluate a Student 
Success Course at Guilford Community College. This evaluation did not 
look specifically at financial literacy or other outcomes related to 
college financing, but it did find that the course positively affected 
students' self-management, interdependence, self-awareness, interest in 
lifelong learning, emotional intelligence, and engagement in college, 
among students with low levels of these attributes.\24\ These results 
suggest that such courses may be a good way to improve related outcomes 
such as financial literacy (although the evaluation did not find 
evidence that the course positively affected students' academic 
achievement).
---------------------------------------------------------------------------
    \24\ See Elizabeth Zachry Rutschow, Dan Cullinan, and Rashida 
Welbeck, Keeping Students On Course: An Impact Study of a Student 
Success Course at Guilford Technical Community College (New York, MDRC, 
2012).
---------------------------------------------------------------------------
    MDRC is also evaluating a new program, called Aid Like A Paycheck, 
which distributes students' financial aid refunds on a biweekly 
basis.\25\ One goal is to spread out students' income more evenly 
across the semester in order to help them better manage their finances. 
MDRC is also leading a large project to apply insights from behavioral 
science to social services programs: the Behavioral Interventions to 
Advance Self-Sufficiency project, sponsored by the Administration for 
Children and Families in the U.S. Department of Health and Human 
Services.\26\ The studies in this project have demonstrated that low-
cost behavioral interventions, such as crafting messages and providing 
information, can meaningfully change behaviors. Similar efforts to 
increase financial literacy are also worth exploring.
---------------------------------------------------------------------------
    \25\ See www.mdrc.org/project/aid-paycheck#overview.
    \26\ See www.mdrc.org/project/behavioral-interventions-advance-
self-sufficiency-project#over
view.
---------------------------------------------------------------------------
                              senator enzi
    Question 1. Could you please tell us about the efforts that 
Institutions of Higher Education are making to accommodate retraining 
for adults to change careers by attending school part-time, especially 
in an economy as changing as ours?
    Answer 1. In general, community colleges are particularly well-
suited to serve this population and about half of all students work at 
least part-time while attending such institutions. While 4-year 
institutions also offer services and programs to working adults seeking 
to upgrade their skills, community colleges serve such students in many 
ways:

    <bullet> Community colleges offer short-term and long-term 
certificate programs in hundreds of occupations, allowing workers to 
acquire industry-recognized or college-provided certificates while 
still working.
    <bullet> Community colleges offer classes during the evening so 
that adults who work during the day can pursue training and education 
at night.
    <bullet> Community colleges collaborate with local employers to 
provide customized training for incumbent workers.
    <bullet> Community colleges are ``eligible training providers'' for 
Workforce Investment Act funding and often work closely with the local 
One-Stop Career Centers to serve the needs of dislocated and unemployed 
workers who have low incomes and who are therefore eligible for 
Workforce Investment Act funding that can pay for tuition and living 
costs.
    <bullet> Community colleges are becoming increasingly active in 
providing training for apprenticeship programs, which allow people to 
work and earn while at the same time learning new skills.
    <bullet> Community colleges have low costs and open admission, and 
are located at convenient locations throughout the country, affording 
easy access to low income, working adults.
    <bullet> Community colleges are often the main providers of Adult 
Basic Education and English Language Learner programs that serve a 
particularly vulnerable population with low academic skills.
                             senator murray
    Question 1. Poverty and financial need can have a profound impact 
on students' ability to succeed. Research shows that high-achieving 
students from low-income backgrounds are less likely to complete than 
high-achieving students from families with higher incomes, even when 
controlling for their academic preparation at the time of enrollment.
    Are there opportunities for postsecondary institutions, including 
community colleges and traditional 4-year colleges, to develop 
counseling and support services specifically geared toward meeting the 
unique needs of high-achieving, first-generation students from 
economically disadvantaged backgrounds and ensuring that they are 
successful?
    Please describe how such initiatives might work and the benefits 
they could bring to this demographic of students.
    Answer 1. Many opportunities exist for postsecondary institutions 
to develop counseling and support services that target low-income, 
high-achieving, first-generation students with the intent of ensuring 
their success. A number of postsecondary institutions have developed 
and implemented a wide range of programs and other forms of support to 
help this group of students in their transition on college campuses. 
Below we provide a few examples.
    Lansing Community College students who are enrolled in the 
federally funded TRIO program have access to student support services 
that include academic advising, tutoring, educational development 
plans, student development courses, cultural events, and campus visits. 
To learn more, visit www.lcc.edu/trio.
    The University of Cincinnati offers students access to first-
generation themed housing, which is complemented by advising and other 
forms of support. To learn more, visit http://www.uc.edu/gen-1-theme-
house.html and see the 2009 New York Times feature story ``Second Home 
for First-Gens''\27\
---------------------------------------------------------------------------
    \27\ Dana Jennings, ``Second Home for First-Gens,'' New York Times 
(July 20, 2009).
---------------------------------------------------------------------------
    Clemson University operates the FIRST Generation Student Success 
Program, which offers living learning communities, peer and alumni 
mentoring, study-skills and time-management workshops, and career-
exploration opportunities for first-generation students. To learn more, 
visit http://www.clemson.edu/academics/programs/first.
    Housed in the Academic Resource Center, Loyola Marymount University 
offers a First to Go Scholars Program (which has its own mission 
statement and learning outcomes). Program features include a Scholars 
Program for first year-students, learning communities, academic 
immersion programs, faculty and staff mentors, a job-shadowing 
experience with faculty and staff members, and a one-credit writing 
workshop and first-gen voices student journal. To learn more, visit 
http://academics.lmu.edu/arc/programswesupport/firsttogocommunity/
firsttogoscholarsprogram.
    In 2011, the University of Kentucky developed the Office of First 
Generation Initiatives to ``lead campus-wide efforts to recruit, retain 
and graduate more first generation students.'' According to its 
website, the office delivers a comprehensive set of collaborative 
services that includes but is not limited to specific programs for 
students in their first year, sophomore, junior, and senior years of 
college; scholarship support; and ``living-learning communities'' that 
combine course work with residential programs.
    The university's website reports many benefits for students who 
participate in the living-learning community. Students,

        ``get better grades--in the first fall semester 3.26 GPA, 
        compared to 2.80 for peers not in a Living-Learning 
        environment. In addition, students in the Living-Learning 
        Program stay in school; 88.4 percent more return for their 
        sophomore year, compared to 80.8 percent for their cohort 
        peers. Students are also more likely to adjust more 
        successfully to the academic demands of college, declare a 
        major in their freshman year and find their academic work more 
        interesting. Participating in a living learning community, 
        which incurs no additional cost, helps keep students on track 
        toward graduation by helping them connect with advisors, 
        professors and other staff.''

    To learn more, visit: Office of First Generation Initiatives: 
www.uky.edu/academy/1G; or First Generation Living Learning Community: 
http://uknow.uky.edu/content/students-live-and-learn-uk.
    Some of the Nation's most selective colleges have also recognized 
the need to support first-generation students, and some, including 
Harvard University, begin in the recruitment phase. Harvard 
University's Admissions Office created the Harvard First Generation 
Program, which focuses on ``directing college awareness to future first 
generation college students.'' The program is staffed by coordinators 
who provide support and information as high school students begin to 
navigate the college application process. Once enrolled, students have 
access to a first-generation tutor (adviser), a specific student union 
for first-generation students, and an alumni special interest group 
that is focused on helping first-generation students make a smooth 
transition at the university. To learn more, visit:

    <bullet> Harvard First Generation Program: https://
college.harvard.edu/admissions/hear-our-students/first-generation-
students;
    <bullet> Harvard First Gen Student Union: www.hcs.harvard.edu/
firstgen/;
    <bullet> Harvard First Generation Alumni: 
www.firstgenerationharvardalumni.com/; or The New York Times article 
``First Generation Students Unite'': or
    <bullet> http://www.nytimes.com/2015/04/12/education/edlife/first-
generation-students-unite.html?_r=0.

    Duke University reports that in 2009, the university created the 1G 
Network, an informal collaboration among the Academic Resource Center, 
Counseling and Psychological Services, and other offices to offer a 
pre-orientation workshop, advising, peer mentoring, and social 
opportunities for its approximately 500 first-generation 
undergraduates. Throughout the year, 1G students are invited to 
community dinners and faculty networking sessions, as well as informal 
get-togethers. Five years later, in 2014, Duke created a university-
level financial aid position--a director of outreach and access--to 
cater to low-income and first-generation applicants. To learn more, 
visit:http://dukemagazine.duke.edu/article/blazing-trail and 
www.dukechronicle.com/article/2014/09/new-position-created-support-
first-generation-students.
    The division of Undergraduate Retention in the Office of 
Undergraduate Education at the University of North Carolina at Chapel 
Hill promotes the success of its ``Carolina First'' students through a 
website (http://firstgeneration.unc.edu) that features the personal 
stories of students (as well as faculty and staff members) who are (or 
were at one time) first-generation students. The website also includes 
links to campus services and resources.
    These are just a few of the types of support that are being 
implemented in the Nation's 2- and 4-year colleges for low-income, 
moderate- and high-achieving, first-generation students. While these 
initiatives vary widely in scope, they share a common set of goals to:

    <bullet> fill information gaps that students have about the college 
experience and what is expected of them academically and socially;
    <bullet> reduce students' feelings of isolation and disengagement 
by creating opportunities for them to become integrated in the academic 
life of the institution and by encouraging their participation in the 
overall college/university culture;
    <bullet> increase students' network by connecting them to on-campus 
and off-campus resources;
    <bullet> recognize students' existing social capital and buildupon 
it;
    <bullet> reduce student attrition rates;
    <bullet> increase student retention rates;
    <bullet> increase graduation rates; and
    <bullet> promote awareness of the unique needs of first-generation 
students among an institution's faculty, staff and administration.

    While these programs seem promising, there is little definitive 
evidence on whether they improve student outcomes. One program with 
such rigorous evidence is the City University of New York's Accelerated 
Study in Associate Programs (ASAP), a program that covers any tuition 
and fees not covered by need-based financial aid, covers public 
transportation costs, and provides additional financial assistance for 
textbooks combined with a rich package of intensive student services 
and other reforms. In its early years, ASAP targeted students who had 
no developmental education needs. While this group had some students 
who may not be considered ``high-achieving,'' the positive graduation 
outcomes obtained for this group (in addition to other student types) 
suggests that the program may also be highly beneficial for high-
achieving, first-generation students from economically disadvantaged 
backgrounds.
                             senator warren
    Question 1. Do colleges have enough incentives to improve student 
success?
    Answer 1. Colleges may not have sufficient incentives to improve 
student success, although this likely varies by institution type. Where 
incentives are not strong enough, the performance-based funding/
outcomes-based funding approach to incentives, as discussed in the 
Senate hearing, is risky. This approach may help, it may hurt, or it 
may have neutral effects. However, we believe that performance funding 
is likely to punish many effective institutions and reward many 
ineffective institutions, potentially undermining its intentions.
    Broadly speaking, there are at least three ways for colleges to 
improve institutional outcomes (for example, graduation rates):

    (1) Improve institutional effectiveness;
    (2) Select students who are more likely to graduate; and
    (3) Lower institutional standards to achieve desired outcomes.

    The main goal of performance funding should be to provide 
incentives for the first strategy while avoiding the other two. The 
typical solution suggested to protect against colleges using the second 
strategy is to use input-adjusted outcomes (where outcomes are adjusted 
to account for differences in student demographics), and the typical 
solution suggested to protect against the third is to rely on 
accreditors. While these solutions may mitigate concerns, they will not 
eliminate them, and it is unclear whether they will diminish them 
significantly.
    Two major obstacles to comparing colleges' relative effectiveness 
are: (1) institutions serve different types of students, and (2) 
generally, there are not standardized outcomes in higher education. As 
discussed during the hearing, there are ways to mitigate (although not 
eliminate) concerns about the first obstacle. For example, institutions 
could receive bonus points for serving low-income students whose 
likelihood of succeeding is, on average, lower than their higher income 
counterparts.\28\ Making adjustments like this may make cross-
institutional comparisons fairer, but such approaches will not result 
in apples-to-apples comparisons. For example, the low-income students 
attending open-access 4-year colleges are not the same as the low-
income students attending elite 4-year colleges. Making such 
adjustments based on measured characteristics will only partially 
address the fact that institutions serve different types of students 
with different propensities to succeed.
---------------------------------------------------------------------------
    \28\ A number of States already have such adjustments. See Martha 
Snyder, Driving Better Outcomes: Typology and Principles to Inform 
Outcomes-Based Funding Models (Washington, DC: HCM Strategists, 2015).
---------------------------------------------------------------------------
    The even bigger challenge is that proposed outcomes for performance 
funding are not standardized, making cross-institutional comparisons 
ambiguous at best, and meaningless at worst. For example, consider a 
common performance-funding outcome like degree completion. Little is 
known about how much variation exists across institutions in the 
difficulty of earning a degree. One reason for this is that we cannot 
disentangle difficulty of earning a degree from institutional 
effectiveness. To make the point clear, even if College X and College Y 
both serve students who look identical upon their entrance, comparing 
their graduation rates does not enable one to know whether (a) one 
college is more effective than the other or (b) one college simply has 
higher standards than the other.
    While it may be impossible to quantify how much variation in 
difficulty of earning a degree there is in higher education, research 
in K-12 education can provide some guidance. An analogous situation has 
been carefully examined in K-12 schools, where States are required to 
report the percentages of students achieving proficiency in reading and 
mathematics on statewide exams. Importantly, each State administers a 
unique State exam with unique content and a unique proficiency cut 
score (much as each college can be thought of as having its own unique 
requirements to graduate and its own unique stringency to meet those 
graduation requirements).
    Because the State exams are different, one might wonder whether 
there is utility in making cross-State comparisons in proficiency rates 
on these State exams, in order to determine which States have the 
highest achieving students. The U.S. Department of Education 
commissioned a paper to examine this issue taking advantage of the 
National Assessment of Educational Progress (NAEP), a national 
standardized exam that allows for valid cross-State comparisons.\29\ 
The general conclusion of the study is that, ``The observed 
heterogeneity in States'' reported percent proficient can be largely 
attributed to differences in the stringency of their standards.''
---------------------------------------------------------------------------
    \29\  National Center for Education Statistics, Mapping 2005 State 
Proficiency Standards onto the NAEP Scales (NCES 2007-482), U.S. 
Department of Education, (Washington, DC: National Center for Education 
Statistics, 2007).
---------------------------------------------------------------------------
    In other words, the study found that if you compare the percentage 
proficient in one State with the percentage proficient in another State 
using an outcome that is not standardized across States, differences 
largely have to do with the stringency of standards. Simply put: It may 
be invalid to use nonstandardized outcomes, like college graduation 
rates, to make cross-institutional comparisons.
    Below is a plot of the data from that U.S. Department of Education-
commissioned paper.\30\ On the x-axis is each State in the United 
States. The y-axis shows the percentage of fourth-graders meeting 
proficiency standards using their State's math test (the leftmost bar, 
in gray) and the NAEP (the rightmost bar, in black). Although each 
State's test is designed to measure mathematics achievement, the tests 
are different and the proficiency definitions are different. NAEP also 
measures mathematics achievement, but unlike the State exams, all 
students in the country take the same test using the same definition of 
proficiency. There is almost no relationship between the percentage 
proficient on NAEP and the percentage proficient using the State test. 
Massachusetts exemplifies the problem: Looking at the NAEP scores, 
Massachusetts has the highest-achieving fourth-graders in the country. 
However, because Massachusetts' State test is extremely difficult, the 
State ranks fourth from the bottom on the percentage of students 
passing their own statewide exam. If K-12 education implemented 
performance funding based on the percentage proficient on State exams, 
Massachusetts--the State with the highest-achieving students--would be 
penalized.
---------------------------------------------------------------------------
    \30\ Chart is derived by MDRC based on numbers from http://
nces.ed.gov/nationsreportcard/studies/statemapping/
2007_naep_state_table.asp.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    This example illustrates that rewarding or punishing colleges based 
on their relative effectiveness is going to be problematic. Performance 
funding could penalize those operating in the desired direction while 
rewarding others who may not merit the resources, as no standard exists 
to measure relative performance adequately.
    As a result, we can say that there are several reasons to be 
cautious about performance-based funding in higher education. We cannot 
determine institutions' relative effectiveness, so rewards will only be 
connected loosely with institutional effectiveness and will mostly be 
doled out at random. Moreover, there is concern that performance 
funding may suffer from unintended consequences, like providing 
incentives to ``cream'' students and to lower standards, although well-
crafted safeguards could help. Despite these issues, it is nonetheless 
possible, but unknown, that performance-based funding could have an 
overall positive effect by increasing focus and attention on outcomes 
rather than enrollment rates.
    Alternative approaches to provide incentives for improvement may 
offer similar benefits, but bear less risk. For example, government 
entities could provide incentives for institutions to replicate 
programs with strong evidence of effectiveness from randomized 
controlled trials (for example, CUNY's ASAP). Simultaneously, they 
could provide incentives for institutions to participate in randomized 
controlled trial evaluations to add to the knowledge base concerning 
effective practices. One example of this general approach is the First 
in the World competition, which offered validation grants to colleges 
willing to replicate programs with a proven record of accomplishment 
and which requires rigorous independent evaluation for grant 
recipients.

    Question 2. What policies would give for-profit colleges an 
incentive to improve outcomes for their students?
    Answer 2. Thank you for asking this important question. We want to 
provide you with an accurate and thoughtful answer, but, unfortunately, 
MDRC does not have expertise on this specific topic. However, we 
suggest that you make contact with Dr. James Rosenbaum, Professor of 
Sociology, and Education and Social Policy, Northwestern University (j-
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7e0c110d1b101c1f0b133e">[email&#160;protected]</a> northwestern.edu).

    [Whereupon, at 11:30 a.m., the hearing was adjourned.]

                              [all]
      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
